<html>
<title> - CONFRONTING THE RISE IN ANTI-SEMITIC DOMESTIC TERRORISM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


        CONFRONTING THE RISE IN ANTI-SEMITIC DOMESTIC TERRORISM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            INTELLIGENCE AND
                            COUNTERTERRORISM
                            
				OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 15, 2020

                               __________

                           Serial No. 116-58

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
41-310 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                              
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                 
                                 ------                                

           SUBCOMMITTEE ON INTELLIGENCE AND COUNTERTERRORISM

                      Max Rose, New York, Chairman
Sheila Jackson Lee, Texas            Mark Walker, North Carolina, 
James R. Langevin, Rhode Island          Ranking Member
Elissa Slotkin, Michigan             Peter T. King, New York
Bennie G. Thompson, Mississippi (ex  Mark Green, Tennessee
    officio)                         Mike Rogers, Alabama (ex officio)
             Sandeep Prasanna, Subcommittee Staff Director
           Mandy Bowers, Minority Subcommittee Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Max Rose, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Intelligence 
  and Counterterrorism:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Mark Walker, a Representative in Congress From the 
  State of North Carolina, and Ranking Member, Subcommittee on 
  Intelligence and Counterterrorism:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4

                               WITNESSES
                                Panel I

Mr. Jonathan Greenblatt, CEO, Anti-Defamation League (ADL):
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Nathan Diament, Executive Director, Union of Orthodox Jewish 
  Congregations of America:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Mr. Clifford D. May, Founder and President, Foundation for the 
  Defense of Democracies:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27
Mr. Eugene Kontorovich, Professor of Law, Antonin Scalia Law 
  School, George Mason University:
  Oral Statement.................................................    38
  Prepared Statement.............................................    40

                                Panel II

Mr. John J. Miller, Deputy Commissioner of Intelligence and 
  Counterterrorism, New York City Police Department:
  Oral Statement.................................................    63
  Prepared Statement.............................................    66
General John R. Allen, USMC, Retired, Co-Chair, Homeland Security 
  Advisory Council Subcommittee for the Prevention of Targeted 
  Violence Against Faith-Based Organizations, and President, 
  Brookings Institute:
  Oral Statement.................................................    70
  Joint Prepared Statement.......................................    74
Mr. Paul Goldenberg, Co-Chair, Homeland Security Advisory Council 
  Subcommittee for the Prevention of Targeted Violence Against 
  Faith-Based Organizations, and Chairman and President, Cardinal 
  Point Strategies:
  Oral Statement.................................................    70
  Joint Prepared Statement.......................................    74

 
        CONFRONTING THE RISE IN ANTI-SEMITIC DOMESTIC TERRORISM

                              ----------                              


                      Wednesday, January 15, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                              Subcommittee on Intelligence 
                                      and Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
Room 310, Cannon House Office Building, Hon. Max Rose [Chairman 
of the subcommittee] presiding.
    Present: Representatives Rose, Jackson Lee, Langevin, 
Slotkin, Clarke, Rice, Thompson (ex officio); Walker, King, 
Green, and Rogers.
    Also present: Representatives Deutch, Gottheimer, Raskin; 
and Zeldin.
    Mr. Rose. The Subcommittee on Intelligence and 
Counterterrorism will come to order. Before I begin, I made the 
mistake of acknowledging my counterpart, Congressman Walker, 
during this hearing that I did not realize was actually on the 
record. So I am going to repeat what I said previously because 
our friend, who is injured because he tried to wrestle me, he 
has made the decision to briefly pause his career in public 
service. I do not believe it is the last chapter by any sense 
of the word, but to say so definitively on the record, it has 
been one of the greatest honors of my life serving on this 
subcommittee with Mr. Walker, and I look forward to serving 
with you in many different capacities for many years to come, 
sir.
    So this subcommittee is meeting today to receive testimony 
on Confronting the Rise in Anti-Semitic Domestic Terrorism.
    Without objection, the Chair is authorized to declare the 
subcommittee in recess at any point.
    Without objection, Members not on the committee shall be 
permitted to sit and question the witnesses.
    I now recognize myself for an opening statement, and I will 
make it quick because I am very eager to hear the testimony of 
the experts before us.
    Poway, Pittsburgh, Monsey, 1,800 anti-Semitic incidents in 
2018 throughout the United States; 2,049 of these incidents 
carried out by extremists. Since December 23 over a dozen 
attacks on Jews across New York City, and after each and every 
one of these attacks, there is some elected official in America 
that says, ``Our thoughts and prayers are with the victim and 
their families.''
    After each and every one of these attacks there is some 
elected official in America who says we must take action.
    Well, today that is exactly what we have got to focus on, 
the why. Why is this happening? How is this happening? But most 
importantly, what do we do tomorrow and the next week and the 
next month?
    Today in my community and communities across America, Jews 
are afraid to go outside with their kippah on, afraid to speak 
Hebrew in public, afraid to congregate amongst their friends 
and family, afraid to observe the High Holy Days.
    Over 100 years ago, my great grandfather came to New York 
City fleeing anti-Semitism, and he came to New York City and he 
came to America because this country is not just a country. It 
stands for something. It has been a beacon that if you are 
fleeing hate, it has been a beacon for freedom.
    Today we consider how can we ensure that our best days are 
not in our rearview mirror. We look forward to considering 
everything from appointing Federal officials, FBI, DHS Task 
Force. How do we regulate social media? How do we increase 
funding to make sure that no person is afraid to pray, whether 
at a church, a synagogue, a mosque?
    Today we consider the rise of anti-Semitism across the 
political spectrum because we realize this is not a problem for 
any political party, and this is not certainly something that 
we should subject to the hyper-partisanship and divisiveness 
that has taken over this town.
    Hopefully, for a few hours today we can be a body that 
considers a problem and solutions to that problem.
    [The statement of Chairman Rose follows:]
                     Statement of Chairman Max Rose
                            January 15, 2020
    Thank you to all of the witnesses for coming here today to testify 
on the topic of domestic terrorism motivated by anti-Semitism. This is 
an issue that has deeply affected my district, my community, and the 
whole New York City area. In 2018, the ADL identified over 1,800 anti-
Semitic incidents throughout the United States. That number has been 
rising over the last several years. Disturbingly, 249 of these anti-
Semitic incidents were carried out by extremists--the highest 
proportion of such attacks since 2004. Since December 23, there have 
been over a dozen attacks on Jews across New York City, after the 
terror attack in Jersey City that claimed 4 innocent lives. On December 
28, during Hanukkah, an extremist stabbed 5 people at a Hasidic rabbi's 
home in Monsey, New York.
    Recently, white nationalists put up posters in my neighborhood and 
had the audacity to hang a banner over a major highway, the Belt 
Parkway, in Brooklyn in my district. Jewish people have been coming to 
America since before it was even called America in order to freely 
practice their religion, escape persecution, and build a better life 
for their families. Yet now we are under assault by extremists, many of 
whom are emboldened to act and often encouraged by content on social 
media platforms. The time for thoughts and prayers has passed--the time 
now is for action.
    Today's hearing is an opportunity for all of us to hear from 
experts on anti-Semitic violence and homeland security. I hope we will 
take this opportunity seriously and focus on the violence that is 
terrorizing the Jewish community. Democrats on this committee have led 
on this issue. In fact, this week, the President is expected to sign 
into law H.R. 2479, a bill led by Chairman Thompson, which I have 
cosponsored and fought for, that will authorize and fund the Nonprofit 
Security Grant Program to help secure synagogues and other houses of 
worship. I fought for funding for this program to be increased to $90 
million. It was increased, thanks to strong bipartisan support. But we 
also need to consider what measures lawmakers and law enforcement can 
implement to make sure that anti-Semites and racists can't carry out 
acts of violence, and that domestic terrorism is seen as the crime that 
it is.
    Government officials, at all levels, have a duty to protect Jewish 
individuals, communities, and institutions from anti-Semitic violence, 
and must put forth comprehensive strategies to address it. That 
includes meaningful and respectful outreach and partnerships with 
Jewish community institutions. In doing so, these strategies should 
protect and uplift the civil rights and civil liberties of all 
Americans. We cannot forget that Anti-Semitic violence in the United 
States is often linked to transnational networks of terror and hate, 
including global networks of white supremacist extremists in Europe and 
elsewhere. The Government must prioritize understanding and combating 
these networks in order to prevent anti-Semitic and racist violence. 
And, as we all know too well, anti-Semitic violence is too often linked 
to vitriolic discourse on-line. The Government should be encouraging 
social media companies to prioritize the removal of terrorist content--
including violent anti-Semitic content--in order to prevent on-line 
hate from turning into real-life violence.
    That's why I've introduced H.R. 5209, the Raising the Bar Act, that 
would direct DHS to establish a voluntary program to grade social media 
companies on their ability to moderate terrorist content by their own 
standards. I hope this bill will earn bipartisan support and move to 
the House floor as soon as possible. Today, we're going to hear from 2 
panels of experts. On this first panel, we will hear from non-
governmental experts about the issue of anti-Semitic domestic terrorism 
and their recommendations for Government on how to deal with violence 
affecting Jewish communities in America. On the second panel, we will 
hear about what the Government is currently doing, and what more they 
should be doing.

    Mr. Rose. So with that, ladies and gentlemen, again, thank 
you all for being here. I would like to acknowledge Chairman 
Thompson, who is, I think, the most extraordinary Chairman of a 
committee in the history of the U.S. Congress, and I defer to 
you if you would like to make an opening statement, sir.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I am not used to getting such nice comments from you.
    [Laughter.]
    Mr. Thompson. I thank you for convening this important 
hearing today.
    This hearing is an opportunity for all Members of Congress 
to come together and condemn acts of domestic terrorism and 
targeted violence motivated by anti-Semitism. The issue has 
been a priority for a long time for this committee.
    As many of you heard at our May 2019 full committee 
hearing, entitled ``Confronting the Rise of Domestic Terrorism 
in the Homeland,'' we have seen a dramatic and disturbing rise 
in acts of right-wing domestic terrorism, including anti-
Semitic violence in recent years.
    Unfortunately, recent events have once again confirmed that 
anti-Semitic violence is an urgent and growing threat to the 
homeland.
    Just last month, the Jewish communities in New York and New 
Jersey areas were subject to multiple violent, hateful acts. 
These acts have once again reminded us why it is so important 
for the Federal Government to work with its State and local 
partners to combat anti-Semitic domestic terrorism.
    Across the country we have seen that houses of worship and 
other religious institutions have increasingly been targeted 
for acts of violence. That is why I was proud to introduce H.R. 
2476, the American Nonprofit Organizations Against Terrorism 
Act of 2019, which authorizes the Nonprofit Security Grant 
Program for years to come.
    The program provides grants to nonprofits and faith-based 
organizations in both urban and rural areas to help secure 
their families against a potential terrorist attack. I am 
pleased the bill passed both the House and Senate, and I hope 
that the President will sign it into law shortly.
    While this is an important step, Congress must make sure 
that all precautions are taken to protect communities targeted 
by hate and violence. This includes reevaluating the grants 
program, funding levels and working with community groups and 
leaders to establish meaningful partnerships to attack this 
issue.
    Separately, I am encouraged that DHS released the first-
ever strategic framework for combatting terrorism and targeted 
violence. Although I still have many questions as to its 
implementation, this strategy appears to be a step in the right 
direction.
    I look forward to continuing oversight over the Department 
on this issue and working together with stakeholders to suggest 
further improvements in this effort.
    I hope to hear today additional suggestions as to how this 
committee can curb domestic terrorism while respecting and 
protecting the civil rights and civil liberties of all 
Americans.
    Congress must continue to advocate for policies that 
protect the Jewish community and all communities impacted by 
acts of domestic terror.
    I look forward to hearing testimony from the witnesses, and 
I again thank Chairman Rose for convening this hearing.
    I yield back.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                            January 15, 2020
    This hearing is an opportunity for all Members of Congress to come 
together and condemn acts of domestic terrorism and targeted violence 
motivated by anti-Semitism. This issue has been a priority for this 
committee. As many of you heard at our May 2019 Full committee hearing 
entitled ``Confronting the Rise of Domestic Terrorism in the 
Homeland'', we have seen a dramatic and disturbing rise in acts of 
right-wing domestic terrorism, including anti-Semitic violence, in 
recent years. Unfortunately, recent events have once again confirmed 
that anti-Semitic violence is an urgent and growing threat to the 
homeland.
    Just last month, the Jewish communities in the New York and New 
Jersey areas were subject to multiple violent, hateful acts. These acts 
have once again reminded us why it is so important for the Federal 
Government to work with its State and local partners to combat anti-
Semitic domestic terrorism. Across the country, we have seen that 
houses of worship and other religious institutions have increasingly 
been targeted for acts of violence. That is why I was proud to 
introduce H.R. 2476, the American Nonprofit Organizations Against 
Terrorism Act of 2019, which authorizes the Nonprofit Security Grant 
Program (NSGP) for years to come. The program provides grants to 
nonprofits and faith-based organizations in both urban and rural areas 
to help secure their facilities against a potential terrorist attack.
    I am pleased the bill passed both the House and Senate and I hope 
that the President will sign it into law shortly. While this is an 
important step, Congress must make sure that all precautions are taken 
to protect communities targeted by hate and violence. This includes 
reevaluating the Grant Program's funding levels and working with 
community groups and leaders to establish meaningful partnerships to 
tackle this issue. Separately, I am encouraged that DHS released their 
first-ever Strategic Framework for Combating Terrorism and Targeted 
Violence. Although I still have many questions as to its 
implementation, this strategy appears to be a step in the right 
direction for the Department.
    I look forward to continuing oversight over the Department on this 
issue and working together with stakeholders to suggest further 
improvements to its efforts. I hope to hear today additional 
suggestions as to how this committee can curb domestic terrorism while 
respecting and protecting the civil rights and civil liberties of all 
Americans. Congress must continue to advocate for policies that protect 
the Jewish community and all communities impacted by acts of domestic 
terror.

    Mr. Rose. Thank you, sir.
    The Chair now recognizes the Ranking Member of the 
subcommittee, the gentleman from North Carolina, Mr. Walker.
    Mr. Walker. Thank you, Chairman Thompson and Chairman Rose. 
I appreciate your genuine passion on this topic.
    I want to thank you for scheduling this important hearing 
and for last week's subcommittee roundtable with nonprofit 
groups which provide important background information for 
today's hearing.
    We could deny what we are seeing take place, but there is 
no question that the rise in anti-Semitic behavior has 
increased. The freedom of religion means freedom of belief and 
the freedom of expression of those beliefs.
    This cornerstone Constitutional freedom is violated when 
people cannot gather safely in places of worship, community 
centers, or even their own house.
    It is also violated if they are threatened at work, on a 
college campus, or during community activities. In the past 14 
months since a white supremist committed the most lethal attack 
targeting Jews in the United States at the Tree of Life 
Synagogue, there have been multiple deadly anti-Semitic attacks 
in the United States, including San Diego, Jersey City, 
Rockland County, New York.
    In fact, no community is immune to the threat of anti-
Semitism, and that, unfortunately, includes areas I represent. 
Last year, weeks before Rosh Hashanah, anti-Semitic propaganda 
was found at Temple Emanuel in Winston-Salem, North Carolina, 
and later a car was damaged by gunfire outside the Chabad 
Jewish Student Center at Elon University as services marking 
the end of Yom Kippur were taking place.
    Unfortunately, anti-Semitic attacks in the United States 
have been rising, and the trends are similar across Europe. I 
can remember after the shooting at Pennsylvania on that 
Saturday morning, I found myself at Temple Emanuel in 
Greensboro just wanting to reach out to my friends there and 
could not have been more welcomed by Rabbi Fred Guttman and 
Rabbi Andy Koren.
    Anti-Semitic incidents in the United States demonstrate a 
variety of ideological motivations. The attack on the Tree of 
Life Synagogue was motivated by white nationalist beliefs. The 
Jersey City attackers were connected to the Black Hebrew 
Israelite Movement. No clear ideologic motivation has been 
identified for several of the attacks and slurs against Jews in 
New York City during this past month of December.
    An attack on any faith is an attack on the faithful. 
Violent attacks and hate crimes must explicitly and soundly be 
condemned. There is no one solution to combat faith-based 
attacks, but there is more that can be done by the Government, 
the private sector, and the faith-based community.
    We have a very distinguished panel of witnesses here today 
who will offer a number of recommendations, including 
additional nonprofit security grant funding, a greater role for 
fusion centers, more information sharing, and an end to the 
anti-Semitic boycott, divestment, and sanctions, or BDS 
Movement.
    I look forward to hearing more about these and other 
recommendations from all the witnesses.
    Finally, the broad range of ideologically-based hatred and 
our society's continued obsession with violence has left too 
many scars across our country. I remain fully committed to an 
open, bipartisan discussion about domestic terrorism, hateful 
ideologies, and meaningful recommendations for addressing these 
threats to our homeland.
    We must continue to work in a bipartisan fashion to help 
solve the complex problems associated with not only anti-
Semitism, but the proliferation of hate and intolerance.
    I want to thank the witnesses, along with the Chairman, for 
appearing here today, and I yield back the balance of my time.
    [The statement of Ranking Member Walker follows:]
                Statement of Ranking Member Mark Walker
                            January 15, 2020
    I want to thank Chairman Rose for scheduling this important hearing 
and for last week's subcommittee roundtable with nonprofit groups, 
which provided important background information for today's hearing.
    Freedom of religion means the freedom of belief and the freedom of 
expression of those beliefs. This cornerstone Constitutional freedom is 
violated when people cannot gather safely in places of worship, 
community centers, or even their own homes. It is also violated if they 
are threatened at work, on a college campus, or during community 
activities.
    In the past 14 months since a white supremacist committed the 
deadliest anti-Semitic attack in U.S. history at the Tree of Life 
Synagogue in Pittsburgh, there have been multiple deadly attacks 
against Jews in the United States, including in San Diego, Jersey City, 
and Rockland County, New York.
    In fact, no community is immune to the threat of anti-Semitism, and 
that unfortunately includes areas I represent. Last year, weeks before 
Rosh Hashanah, anti-Semitic propaganda was found at Temple Emanuel in 
Winston-Salem and later, a car was damaged by gunfire outside the 
Chabad Jewish Student Center at Elon University as services marking the 
end of Yom Kippur were taking place. Unfortunately, anti-Semitic 
attacks in the United States have been rising and the trends are 
similar across Europe.
    Anti-Semitic incidents in the United States demonstrate a variety 
of ideological motivations. The attacker at the Tree of Life synagogue 
was motivated by white nationalist beliefs, the Jersey City attackers 
were connected to the Black Hebrew Israelite movement, and no clear 
ideological motivation has been identified for several of the attacks 
and slurs against Jews in New York City during December 2019. An attack 
on any faith is an attack on the faithful. Violent attacks and hate 
crimes must be explicitly and soundly condemned.
    There is no one solution to combat faith-based attacks but there is 
more that can be done by the Government, the private sector, and the 
faith-based community. We have a very distinguished panel of witnesses 
here today who will offer a number of recommendations, including 
additional nonprofit security grant funding, a greater role for fusion 
centers, more information sharing, and an end to the anti-Semitic 
boycott, divestiment, and sanctions, or BDS, movement. I look forward 
to hearing more about these and other recommendations from all of the 
witnesses.
    The broad range of ideologically-based hatred and our society's 
continued obsession with violence has left too many scars across our 
country. I remain fully committed to an open, bipartisan discussion 
about domestic terrorism, hateful ideologies, and meaningful 
recommendations for addressing these threats to our homeland. We must 
continue to work in a bipartisan fashion to help solve the complex 
problems associated with not only anti-Semitism but the proliferation 
of hate and intolerance.
    I want to thank the witnesses for appearing here today and I yield 
back the balance of my time.

    Mr. Rose. Thank you, sir.
    I welcome our panel of witnesses. Our first witness is Mr. 
Jonathan Greenblatt, the CEO of ADL, the Anti-Defamation 
League. Thank you for being here.
    Next, we are joined by Mr. Nathan Diament, executive 
director, the Union of Orthodox Jewish Congregations of 
America.
    If I could just say one thing, we have seen certainly the 
Orthodox community disproportionately suffering from a high 
rate of these anti-Semitic attacks. I have the luxury of 
stepping outside my home and people not necessarily knowing I 
am Jewish.
    Our brothers and sisters in the Orthodox community do not 
have that luxury, and today we do acknowledge this problem, and 
we do thank you for your leadership, sir.
    Next, we are joined by Mr. Eugene Kontorovich, and I 
apologize for what I am doing to all of your names, a professor 
of law at the Scalia Law School at George Mason University.
    Finally, we have Mr. Clifford D. May, founder and president 
of the Foundation for the Defense of Democracies.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with Mr. Greenblatt.

 STATEMENT OF JONATHAN GREENBLATT, CEO, ANTI-DEFAMATION LEAGUE 
                             (ADL)

    Mr. Greenblatt. Chairman Rose, Ranking Member Walker, 
Chairman Thompson, and all the distinguished Members of the 
subcommittee, on behalf of ADL, thank you for the opportunity 
to testify today and share our perspective.
    For more than a century ADL has been battling anti-Semitism 
and fighting to secure justice and fair treatment to all. We 
stand on the front lines of fighting hate in any form, and it 
is fair to say that the past few years have been the most 
challenging that we have seen in recent memory.
    You have already mentioned some of the spots, from 
Pittsburgh to Poway, from Monsey to Jersey City, from El Paso 
to Orlando, from Charleston to Christchurch, and the list goes 
on.
    But it is not just the high-profile violent attacks and 
lethal incidents that I want to talk about today. It is the kid 
who snaps a Heil Hitler salute for a gag. It is the swastikas 
scrawled on a garage door, the college campuses where Jewish 
students are ostracized for supporting Israel.
    This moment is about women wearing wigs harassed as they 
ride the subway. It is about men in black hats assaulted as 
they cross the street. It is the idea that a person is not safe 
in their supermarket, in their synagogue, or in their home just 
because they are Jewish.
    In fact, in ADL's most recent audit of anti-Semitic 
incidents, we recorded more than 1,800 acts in 2018, the third-
highest total that we have seen in 40 years. The results came 
on the heels of our 2017 audit, which documented a 57 percent 
surge over the prior year, the largest on record.
    In 2019, in New York City alone, there were more anti-
Jewish hate crimes than all the other hate crimes put together.
    Now, what may surprise you is that this increase is 
happening against a backdrop of steady, relatively low levels 
of anti-Semitic attitudes among the general population. That 
is, our fellow Americans are not hating more, but there is a 
growing group of people who are acting out on hate.
    So why is that? First, we have leading voices in our Nation 
from both sides of the political spectrum, in academic 
institutions, in the media, in other stations in public life 
who are normalizing anti-Semitism.
    They are using anti-Semitic myths and tropes about 
globalists controlling government, Jewish money destroying our 
borders, dual loyalty to Jewish citizens, or attacking the 
Jewish state with the same dangerous myths that were used 
throughout history to demonize the Jewish people.
    All of this de-stigmatizes anti-Semitism and renders it 
routine. That is why it is so important that we call out anti-
Semitism whenever it happens, but especially when it is uttered 
by our own allies and friends.
    We need leaders to stop politicizing anti-Semitism and 
weaponizing it for partisan gain, no matter what their 
political affiliation. We need citizens to step up and demand 
more of people in public life, that they should insist on a 
zero-tolerance policy on intolerance, full stop.
    That is where, Mr. Chairman, I will just acknowledge that 
you have shown real courage in speaking out, and I applaud you 
for it.
    Now, a second reason is that we have on-line platforms that 
tolerate anti-Semitism and hate. I am not talking about just 
adults, but children can find horrific hate taking place on-
line with just a click or a swipe 24-7, 365 days a year.
    Now, as someone who has managed engineers and built 
software products in Silicon Valley, I know the culture there, 
and I know full well that tech can do good, but it is 
impossible to ignore the fact that it has become an amplifier, 
a connector, a catalyst for some of the worst types of hate in 
our society.
    So it is long overdue for the social media companies to 
step up and shut down the Neo-Nazis on their platforms. 
Companies like Twitter and Facebook need to apply the same 
energy to protecting vulnerable users that they apply to 
protecting their corporate profits. That will take putting more 
pressure on these companies and perhaps even new regulations.
    But today I want to follow up on what the Chairman said. 
This is not the time for thoughts and prayers. We need 
resources and action. So let me give you some ideas of what you 
can do right now across party lines.
    No. 1, pass the Domestic Terrorism Prevention Act to ensure 
that law enforcement agencies deal with violent extremists on 
the home front.
    Pass the No Hate Act to ensure local law enforcement is 
trained up on how to deal with this.
    Pass legislation to hold the perpetrators of on-line hate 
accountable, the On-line Safety Modernization Act.
    Fourth, pass the Never Again Holocaust Education Act so 
children are educated about the evils of prejudice unbound.
    Fifth, fund, fully fund the Nonprofit Security Grants 
Program to shore up at-risk institutions and meet the needs of 
all faith groups, synagogues, their schools, their community 
centers. Do that today.
    Last, I want to encourage the State Department to examine 
whether white--violent white supremist organizations overseas, 
those frequently connecting with and inspiring equally violent 
hate groups here at home meet the criteria to be designated 
Foreign Terrorist Organizations. If these groups are a threat 
to our homeland and if Americans are supporting them, we can 
bring the full force of the law and society against them.
    ADL stands ready to serve as your partner. I am grateful 
for the opportunity to be here and look forward to your 
questions.
    [The prepared statement of Mr. Greenblatt follows:]
               Prepared Statement of Jonathan Greenblatt
                            January 15, 2020
    Chairman Rose, Ranking Member Walker, and distinguished Members of 
the subcommittee: On behalf of ADL, thank you for the opportunity to 
testify before you today.
    Anti-Semitic attacks, harassment, and on-line hate have each hit 
historically high rates in the last few years, and they are all 
interconnected. They are occurring in a polarized political and 
cultural environment in which hate, domestic terror, and specifically 
white supremacist violent extremism--which is responsible for the vast 
majority of extremist-related murders in the United States in recent 
years--are increasingly threatening all Americans. Anti-Semitism is an 
age-old form of hatred that plays on slanderous tropes about the Jewish 
people and finds its voice in every era. Yet, as Jews across the world 
know all too well, hate might begin with the targeting of one group of 
people, but it rarely stops with them.
    Addressing anti-Semitism requires a whole-of-Nation approach. ADL's 
25 regional offices stand on the front lines of Jewish communities, 
offering services, support, and expertise to anyone who experiences 
anti-Semitism. We also stand with our allies in other communities of 
faith and with those in all communities who have been targeted by hate. 
We must all speak out against such hate at every opportunity. We must 
also look at our education systems, at our law enforcement capacity and 
training, at our on-line social media platforms, and at changes to our 
laws to immediately and effectively combat anti-Semitic violence.
                 adl's role in combating anti-semitism
    Since 1913, the mission of ADL has been ``to stop the defamation of 
the Jewish people and to secure justice and fair treatment to all.'' 
ADL fights against anti-Semitism and bigotry in many ways, beginning 
with monitoring and exposing extremist groups, individuals, and 
movements who spread hate and commit acts of violence. Today, ADL is 
the foremost non-governmental authority on domestic terrorism, 
extremism, hate groups, and hate crimes.
    Through our Center on Extremism, whose experts monitor a variety of 
extremist and terrorist movements and individuals, ADL plays a leading 
role in identifying, exposing, and disrupting extremist movements and 
activities, while helping communities and Government agencies alike in 
combating them. ADL's team of experts--analysts, investigators, 
researchers, and linguists--use cutting-edge technologies and 
investigative techniques to track and disrupt extremists and extremist 
movements world-wide. And today our technology and tech policy experts 
are developing path-breaking tools to identify and measure on-line 
hate.
    Indeed, ADL has worked to address hateful abuses of digital 
platforms since the 1980's, when extremists were using early electronic 
bulletin boards to organize and spread their repugnant ideology. In 
2017, ADL formed the Center for Technology and Society, based in 
Silicon Valley. Through it, we work on unique ways to measure anti-
Semitism and other forms of hate, leveraging the deep expertise of our 
researchers, working on tools to measure hate across platforms, and 
evaluating the effectiveness of the policies, tools, and enforcement 
efforts of tech platforms.
    ADL is developing new tools to measure the incidence of hate on-
line and off because it is not possible to effectively counter 
something unless it is identified and measured. Among the tools we are 
developing or continue to update: the Online Hate Index, to measure 
anti-Semitism on-line;\1\ the ADL Audit of Anti-Semitic Incidents;\2\ 
ADL's Tracker of Anti-Semitic Incidents, a daily compilation of recent 
cases of anti-Jewish vandalism, harassment, and assaults reported to or 
detected by ADL;\3\ and our proprietary, interactive, and customizable 
H.E.A.T. Map<SUP>TM</SUP>,\4\ which provides details on extremist and 
anti-Semitic incidents Nation-wide that can be filtered by region and 
type.
---------------------------------------------------------------------------
    \1\ ADL, The On-line Hate Index (https://www.adl.org/resources/
reports/the-online-hate-index).
    \2\ ADL, Audit of Anti-Semitic Incidents: Year in Review 2018 
(https://www.adl.org/audit2018).
    \3\ ADL, Tracker of Anti-Semitic Incidents (https://www.adl.org/
adl-tracker-of-anti-semitic-incidents).
    \4\ ADL, ADL H.E.A.T. Map: Hate, Extremism, Anti-Semitism, 
Terrorism (https://www.adl.org/heat-map).
---------------------------------------------------------------------------
    ADL is also the country's largest non-Governmental provider of 
training for law enforcement on hate crimes, extremism, and terrorism. 
ADL provides law enforcement with information, expertise, and 
actionable intelligence to prevent, disrupt, and respond to those 
extremists who cross the line from espousing hateful ideologies to 
committing or inciting violent, criminal acts, thus protecting the 
Jewish community and all Americans. We also deliver training geared to 
building trust between police and the people and communities they 
serve. Each year, ADL experts deliver customized, in-depth training to 
more than 15,000 Federal, State, and local law enforcement personnel at 
a wide range of agencies.\5\
---------------------------------------------------------------------------
    \5\ ADL, Law Enforcement Trainings (https://www.adl.org/who-we-are/
our-organization/signature-programs/law-enforcement-training).
---------------------------------------------------------------------------
    ADL's Education Department provides educational programs, training, 
and resources for grades PreK-12 and college/university settings. Our 
anti-bias and bullying prevention programs assist educators and 
students in understanding and challenging bias and building ally 
behaviors. Our work in confronting anti-Semitism empowers young people 
with constructive responses to combat anti-Semitism. We support 
mandatory Holocaust education and also have programs, resources, and 
award-winning curricula that can be used to train educators and enable 
students to explore and critically reflect on the lessons of the 
Holocaust and of other genocides.
    ADL's Civil Rights and Government Relations, Advocacy, and 
Community Engagement (GRACE) Departments help draft and promote Federal 
and State legislation to address hate violence and domestic terrorism. 
ADL drafted an anti-paramilitary training statute adopted by more than 
a dozen States, the first model State hate crime legislation in 
1981,\6\ and a model bullying prevention statute in 2009.\7\ ADL has 
filed amicus briefs in the Supreme Court and many lower courts 
defending the constitutionality of a number of hate crime and anti-
terrorism laws.\8\
---------------------------------------------------------------------------
    \6\ ADL, Hate Crime Laws: The ADL Approach (https://www.adl.org/
media/2143/download).
    \7\ ADL, Chart of Bullying Prevention Laws (https://www.adl.org/
media/12580/download).
    \8\ ADL, Amicus Brief Database, (https://www.adl.org/education-and-
resources/resource-knowledge-base/amicus-brief-database).
---------------------------------------------------------------------------
                    trends in anti-semitic incidents
    In recent years we have watched in horror as anti-Semitic 
incidents, and, in particular violent attacks, have been on the rise. 
Many of these have their most devastating impact on individual victims 
and those closest to them. Often these incidents also send shockwaves 
and even terror through the Jewish community and our allies. They 
reverberate through the media and are shared widely across the 
internet. They have come to shape the narrative of Jewish American 
self-perception.
    Since 1979, ADL has published an annual Audit of Anti-Semitic 
Incidents--a tally and analysis of incidents of anti-Semitic 
harassment, vandalism, and assault in the United States which we have 
identified over the course of each year. These incidents include 
criminal and non-criminal expressions of anti-Semitism. The vast 
majority of the incidents in our Audit are reported to our regional 
offices by individuals or groups in the Jewish community; they are 
supplemented by media reports, information shared with us by law 
enforcement agencies, and reports on extremist activity by ADL experts 
working in the Center on Extremism. In addition to our annual audit, we 
just launched ADL's Tracker of Anti-Semitic Incidents this year in the 
face of increased daily incidents of anti-Jewish vandalism, harassment, 
and assault reported to or detected by ADL.\9\
---------------------------------------------------------------------------
    \9\ ADL, Tracker of Anti-Semitic Incidents (https://www.adl.org/
adl-tracker-of-anti-semitic-incidents).
---------------------------------------------------------------------------
    ADL records anti-Semitic incidents in three major categories: 
Harassment (in which a Jewish person or group of people feel harassed 
by the perceived anti-Semitic words or images, spoken, or written, or 
actions of another person or group); Vandalism (in which property is 
damaged in a manner that indicates the presence of anti-Semitic animus 
or in a manner that attacks Jews for their religious affiliation); and 
Assault (in which people's bodies are targeted with violence 
accompanied by evidence of anti-Semitic animus).
    In 2018, the last year for which we have complete numbers, we 
recorded 1,066 cases of harassment Nationally, an increase of 5 percent 
from 2017; 774 cases of vandalism, a decrease of 19 percent from 2017; 
and 39 cases of assault, an increase of 105 percent from 2017.
    The ADL Audit's subcategory of physical assault on Jewish 
individuals is particularly concerning, because it is the one 
subcategory which we project will increase in 2019, from a total of 39 
in 2018 to more than 50 incidents in 2019. Not only did the number of 
incidents increase, but the number of victims of these assaults also 
continues to climb: From a total of 21 victims in 2017, to 59 in 2018, 
and rising to an estimated 80 in 2019. That would be nearly a four-fold 
estimated increase in the number of victims of anti-Semitic assaults in 
the United States in over just 2 years.
                    anti-semitic domestic terrorism
    We have witnessed some particularly shocking high-profile deadly 
assaults on Jewish Americans, which have targeted Jews within Jewish 
institutions over the last 2 years. These incidents are part of a 
broader trend in the United States of mass-casualty attacks perpetrated 
by ideologically-inspired violent extremists. This trend requires a 
more concerted Federal response to combat the epidemic of domestic 
terrorism.
    The October 27, 2018 assault against the 3 congregations that meet 
in the Tree of Life Synagogue in Pittsburgh was the deadliest known 
attack specifically targeting the Jewish community in the history of 
the United States. During this attack, an alleged white supremacist 
entered the synagogue and opened fire with semi-automatic weapons, 
killing 11 worshippers and injuring 2 others. An additional 4 law 
enforcement officers were injured while responding to the shooting. The 
perpetrator is reported to have yelled, ``All Jews must die'' during 
the assault, and subsequent investigations revealed that he had held 
strong white supremacist and anti-Semitic beliefs for years. The 
purported motivation for the attack in Pittsburgh was the alleged 
perpetrator's belief, widely shared by white supremacists and set forth 
in some of his on-line posts on Gab, that Jews are behind efforts to 
impose mass immigration on the United States, with the goal of harming 
or destroying the white race.
    High-profile violent attacks on Jews and Jewish institutions 
continued in 2019. During this period, our community suffered a deadly 
assault on a synagogue in Poway, CA; a mass shooting at a kosher 
marketplace in Jersey City; and a violent stabbing attack at the home 
of a rabbi in Monsey, NY, during a Hanukkah celebration.
    In Poway, on Saturday April 27, 2019, a 19-year-old individual 
allegedly opened fire inside the Chabad congregation, leaving 1 dead 
and 3 injured. The assault, which took place on the last day of 
Passover, occurred exactly 6 months after the deadly shooting rampage 
at Tree of Life Synagogue in Pittsburgh. According to reports, the 
gunman entered the synagogue armed with an AR-style rifle and a handgun 
and called 9-1-1 on himself as he drove away from the attack.
    ADL's immediate research, within hours of the incident, determined 
that the alleged gunman may have posted a white supremacist letter/
manifesto to the document-sharing site PasteBin on the morning of the 
attack.\10\ The post, in which a user identifies himself with the same 
name as the alleged gunman, details his hatred for Jews and all non-
Christians, and refers admiringly to the alleged Pittsburgh shooter as 
well as the gunman who murdered over 50 people who were praying at two 
mosques in March 2019 in Christchurch, New Zealand. The letter includes 
a laundry list of anti-Semitic conspiracy theories, among them the 
long-standing white supremacist assertion that Jews are orchestrating 
non-white immigration which ``threatens'' the white race. ``Every Jew 
is responsible for the meticulously planned genocide of the European 
race,'' the letter states, adding ``for these crimes they deserve 
nothing but hell.''
---------------------------------------------------------------------------
    \10\ ADL, Deadly Shooting at California Chabad Highlights Threat to 
Jewish Houses of Worship (https://www.adl.org/blog/deadly-shooting-at-
california-chabad-highlights-threat-to-jewish-houses-of-worship).
---------------------------------------------------------------------------
    In Jersey City, on December 10, a kosher market was sprayed with 
gunfire, resulting in the death of 3 people: The store's co-owner, an 
employee, and a customer. On December 12, New Jersey Attorney General 
Gurbir Grewal held a press conference in which he stated that the 
shooting was being investigated as an act of domestic terrorism 
motivated by anti-Semitic and anti-law enforcement sentiments. One 
alleged shooter, who is also reported to have killed a police officer 
in an earlier incident, appears to have been an adherent of Black 
Hebrew Israelite ideology. Many proponents of this particular ideology 
harbor intense anti-Semitism and assert that Jews have stolen the 
mantle of the biblical tribes of Israel from indigenous peoples of 
Africa and the Americas.
    In the days following the shooting, ADL's Center on Extremism 
uncovered more disturbing details of the alleged shooter's ideology 
through various social media accounts he appears to have used.\11\ 
Numerous posts in a Facebook account illustrate his hatred for Jews, 
whom he sometimes refers to as Khazars--a reference to an anti-Semitic 
conspiracy theory that modern Jews are descendants of an Eastern 
European tribe from the eleventh century. In July 2015, he wrote, 
``Brooklyn is full of NAZIS--ASHKE-NAZIS (KHAZARS).'' (``Ashkenazi'' is 
the name of a Jewish ethnic group, which includes many Hassidic and 
ultra-Orthodox Jews.) He went on to allege that Jews were responsible 
for murdering black men because ``the police are their hand now.''
---------------------------------------------------------------------------
    \11\ ADL, Center on Extremism Uncovers More Disturbing Details of 
Jersey City Shooter's Extremist Ideology (https://www.adl.org/blog/
center-on-extremism-uncovers-more-disturbing-details-of-jersey-city-
shooters-extremist).
---------------------------------------------------------------------------
    This Jersey City suspect's potential for violence was presaged in a 
July 2015 post in which he wrote that he could not wait for ``Yahawah'' 
(God) to have ``his angel blow that shufar [sic] and give the order to 
dash little edomites against the stones'' because he had a ``RIGHTEOUS 
vengefulness within'' him waiting to be released and that he could use 
``all of his edomite military anti-terrorist [sic] training'' against 
his enemies. In Black Hebrew Israelite theology, ``Edomites'' refer to 
the enemies of God, including white people, whom they believe to be 
descended from the biblical patriarch Jacob's brother Esau, who was 
also known as Edom. It is clear from his writing that this Jersey City 
suspect used this term to refer disparagingly to Jewish people.
    In Monsey, NY, on December 28, 2019, a Hanukkah gathering was 
shattered when a man entered a local rabbi's home armed with a large 
knife and began stabbing people.\12\ The attack left 5 injured, 1 
critically. The following day, police in Ramapo, New York, charged the 
alleged assailant with 5 counts of attempted murder and 1 count of 
burglary. He pled not guilty at his December 29 arraignment. The next 
day, Federal prosecutors filed hate crimes charges against him, and 
authorities released a criminal complaint that may provide insight into 
the motivation for his Saturday night attack. While searching his home, 
police found handwritten anti-Semitic messages, a cryptic mention of 
Black Hebrew Israelites, references to Hitler and ``Nazi Culture'' and 
sketches of a swastika and a Star of David. He also reportedly used his 
phone to search for local ``Zionist temples'' and ``German Jewish 
temples near me.''
---------------------------------------------------------------------------
    \12\ ADL, Stabbing Attack at Monsey Hanukkah Party Leaves Five 
Injured (https://www.adl.org/blog/stabbing-attack-at-monsey-hanukkah-
party-leaves-five-injured).
---------------------------------------------------------------------------
    While the terrorist incidents listed above were the most 
destructive to their victims, Jews in the New York metropolitan area 
are also still reeling from at least 30 incidents of harassment, 
vandalism, and assault in Brooklyn, Manhattan, and Queens. Moreover, 
during the 6-week period from December 1, 2019 through January 10, 
2020, ADL has confirmed at least 46 anti-Semitic incidents across New 
York State, up from 32 during the same 6-week period a year ago.
                  anti-semitism by white supremacists
    This growing anti-Semitic violence is happening at a time when 
domestic terrorism across the board is also disturbingly high and is 
primarily the result of white supremacist violent extremism. Three of 
the 5 deadliest years for murders by domestic extremists in the period 
between 1970 and 2018 were between 2013 and 2018. Of the 50 murders 
committed in the United States by extremists in 2018, 78 percent were 
tied to white supremacy. Between 2009 and 2018, domestic extremists of 
all kinds killed at least 427 people in the United States. Of those 
deaths, approximately 73 percent were at the hands of right-wing 
extremists such as white supremacists, sovereign citizens, and militia 
adherents.
    Regarding violent anti-Semitism by white supremacists, since the 
deadly rampage at Pittsburgh's Tree of Life synagogue, at least 13 
white supremacists were arrested for their alleged roles in terrorist 
plots, attacks or threats against the Jewish community specifically. 
Many of the arrested individuals cited--and apparently sought to 
mimic--previous anti-Semitic murderers.\13\
---------------------------------------------------------------------------
    \13\ ADL, Latest ADL Data: At Least 12 White Supremacists Arrested 
for Plots, Attacks & Threats Against Jewish Community Since the Deadly 
Pittsburgh Shooting (https://www.adl.org/news/press-releases/latest-
adl-data-at-least-12-white-supremacists-arrested-for-plots-attacks).
---------------------------------------------------------------------------
    In our 2018 report, ``New Hate and Old: The Changing Face of White 
Supremacy in the U.S.'' we noted that the white supremacist ``Unite the 
Right'' rally in Charlottesville, Virginia, in August 2017 that 
tragically killed Heather Heyer attracted some 600 extremists from 
around the country.\14\ The movement is not as open about its true 
objectives as it was in the 1980's and early 1990's, when racist 
skinheads dominated white supremacists' ranks. Today, many white 
supremacists seek to dress discreetly and use coded language. Within 
the white supremacist community, there is some disagreement on 
strategy. Some factions feel the need to to consider ``optics'' and 
purposefully obfuscate their views in order to infiltrate mainstream 
politics, whereas others, arguing that ``white genocide'' could be 
imminent, seek ``accelerationism,'' hoping to purposefully spark a race 
war. With one approach involving secrecy and coded language, and the 
other sometimes including seemingly random acts of violence, both 
approaches are alarming in their potential to result in tragedy.
---------------------------------------------------------------------------
    \14\ ADL, New Hate and Old: The Changing Face of American White 
Supremacy (https://www.adl.org/new-hate-and-old).
---------------------------------------------------------------------------
    Of the 249 anti-Semitic incidents in our 2018 Audit attributable to 
hate groups or extremists, most of these were perpetrated by white 
supremacists. For example, 142 of them took the form of anti-Semitic 
fliers and/or banners, which are categorized as harassment. The flier 
distributions are designed not only to spread and normalize anti-
Semitism, but also to recruit new members, draw media attention and, in 
the words of the Daily Stormer website, to ``trigger the living hell 
out of Jews and their leftist acolytes.'' The vast majority of these 
distributions were part of coordinated campaigns by white supremacist 
groups, particularly Daily Stormer Book Clubs and Loyal White Knights.
    The Daily Stormer Book Clubs' 2018 fliering campaigns blamed Jews 
for: Justice Brett Kavanaugh's fraught confirmation process and the 
allegations of misconduct that he faced; the de-platforming of right-
wing conspiracy theorist Alex Jones on social media and other 
platforms; and the debate in Congress over gun control laws in the wake 
of the Marjory Stoneman Douglas High School mass shooting in Parkland, 
Florida.
    The Loyal White Knights' 2018 anti-Semitic fliers blamed Jews for 
orchestrating an ``open border policy'' and accused Jews of controlling 
the Government, the media, and the criminal justice system. Loyal White 
Knights is one of the country's largest and most active Klan groups and 
is best known for distributing racist, anti-Semitic, anti-immigrant, 
homophobic, and Islamophobic propaganda.
                       anti-zionist anti-semitism
    Anti-Semitism in the guise of anti-Israel sentiments spans the 
ideological spectrum. A number of anti-Semitic incidents in the 2018 
Audit included references to Israel or otherwise targeted Jews for 
their purported connection to Israel.\15\ Israeli policies--like any 
other government's policies, including those of our own country--can 
and should be robustly and publicly debated. Certainly, Israel's 
policies are the subject of much debate and differing views among the 
Jewish community in the United States.
---------------------------------------------------------------------------
    \15\ ADL, Audit of Anti-Semitic Incidents: Year in Review 2018 
(https://www.adl.org/audit2018).
---------------------------------------------------------------------------
    But at times this ostensible debate about Israeli policies crosses 
the line into anti-Semitism. ADL includes anti-Israel incidents in the 
Audit if they invoke or are accompanied by classic anti-Semitic 
stereotypes and tropes (such as alleging that Jews/Zionists control the 
government), if they target Jewish religious or cultural institutions, 
or if they are expressed by groups or individuals who consistently 
express anti-Semitic ideas. The Audit found 140 anti-Semitic incidents 
in 2018 that referenced Israel or Zionism. Ninety-five of those 
incidents related to white supremacist activity, including 80 robocalls 
in California from Scott Rhodes in support of neo-Nazi and former 
California Republican Senate candidate Patrick Little, in which Rhodes 
left individuals and synagogues alleging that, ``nation-wrecking 
Jews,'' including Senator Dianne Feinstein, are drawing the United 
States into ``Middle East wars based on lies so that Israel can 
eventually expand its borders like it always planned.''
    In addition, the steady drumbeat of extreme anti-Zionist sentiments 
which may be heard in some segments of the progressive left can have 
the effect of stigmatizing and traumatizing American Jews, the majority 
of whom feel that Israel and Zionism play an important role in their 
Jewish religious or cultural identities.\16\ Many Jews, including those 
who are critical of Israeli government policies, consider Zionism to be 
a positive movement of Jewish self-determination, borne out of 
millennia of diaspora and of persecution in nearly every land in which 
they settled. Increasingly, rejection of Zionism and the Jewish state 
is imposed as a litmus test to determine whether individual Jews--or 
Jewish groups--exhibit sufficient progressive bona fides to warrant 
inclusion in progressive circles or initiatives. This singles out Jews 
and can exclude and discriminate against them in ways to which no other 
religious group faces. Although the rhetoric that moves from criticism 
of Israeli policies to wholesale rejection of the legitimacy of a 
Jewish state and those who support its right to exist is hard to 
quantify, its impact on some parts of the Jewish American community 
cannot be overstated.
---------------------------------------------------------------------------
    \16\ American Jewish Committee, AJC 2019 Survey of American Jewish 
Opinion (https://www.ajc.org/news/survey2019).
---------------------------------------------------------------------------
    When anti-Israel activity on campus specifically crosses the line 
and students are intentionally harassed or discriminated against and 
deprived of an equal educational opportunity because they are Jewish, 
ADL believes that it is first and foremost the responsibility of 
university leadership at the highest levels to address it. If the 
university is slow to respond or its response falls short of what is 
necessary to protect its Jewish students and faculty, the President's 
Executive Order on Combating Anti-Semitism issued in December 2019 
confirms that Federal agencies can investigate, which we believe to be 
an important backstop.
    The Executive Order, as written, goes no further than the practice 
of the Department of Education under President Obama. It does not, and 
should not, give universities a license to silence voices on campus, 
including those that criticize the policies of the Israeli government. 
But by referencing the International Holocaust Remembrance Alliance 
(IHRA) definition of anti-Semitism, it does provide important guidance 
to help universities determine when advocacy crosses the line to 
targeted, discriminatory, unlawful anti-Semitic conduct, and it gives 
the Department of Education further recourse to protect Jewish American 
students and ensure a harassment-free education environment. The 
Executive Order is clear that the IHRA definition--established in 2016 
by an organization made up of 34 member countries, including the United 
States--should be taken into consideration as evidence of anti-Semitic 
discriminatory intent.
                         anti-semitism on-line
    The internet allows all types of anti-Semitism to spread faster 
than it ever has before. A meme that is generated by a dedicated anti-
Semite on a toxic platform like Gab or Telegram can be disseminated 
almost instantly on more mainstream social media sites like Facebook, 
YouTube, Twitter, or Reddit, where it may spread faster than content 
moderators can catch. Podcasting and video-sharing sites like YouTube 
allow anti-Semites to broadcast their hateful ideology and speak 
directly to watchers--some of whom may have been ``served'' the hateful 
content by an algorithm that is trained to increase user engagement, 
which in some cases might mean recommending extremist content. Social 
media also offers community with like-minded individuals and groups: 
On-line forums allow isolated anti-Semites to become more active and 
involved in virtual campaigns of ideological recruitment and 
radicalization. Individuals can easily find sanction, support, and 
reinforcement on-line for their extreme beliefs or actions, and the 
internet offers a reading and viewing library of tens of thousands of 
anti-Semitic pieces of content. White supremacists, for example, can 
easily access sites and content that serve the role of a 24/7 neo-Nazi 
rally.
    Quantifying on-line anti-Semitism is a major challenge which 
academics, activists, and watchdog organizations like ADL have been 
working on for years. Sometimes it appears as if anti-Semitism is an 
endemic part of the background environment of on-line spaces.
    For example, we released a report which found that approximately 
4.2 million tweets from 3 million accounts expressed anti-Semitic 
sentiment during 2017.\17\ The report, Quantifying Hate: A Year of 
Anti-Semitism on Twitter, included week-by-week breakdowns of how anti-
Semitism percolated through the platform and provided qualitative 
assessments of 8 anti-Semitic themes. Of course, a dataset of 4.2 
million tweets is a very small number compared to the trillions of 
tweets sent on the platform each year. But that does not negate the 
impact this has on the lived experience of Jews, many of whom have 
found Twitter to be a toxic environment.
---------------------------------------------------------------------------
    \17\ ADL, Quantifying Hate: A Year of Anti-Semitism on Twitter 
(https://www.adl.org/resources/reports/quantifying-hate-a-year-of-anti-
Semitism-on-twitter).
---------------------------------------------------------------------------
    Further study of anti-Semitism on Twitter found that, in the lead 
up to the 2018 midterm elections, tactics of disinformation were being 
used to spread anti-Semitism on the platform.\18\ In November 2018, we 
released a report from one of ADL's Belfer Fellows and University of 
Texas Professor Samuel Woolley, who studies how automation and 
algorithms are used over social media and other digital technologies to 
enable both democracy and civic control. The report, entitled 
``Computational Propaganda, Jewish-Americans and the 2018 Midterms: The 
Amplification of Anti-Semitic Harassment Online,'' found that nearly 30 
percent of accounts engaging in anti-Semitic behavior were in fact 
bots, and that those bots made up over 40 percent of the anti-Semitic 
content in that time period. The qualitative results found that for the 
Jewish public figures who participated in the study experiencing 
threats of violence and deluges of anti-Semitism had become part of 
their internal calculus for engaging in public life.
---------------------------------------------------------------------------
    \18\ ADL, Computational Propaganda, Jewish-Americans and the 2018 
Midterms: The Amplification of Anti-Semitic Harassment Online (https://
www.adl.org/resources/reports/computational-propaganda-jewish-
americans-and-the-2018-midterms-the-amplification).
---------------------------------------------------------------------------
    More recently, we conducted a study of anti-Semitism on 
YouTube.\19\ For years, YouTube has officially prohibited content which 
promotes or condones violence or incites hatred against individuals or 
groups based on core characteristics such as ethnicity, gender and 
sexual identity, and religion. In June 2019, it updated that policy 
with specific prohibitions against ideologies like white supremacy, 
which asserts the superiority of one group in order to justify 
discriminating against or persecuting other groups. For the first time 
it also prohibited content which denied the existence of violent events 
like the Holocaust or certain mass shootings like that at the Sandy 
Hook elementary school.\20\
---------------------------------------------------------------------------
    \19\ ADL, Despite YouTube Policy Update, Anti-Semitic, White 
Supremacist Channels Remain (https://www.adl.org/blog/despite-youtube-
policy-update-anti-semitic-white-supremacist-channels-remain).
    \20\ Donie O'Sullivan, ``YouTube says it'll ban accounts that 
promote Nazism or deny Sandy Hook massacre,'' CNN, June 5, 2019. 
(https://www.cnn.com/2019/06/05/tech/youtube-nazi-ban/index.html).
---------------------------------------------------------------------------
    Despite these policies, ADL's August 2019 study of YouTube 
identified a significant number of channels on YouTube's platform that 
continued to disseminate anti-Semitic and white supremacist content. We 
conducted more focused analyses of 5 overtly anti-Semitic channels, 
which promulgated a variety of slanderous allegations and tropes that 
have been used for generations to stoke fear and hatred of Jews. 
Altogether, the videos on these 5 anti-Semitic channels had been viewed 
more than 81 million times as of July 2019. To date, 4 of the 5 
channels remain active on YouTube. These and many more channels that 
have not been closely studied continue to pump anti-Semitic poison into 
our on-line ecosystem.
    Anti-Semitism festers in other, less well-known on-line spaces. 
ADL's Center on Extremism has performed deep dives into such platforms, 
among them Gab,\21\ 8chan,\22\ Telegram,\23\ VK,\24\ and Fascist 
Forge.\25\
---------------------------------------------------------------------------
    \21\ ADL, When Twitter Bans Extremists, Gab Puts Out the Welcome 
Mat (https://www.adl.org/blog/when-twitter-bans-extremists-gab-puts-
out-the-welcome-mat).
    \22\ ADL, Gab and 8chan: Home to Terrorist Plots Hiding in Plain 
Sight (https://www.adl.org/resources/reports/gab-and-8chan-home-to-
terrorist-plots-hiding-in-plain-sight).
    \23\ ADL, Telegram: The Latest Safe Haven for White Supremacists 
(https://www.adl.org/blog/telegram-the-latest-safe-haven-for-white-
supremacists).
    \24\ ADL, VK.com: Linking American White Supremacists to 
International Counterparts (https://www.adl.org/blog/vkcom-linking-
american-white-supremacists-to-international-counterparts).
    \25\ ADL, Fascist Forge: A New Forum for Hate (https://www.adl.org/
blog/fascist-forge-a-new-forum-for-hate).
---------------------------------------------------------------------------
    This anti-Semitism on-line can have major impacts on Jews who must 
navigate those spaces for work or recreation. The experience of being 
attacked on the internet for being Jewish has repercussions far beyond 
the on-line environment. Its effects can spill over into the real world 
in the form of social anxiety and exclusion, financial loss, depression 
and thoughts of self-harm, and these effects can last for months, if 
not years.
    In 2019, we published a collection of in-depth qualitative 
interviews that revealed the emotional pain and financial loss 
experienced by victims of on-line abuse. In one incident, a Jewish 
business owner was targeted through anti-Semitic posts in an attempt to 
drive away business and that campaign resulted in months of lost 
potential income. In another study that was based on a Nationally-
representative survey of video gamers, ADL's Center on Technology and 
Society found that 19 percent of Jewish respondents experienced hate 
and harassment based on their identity as a Jew. More worrisome is that 
between 8 and 23 percent of respondents across the spectrum of 
identities confessed to adjusting how they socialize, considering self-
harm, or taking precautions to ensure physical safety because of their 
experience with on-line hate and harassment. Alarmingly, nearly 23 
percent of on-line gamers were exposed to white supremacist ideology 
through in-game social interactions. Anti-Semitic rhetoric seems to 
exist in every category of on-line social space.
    In the past several months, new anti-Semitic trolling efforts by 
white supremacists have weaponized lists of Jews by variously posting 
their images, personal information such as names, places of employment, 
and schools they attend, as well as links to the targets' social media 
accounts. Lists of Jews in any form on white supremacist platforms are 
alarming, especially given the on-going threats of anti-Semitic 
violence and the targeting of synagogues and Jewish organizations. 
While some trolling tactics do not explicitly call for violence against 
Jews, it is impossible to know who might interpret the lists and 
photographs as a call to action.\26\
---------------------------------------------------------------------------
    \26\ ADL, New Trolling Efforts Target Jews' Appearance, Attempt to 
Sow Political Division (https://www.adl.org/blog/new-trolling-efforts-
target-jews-appearance-attempt-to-sow-political-division).
---------------------------------------------------------------------------
                        anti-semitic hate crimes
    Hate crimes are another element of the anti-Semitic incidents that 
we track, and they underline the rise in hate in our country. The most 
recent data about hate crimes made available by the FBI is for 
2018.\27\ The FBI has been tracking and documenting hate crimes 
reported from Federal, State, and local law enforcement officials since 
1991 under the Hate Crime Statistics Act of 1990 (HCSA). Though clearly 
incomplete, the Bureau's annual HCSA reports provide the best single 
National snapshot of bias-motivated criminal activity in the United 
States. The Act has also proven to be a powerful mechanism to confront 
violent bigotry, increasing public awareness of the problem and 
sparking improvements in the local response of the criminal justice 
system to hate violence--since in order to effectively report hate 
crimes, police officials must be trained to identify and respond to 
them.
---------------------------------------------------------------------------
    \27\ FBI, 2018 Hate Crime Statistics, 2018 (https://ucr.fbi.gov/
hate-crime/2018).
---------------------------------------------------------------------------
    The FBI found that, including the 11 murders at the 3 congregations 
in the Tree of Life Synagogue building in Pittsburgh, 2018 saw the 
highest number of hate crime murders on record, with 24 victims. The 
FBI documented a slight decrease in overall reported hate crimes--from 
7,175 in 2017 to 7,120 in 2018--after 3 consecutive years of increases. 
But the FBI HCSA report also documented the highest number of personal 
attacks in the past 15 years, and the largest number of incidents 
involving personal attacks since 2001. Further:
  <bullet> While religion-based hate crimes decreased by 8 percent from 
        2017, nearly 60 percent of reported religion-based hate crime 
        attacks were targeted against Jews or Jewish institutions in 
        2018.
  <bullet> Race-based hate crimes were once again the most common type 
        of hate crime, as in every previous year. Nearly 50 percent of 
        race-based hate crimes were directed against African-Americans.
  <bullet> Anti-Hispanic hate crimes increased 14 percent, the third 
        straight year of increased reporting.
  <bullet> Crimes directed against LGBTQ people increased 5.7 percent, 
        from 1,130 in 2017 to 1,196 in 2018.
  <bullet> 2018 also saw a significant 42 percent increase in crimes 
        directed against transgender individuals, up from 119 in 2017 
        to 168 in 2018.
    The FBI data is based on voluntary local law enforcement reporting 
to the Bureau, and a serious reporting gap remains. One hundred and ten 
fewer law enforcement agencies participated in the HCSA program in 
2018, meaning that they failed to report any data, following record-
high participation in 2017. In addition, at least 85 cities with 
populations exceeding 100,000 residents either did not report any data 
to the FBI or affirmatively reported zero hate crimes. Alabama and 
Wyoming reported zero hate crimes for 2018. Based on our experience, 
these reports of zero hate crimes are not credible.
    Moreover, we need to remember that these are only the crimes 
reported to authorities. For a variety of reasons, many communities and 
individuals do not feel comfortable going to law enforcement in the 
first place, leading ADL's experts and other experts to conclude that 
there is certainly an undercount of hate crimes resulting from 
unwillingness to report.
 policy recommendations to confront the rise of anti-semitic domestic 
                               terrorism
    Effectively confronting the rise in anti-Semitic domestic terrorism 
requires us to combat anti-Semitism in all of its forms and wherever it 
emerges. It also requires us to combat all forms of bigotry and bias-
motivated criminal conduct, since the demonization of Jewish people 
thrives when vulnerable groups are being unfairly singled out as 
scapegoats. Anti-Semitism thrives during times of economic, social, or 
political upheaval, when scapegoats are sought. And, as noted in the 
beginning of this testimony, that may start with the Jews, but it never 
ends with the Jews.
    The following are measures that, taken together, can help combat 
the rise in anti-Semitic domestic terrorist incidents as well as anti-
Semitic attitudes and incidents in general:
1. Use the Bully Pulpit
    a. The President, Cabinet officials, and Members of Congress must 
call out anti-Semitism and bigotry at every opportunity. The right to 
free speech is a core value, but the promotion of hate should be 
vehemently and consistently rejected. Simply put, you cannot say it 
enough: America is no place for hate.
    b. In this environment, the importance of ensuring that the fight 
against anti-Semitism not be politicized, all the more so during an 
election year, cannot be overstated. To try to weaponize the fight 
against anti-Semitism to divide the Jewish community or to divide it 
from its allies in other vulnerable communities is destructive and 
morally indefensible. For example, tacking on legislation to combat 
anti-Semitism with the intent to kill other, unrelated legislation, 
must be identified and rejected by legislators on both sides of the 
aisle. Attempts by the Executive branch to politicize the fight against 
anti-Semitism should be identified and rejected by legislators on both 
sides of the aisle. Necessary hearings about the threat of white 
supremacy in the United States should not be derailed because ``left-
wing'' anti-Semitism isn't being given equal time. And the fact that 
right-wing extremism has posed the most violent threat against Jews and 
other vulnerable communities in the United States in recent years 
should not be allowed to obfuscate the fact that anti-Semitism can also 
be expressed as anti-Zionism and anti-Israel activity when it seeks to 
single out and delegitimize the Jewish state and all those who support 
its existence. To be aware and to fight these manifestations of hate, 
divisiveness, and bigotry not just when they appear in their most 
egregiously hateful form, but when they appear coded or obfuscated or 
in disingenuous form, must be a priority for all in Congress.
    That is why I sent a letter to Congressional leadership in March 
2019 urging them to work together to stop the growing partisan 
weaponization of anti-Semitism, and instead work together to combat 
this scourge. The House and Senate Bipartisan Task Forces for Combating 
Anti-Semitism are good models for working across the aisle and I urge 
you all to join the House task force.
2. Improve Federal Hate Crime Data Collection, Transparency, and 
        Support
    a. The Department of Justice should incentivize and encourage State 
and local law enforcement agencies to more comprehensively collect and 
report hate crimes to the FBI, with special attention devoted to large 
underreporting law enforcement agencies that either have not 
participated in the FBI Hate Crime Statistics Act program at all or 
have affirmatively and not credibly reported zero hate crimes. More 
comprehensive, complete hate crime reporting can deter hate violence--
including anti-Semitic hate crimes--and advance police-community 
relations.
    b. The Federal Government should provide funding for criminal 
investigations and prosecutions by State, local, and Tribal law 
enforcement officials, as authorized by Section 4704 of the Matthew 
Shepard and James Byrd, Jr. Hate Crimes Prevention Act of 2009.
3. Fully Fund Programs Supporting Community Security
    a. ADL supports the right of non-profit religious institutions 
objectively deemed to be at high risk of attack to participate in 
Federal, State, and local government programs providing funding for 
security, provided adequate church-state separation and anti-
discrimination safeguards are in place. These grants should fully fund 
the actual need. While ADL remains deeply committed to our longstanding 
position in support of the separation of church and state, we also 
believe that religious freedom requires Americans to feel free and safe 
to pray in our houses of worship and to gather in our schools and 
cultural centers without fear of violent attacks.
    Narrowly-tailored Government grants to nonprofits for security 
enhancements should be permitted as part of a broader, more holistic 
education and community engagement program to prevent these attacks.
4. Pass Legislation to Address Anti-Semitism, White Supremacy, and 
        Domestic Terrorism
            a. Pass the Domestic Terrorism Prevention Act
    This legislation would enhance the Federal Government's efforts to 
prevent domestic terrorism by authorizing into law the offices 
addressing domestic terrorism, and requiring Federal law enforcement 
agencies to regularly assess those threats and then resource to the 
threats. The bill would also provide training and resources to assist 
non-Federal law enforcement, requiring DOJ, DHS, and the FBI to provide 
training and resources to assist State, local, and Tribal law 
enforcement in understanding, detecting, investigating, and deterring 
acts of domestic terrorism.
            b. Pass the Khalid Jabara and Heather Heyer National 
                    Opposition to Hate, Assault, and Threats to 
                    Equality (NO HATE) Act of 2019 (H.R. 3545/S. 2043)
    This legislation would authorize incentive grants to spark improved 
local and State hate crime training, prevention, best practices, and 
data collection initiatives--including grants for State hate crime 
reporting hotlines to direct individuals to local law enforcement and 
support services.
            c. Pass the Never Again Education Act (H.R. 943/S. 2085)
    This bill would create a new grant program at the U.S. Department 
of Education to provide teachers across the country with the necessary 
resources to teach about the Holocaust in their classrooms. ADL 
supports this bipartisan legislation because we believe strongly that 
learning about the Holocaust and lessons of unchecked anti-Semitism and 
racism is one of the best ways to fight prejudice and discrimination, 
and to help ensure that genocide and such atrocities never happen 
again.
5. Address On-line Hate and Harassment Through Legislation and Training
            a. Strengthen Laws Against Perpetrators of On-line Hate
    Hate and harassment translate from on-line spaces to the real 
world, but our laws have not kept up. Many forms of severe on-line 
misconduct are not consistently covered by cyber crime, harassment, 
stalking, and hate crimes law. Congress has an opportunity to lead the 
fight against cyber hate by increasing protections for targets as well 
as penalties for perpetrators of on-line misconduct. Congress should 
pass legislation addressing cyber crimes such as doxing, swatting, and 
non-consensual pornography with legislation along the lines of the On-
line Safety Modernization Act, which was introduced in the 115th 
Congress.
            b. Improve Training of Law Enforcement
    Law enforcement is a key responder to on-line hate, especially in 
cases when users feel they are in imminent danger. Increasing resources 
and training for these departments is critical to ensure they can 
effectively investigate and prosecute cyber cases and that targets know 
they will be supported if they contact law enforcement. This includes 
on-going anti-bias training, hate crimes training, and training 
regarding technology and the internet landscape, as all of these issues 
are perpetually changing.
6. Urge Social Media Platforms to Institute Stronger Measures to 
        Address On-line Hate and Harassment
    a. Government officials have an important role to play in 
encouraging social media platforms to institute robust and verifiable 
industry-wide self-governance. This could take many forms, including 
Congressional oversight or passing laws that require certain levels of 
transparency and auditing. The internet plays a vital role in allowing 
for innovation and democratizing trends, and that should be preserved. 
At the same time, the wide-spread exploitation of social media 
platforms for hateful and severely harmful conduct needs to be 
effectively addressed.
    Some of these measures should include:
    1. Strong Terms of Service.--Every social media and on-line game 
platform must have clear terms of service that address hateful content 
and harassing behavior, and clearly define consequences for violations. 
These policies should state that the platform will not tolerate hateful 
content or behavior based on protected characteristics. They should 
prohibit abusive tactics such as harassment, doxing, and swatting. 
Platforms should also note what the process of appeal is for users who 
feel their content was flagged as hateful or abusive in error.
    2. Responsibility and Accountability.--Social media and on-line 
game platforms should assume greater responsibility to enforce their 
policies and to do so accurately at scale. They should improve the 
complaint and flagging process so it is as user-friendly as possible 
and provides a more consistent and speedy resolution for targets. They 
should lessen their reliance on the user complaint process, and instead 
proactively, swiftly, and continuously address hateful content using a 
mix of artificial intelligence and human monitors who are fluent in the 
relevant language and knowledgeable in the social and cultural context 
of the relevant community. Additionally, given the prevalence of on-
line hate and harassment, platforms should offer far more services and 
tools for individuals facing or fearing on-line attack. They should 
provide greater filtering options that allow individuals to decide for 
themselves how much they want to see likely hateful comments. They 
should consider the experience of individuals who are being harassed in 
a coordinated way and be able to provide aid to these individuals in 
meaningful ways. They should allow users to speak to a person as part 
of the complaint process in certain, clearly-defined cases. And they 
should provide user-friendly tools to help targets preserve evidence 
and report problems to law enforcement and companies.
    3. Governance and Transparency.--Perhaps most importantly, social 
media and on-line game platforms should adopt robust governance. This 
should include regularly-scheduled external, independent audits so that 
the public knows the extent of hate and harassment on a given platform. 
Audits should also allow the public to verify that the company followed 
through on its stated actions and assess the effectiveness of company 
efforts over time. Companies should provide information from the audit 
and elsewhere through more robust transparency reports. Finally, 
companies should create independent groups of experts from relevant 
stakeholders, including civil society, academia, and journalism, to 
help provide guidance and oversight of platform policies. Beyond their 
own community guidelines, transparency efforts and content moderation 
policies, features available on social media and on-line gaming 
platforms need to be designed with anti-hate principles in mind. 
Companies need to conduct a thoughtful design process that puts their 
users first, and incorporates risk and radicalization factors before, 
and not after, tragedy strikes.
            7. Consider the Appropriateness of Foreign Terrorist 
                    Organization (FTO) Designations for White 
                    Supremacist Organizations Abroad
    a. The State Department should examine whether certain white 
supremacist groups operating abroad meet the specific criteria to be 
subject to sanctions under its designated Foreign Terrorist 
Organization (FTO) authority. It is possible that a white supremacist 
terrorist group might meet these criteria, and the State Department 
should determine whether the evidence is there to do so. None of the 
current 69 organizations on the FTO list is a white supremacist 
organization. However, while the possibility of designating white 
supremacist organizations under the State Department's FTO authority 
holds promise, there are some critical Constitutional considerations 
that Congress should consider. Civil liberties and civil rights 
consequences must be carefully considered.
            8. Consider the Necessity and Feasibility of a Criminal 
                    Domestic Terrorism Statute
    a. Our Federal legal system currently lacks the means to prosecute 
a white supremacist terrorist as a terrorist. Perpetrators can be 
prosecuted for weapons charges, acts of violence (including murder), 
racketeering, hate crimes, or other criminal violations. But we cannot 
legally prosecute them for what they are: Terrorists. Many experts have 
argued that, without being so empowered, there is a danger that would-
be domestic terrorists are more likely to be charged with lesser crimes 
and subsequently receive lesser sentences. Others have argued that 
there are a sufficient number of criminal provisions already on the 
books that can be used to cover this gap. Congress should immediately 
consult with legal and policy experts, marginalized communities, and 
law enforcement professionals on whether a rights-protecting domestic 
terrorism criminal charge is needed--and whether it is possible to 
craft such a statute.
                               conclusion
    Thank you for the opportunity to testify and for calling this 
important hearing. ADL data clearly indicates that anti-Semitism and 
hate are rising across America and that domestic terrorism poses a 
significant threat to our communities.
    This is a time for leaders to lead. We urge everyone with a bully 
pulpit to speak out against anti-Semitism and hate. We also must also 
look at our education systems, at our law enforcement capacity and 
training, and at our laws to ensure we are addressing today's threats 
holistically.
    On behalf of the ADL, we look forward to working with you as you 
continue to devote your urgent attention to this and related issues.

    Mr. Rose. Thank you, sir.
    We now recognize Mr. Diament to summarize his statement for 
5 minutes.

   STATEMENT OF NATHAN DIAMENT, EXECUTIVE DIRECTOR, UNION OF 
            ORTHODOX JEWISH CONGREGATIONS OF AMERICA

    Mr. Diament. Thank you, Chairman Rose, Ranking Member 
Walker, Chairman Thompson, and Members of the subcommittee.
    As I mentioned, my name is Nathan Diament, and I am the 
executive director for public policy for the Union of Orthodox 
Jewish Congregations of America.
    We are the largest Orthodox Jewish umbrella organization in 
the United States, representing hundreds of synagogues and 
Jewish parochial schools around the country. We are a 
nonpartisan charitable organization.
    In the year 1790, in his famous letter to the Jewish 
community of Newport, Rhode Island, George Washington ended his 
letter with a prayer. It reads, ``May the children of the stock 
of Abraham who dwell in this land continue to merit and enjoy 
the goodwill of the other inhabitants, while everyone shall sit 
in safety under his vine and fig tree, and there shall be none 
to make him afraid.''
    I have been asked to testify here before your subcommittee 
to describe the problem uniquely faced by the Orthodox Jewish 
segment of the American Jewish community, and that problem is 
simply this: Now in the year 2020 in the United States of 
America, the children of Abraham are afraid in a way we have 
never been before. We are under threat of violence as we walk 
down the city street or enter our synagogues to pray or shop in 
a supermarket for kosher groceries.
    In the United States even though there has been 
discrimination against Jews for many years, as there has been 
in other places around the world, in the United States it was 
not predominantly of a violent kind, but now it is. As was 
mentioned, as you well know, Jews were gunned down at prayer at 
synagogues in Pittsburgh and Poway and shopping for groceries 
in Jersey City.
    Visibly identifiable Orthodox Jews and Hasidic Jews have 
been assaulted on the streets of New York, Miami, and 
elsewhere, and indeed, it is the most visible Jews, those of us 
who wear a hat or a shtreimel or a kippah or who may have peyos 
at the sides of our heads or the long beard who have been 
subject most to these verbal and physical assaults.
    Anxiety about this new reality is present in Orthodox 
Jewish communities in all your districts and across the entire 
country. In the American Orthodox Jewish community, there is a 
wide-spread belief that this wave of physical attacks on 
outgrowth of many years of expressions of not only anti-Semitic 
bias in general, but anti-Orthodox Jewish bias in particular 
that have long gone unreported and unrepudiated.
    In recent years, in too many localities around the country, 
Government officials and community leaders have felt 
comfortable making anti-Orthodox statements, in particular, and 
undertaking anti-Orthodox actions. In multiple towns in New 
Jersey, Ocean Township, Jackson, and Mahwah, local leaders 
sought to use zoning and land use regulations to try to prevent 
Orthodox Jews from moving into their towns.
    In the course of doing so, those local officials referred 
to Orthodox Jews as, ``invading the community'' as, ``dirty'' 
or as, ``religious zealots.''
    It took the intervention of the U.S. Department of Justice 
or the State Attorney General's Office to resolve those 
disputes.
    In Chester, New York, upstate in the Hudson Valley, the 
town supervisor and leadership have openly spoken about 
blocking housing developments to prevent Hasidic Jews from 
moving in, saying, ``If there is any way for us to choose who 
could live there, we will.''
    In Jersey City, days after the shooting which killed 2 
Orthodox Jews as well as a police officer and wounded others, a 
member of the local Board of Education referred to Jews, ``as 
brutes who could wave bags of money'' and asked if people in 
the community at large are brave enough to ``explore the 
message the shooters were trying to send.''
    This person still sits on the Jersey City Board of 
Education.
    Finally, in Rockland County, New York, where the Chanukah 
celebration attack occurred last month, the Rockland County 
Republican Party released a video advertisement last summer 
criticizing an incumbent county official who is an Orthodox Jew 
and supports housing development that would allow more Orthodox 
families to move into that area.
    The video accused the identifiably Orthodox county 
legislator as, ``plotting a takeover of the community'' that 
``threatens our way of life.'' The video was eventually taken 
down after a flood of criticism.
    These are just a few of many examples and incidents in 
which Orthodox Jews are portrayed as some kind of ``other'' and 
not part of American society. It is important to realize that 
these offensive incidents targeted at Orthodox Jewry are 
amplified and accelerated by the broader surge in anti-Semitism 
we are experiencing in the United States, which Jonathan and 
the ADL have well documented.
    It is in this context, Orthodox Jews being explicitly 
slandered and Jews generally being subjected to classical anti-
Semitic accusations, that visible recognizable Jews are being 
targeted for assault and abuse and suffering this reality in an 
unprecedented way in this country.
    Mr. Chairman, I will conclude these opening remarks by 
saying that even in the face of all of this, I am not without 
hope. The fact that elected leaders from President Trump to 
Governor Cuomo, to Governor Murphy, and many others have not 
only spoken out against the surge of anti-Semitic and anti-
Orthodox attacks, but have started to undertake concrete action 
to have our Federal, State, and local governments respond and 
begin to make our communities safe gives me hope.
    The fact that you, Chairman Rose, and your colleagues have 
convened this hearing to confront this problem and look for 
more effective ways that we can stop it gives me hope.
    The fact that I, as an Orthodox Jew representing my 
community, was able to join with people of many different 
faiths to serve on the Department of Homeland Security Advisory 
Committee, chaired by General Allen, who you will hear from in 
the next panel, and make recommendations for how our Federal 
Government can protect not only America's synagogues, but also 
churches and mosques and temples, this, too, gives me hope.
    I am hopeful that we can all work together to keep 
President Washington's prayer alive both for my community and 
for all faith communities. To effectuate that, I think we need 
to join with it the prayer that was presented in Albany, New 
York last week by Rabbi Chaim Rottenberg, whose home in Monsey 
was the site of the attack.
    He delivered the prayer last week in Albany at the 
Governor's State of the State Address and included in his 
prayer Rabbi Rottenberg said, ``Merciful God, bless us all with 
the courage to overcome tragedy, heal the wounds of hatred, and 
bless us with solidarity to promote tolerance and brotherhood 
among all our communities.''
    That is a recipe for action, and that is a recipe for 
success in this fight. We must all join in that prayer and its 
effort because if America slides further into the swamp of 
anti-Semitism, it means our beloved United States is losing an 
essential element of its founding identity, to be a beacon of 
religious freedom in the world.
    I thank you again for holding this hearing today, and I 
thank you in advance for the actions you will take. As a member 
of that advisory committee, I obviously join in that list of 
recommendations, which you will discuss as this hearing goes 
on.
    Thank you for working with us to combat this terrible 
situation.
    [The prepared statement of Mr. Diament follows:]
                Prepared Statement of Nathan J. Diament
                            January 15, 2020
    Chairman Rose, Ranking Member Walker, and Members of the 
subcommittee, my name is Nathan Diament and I am the executive director 
for public policy for the Union of Orthodox Jewish Congregations of 
America (also known as the Orthodox Union)--the Nation's largest 
Orthodox Jewish umbrella organization.
    The Orthodox Union represents more than 1,000 synagogues across the 
United States and more than 500 Jewish day schools which educate 
hundreds of thousands of K-12 children. We are a nonpartisan charitable 
organization.
    In the year 1790, in his famous letter to the Jewish community of 
Newport, Rhode Island, President George Washington prayed:

``May the Children of the Stock of Abraham, who dwell in this land, 
continue to merit and enjoy the goodwill of the other inhabitants; 
while every one shall sit in safety under his vine and fig tree, and 
there shall be none to make him afraid.''

    Now, in the year 2020, in the United States of America, the 
Children of Abraham are afraid in a way we have never been before. We 
are under threat of violence as we walk down a city street or enter our 
synagogues to pray. Jews have faced such threats for centuries, and 
still face them today, in Europe and elsewhere around the world. But in 
the United States, even if there was discrimination against Jews, it 
was not predominantly of this violent kind. But now it is.
    Jews were gunned down at prayer in synagogues in Pittsburgh and 
Poway and shopping for kosher groceries in Jersey City. Visibly 
identifiable Jews--Orthodox Jews and Chassidic Jews--have been 
assaulted on the streets of New York, Miami, and elsewhere.
    And indeed, it is the most visible Jews--those of us who wear a hat 
or streimel or kippah, who may have peyos (side-locks) or a long 
beard--who have been subject most to these physical and verbal 
assaults. Anxiety about this new reality is present in Orthodox Jewish 
communities across the United States.\1\
---------------------------------------------------------------------------
    \1\ See We Are Not Going to Cower, USA Today, January 6, 2020. 
https://www.usatoday.com/story/news/nation/2020/01/04/anti-semitism-
attacks-increase-orthodox-jews-vulnerable-resilient/2809960001/.
---------------------------------------------------------------------------
    In the American Orthodox Jewish community, there is a wide-spread 
belief that this wave of physical attacks are the outgrowth of many 
years of expressions of not only anti-Semitic bias, but anti-Orthodox 
Jewish bias in particular that have long gone unreported and un-
repudiated.
    In recent years, in too many localities around the country, 
Government officials and community leaders have felt comfortable making 
anti-Orthodox Jewish statements and undertaken anti-Orthodox actions.
    In multiple towns in New Jersey--Ocean Township, Jackson, and 
Mahwah--local leaders sought to use zoning and land use regulations to 
try to prevent Orthodox Jews from moving into their towns. In the 
course of doing so, those local officials referred to Orthodox Jews as 
``invading'' the community, as ``dirty'' or as ``religious 
zealots.''\2\ It took the intervention of the U.S. Department of 
Justice \3\ or State Attorney General's office \4\ to resolve these 
disputes.
---------------------------------------------------------------------------
    \2\ See Anti-Orthodox is the New Anti-Semitism, The Forward, 
February 7, 2018. https://forward.com/opinion/393858/anti-orthodox-is-
the-new-anti-semitism/.
    \3\ http://www.eruvlitigation.com/jackson/breaking-doj-
investigation-discriminatory-zoning-jackson-nj/.
    \4\ https://www.jewishlinknj.com/community-news/bergen/26897-the-
eruv-stays-new-jersey-ag-settles-mahwah-s-lawsuit.
---------------------------------------------------------------------------
    In Chester, New York--up-State in the Hudson Valley--the town 
supervisor and leadership have spoken openly about blocking housing 
developments to prevent Chassidic Jews from moving in saying ``if 
there's any way for us to choose who could live there, we would.''\5\
---------------------------------------------------------------------------
    \5\ See https://www.nytimes.com/2019/08/14/nyregion/jews-
discrimination-lawsuit.html.
---------------------------------------------------------------------------
    In Jersey City, days after the shooting which killed 2 Orthodox 
Jews (as well as a police officer and wounded others) a member of the 
local Board of Education referred to Orthodox Jews as ``brutes'' who 
``waved bags of money'' and asked if people in the community at large 
are ``brave enough'' to explore the ``message'' the shooters were 
trying to send.\6\ This person still sits on the Jersey City Board of 
Education.
---------------------------------------------------------------------------
    \6\ https://www.jta.org/2019/12/17/united-states/jersey-city-
official-refers-to-jewish-brutes-asks-if-residents-are-brave-enough-to-
explore-shooters-message.
---------------------------------------------------------------------------
    Finally, in Rockland County, New York--where the Chanukah 
celebration attack occurred last month--the Rockland County Republican 
Party released a video advertisement last summer criticizing an 
incumbent county official who is an Orthodox Jew and supports housing 
developments that would allow more Orthodox families to move into the 
area. The video accused the identifiably Orthodox county legislator as 
``plotting a takeover'' of the community that ``threatens our way of 
life.'' The video was eventually taken down after a flood of 
criticism.\7\
---------------------------------------------------------------------------
    \7\ See https://abc7ny.com/politics/rockland-county-gop-pulls-
video-over-claims-of-anti-semitism/5501061/.
---------------------------------------------------------------------------
    These are just a few of many examples and incidents in which 
Orthodox Jews are portrayed as some ``other''--as not part of the 
American community.
    It is important to realize that these offensive incidents targeted 
at Orthodox Jewry are amplified and accelerated by the broader surge in 
anti-Semitism we are experiencing in the United States. As the ADL has 
documented, there was a dramatic increase in anti-Semitic incidents in 
general and physical assaults upon Jews in particular last year.\8\ 
This too comes in the context of anti-Semitic tropes and slanders being 
spread by some local and National politicians.\9\
---------------------------------------------------------------------------
    \8\ See https://www.adl.org/audit2018. See also https://
www.adl.org/adl-tracker-of-anti-semitic-
incidents?field_incident_location_state_target_id=All&page=1.
    \9\ See brief summary contained in M. Gerson, Rising Anti-Semitism 
is a Sign of America's Declining Health, The Washington Post, January 
9, 2020. https://www.washingtonpost.com/opinions/the-level-of-anti-
semitism-is-a-test-of-our-nations-health-were-failing/2020/01/09/
193830f2-3326-11ea-9313-6cba89b1b9fb_story.html.
---------------------------------------------------------------------------
    It is in this context--Orthodox Jews being explicitly slandered and 
Jews generally being subjected to classical anti-Semitic accusations--
that visible, recognizable Jews are being targeted for physical 
assaults and verbal abuse and suffering this reality in an 
unprecedented way in this great country.
    Mr. Chairman, I will conclude these opening remarks by saying that 
even in the face of all of this, I am not without hope.
    The fact that elected leaders from President Trump to Governor 
Cuomo and Governor Murphy and many others have not only spoken out 
against this surge of anti-Semitic and anti-Orthodox Jewish attacks--
but undertaken concrete actions to have our Federal, State, and local 
governments begin to respond and begin to make our communities safer 
gives me hope.
    The fact that you--Congressman Rose and your colleagues--have 
convened this hearing to confront this problem and look for more 
effective ways we can stop it and roll it back gives me hope.
    And the fact that I, an Orthodox Jew, was able to join with people 
of many different faiths to serve on the DHS advisory committee chaired 
by General Allen and make recommendations for how our Government can 
protect not only America's synagogues but also our churches and mosques 
and temples \10\--this too gives me hope.
---------------------------------------------------------------------------
    \10\ https://www.dhs.gov/publication/prevention-targeted-violence-
against-faith-based-communities-subcommittee-membership.
---------------------------------------------------------------------------
    I am hopeful that we can all work together to keep the prayer of 
President Washington the reality for the American Orthodox Jewish 
community.
    To effectuate George Washington's prayer, I will join to it the 
prayer of Rabbi Chaim Rottenberg, whose home in Monsey, New York was 
invaded during Chanukah by a machete wielding anti-Semite. Rabbi 
Rottenberg delivered the prayer last week in Albany at the Governor's 
State of the State Address.
    The rabbi prayed:

``Merciful God, bless us all with the courage to overcome tragedy, heal 
the wounds of hatred and bless us with solidarity to promote tolerance 
and brotherhood . . . among all our communities.''

    Chairman Rose, Ranking Member Walker--all Americans must join in 
this prayer and in this effort. If America slides further into the 
swamp of anti-Semitism it means our beloved country is losing an 
essential element of its founding identity--to be a beacon of religious 
freedom to the world.
    I thank you for holding this hearing today and I thank you, in 
advance, for the actions you will take \11\ in the coming days and 
weeks to protect my community and all communities of faith and thereby 
protect out Nation and fulfill its promise for us all.
---------------------------------------------------------------------------
    \11\ See A. Fagin & N. Diament, Here's What Congress Can Do to 
Combat Anti-Semitism, The Hill, January 2, 2020. https://thehill.com/
opinion/civil-rights/476556-heres-what-congress-can-do-to-combat-anti-
semitism?rnd=1577993749 appended hereto.
---------------------------------------------------------------------------
    ATTACHMENT.--Here's What Congress Can Do To Combat Anti-Semitism
                            January 2, 2020
by Allen I. Fagin and Nathan J. Diament
    For the American Jewish community, 2019 was a year of enormous 
trauma. The second fatal attack ever on synagogue worshippers took 
place in Poway, California--making the prior one at Pittsburgh's Tree 
of Life no longer an isolated event. Assaults upon Jews walking the 
streets of Brooklyn increased in violence and frequency. Patrons of a 
kosher grocery store in Jersey City were murdered. And the year ended 
with last Saturday night's attack by a machete-wielding terrorist 
invading the home of a rabbi in Monsey during a Chanukah celebration.
    Federal, State, and local governments have responded to these 
events in varying degrees. But we are now in the midst of what can only 
be called a crisis, and government leaders at all levels must do much 
more to protect Americans in their places of worship and their 
communities. We need our elected officials to move beyond statements of 
support and sympathy and take concrete action that will eliminate the 
ever-increasing threat to our community. There are several critical 
measures that Congress can and must enact as soon as possible to 
protect Jewish institutions as well as America's churches, mosques, and 
temples, which also endured violent attacks in recent months.
    First, we must dramatically increase the funding for the Nonprofit 
Security Grant Program administered by the Department of Homeland 
Security. Most synagogues and churches in the United States do not have 
the resources to install adequate security measures or hire security 
guards. Our organization and a coalition of faith community partners 
worked with bipartisan leaders to create the Nonprofit Security Grant 
Program (NSGP) more than a decade ago.
    We did so out of a sense of concern and an abundance of caution. We 
did not anticipate the nightmare our community is currently 
confronting. The NSGP makes grants to houses of worship and other non-
profits deemed to be at risk of attack. The funds are used for things 
such as installing hardened doors, shatterproof glass, and surveillance 
cameras, as well as for hiring security guards. Congress responded to 
the greater need by increasing the funding level to $90 million for 
FY'20.
    But even that higher level of funding is insufficient to meet the 
needs of vulnerable synagogues and churches, especially in the wake of 
last week's attacks. That is why we stood yesterday with Senator Chuck 
Schumer as he called from quadrupling the funding for the NSGP to $360 
million. This is something that Congress ought to enact right away and 
not wait for the end of the standard appropriations cycle in September. 
The need is emergent, and it is the fundamental obligation of the 
government to ensure the safety and security of all its citizens.
    Second, local police departments don't have the necessary resources 
to increase their presence and patrols in our communities. The 
Department of Justice provides millions of dollars of Federal 
assistance to local police departments for various purposes. Congress 
should authorize some of those grants specifically to support the 
deployment of police protection to houses of worship.
    Third, the FBI and other law enforcement agencies need stronger 
tools to enable them to open investigations and prosecute the 
perpetrators of anti-Semitic and other hate crimes. Leaders of law 
enforcement have told us that the lack of a Federal domestic terrorism 
statute is a real impediment to their work. They are unable to open 
investigations into individuals for lack of such a statute. Bipartisan 
proposals are pending in Congress and should be considered at hearings 
and voted on right away.
    In his famous 1790 letter to the Jewish community of Newport, Rhode 
Island, President George Washington prayed:

``May, the Children of the Stock of Abraham, who dwell in this land, 
continue to merit and enjoy the goodwill of the other Inhabitants; 
while every one shall sit in safety under his vine and fig tree, and 
there shall be none to make him afraid.''

    Now, in the United States of America, the Children of Abraham are 
afraid in a way we have never been before. We are under threat of 
violence as we walk down a city street or enter our synagogues to pray. 
All Americans should be fearful of this crisis, too, for it means our 
beloved country is losing an essential element of its founding 
identity--to be a beacon of religious freedom to the world. Congress 
must act in the first months of the new year to protect the American 
Jewish community and all communities of faith to sustain President 
Washington's promise to us all.
Allen I. Fagin is executive vice president, and Nathan J. Diament is 
        director of public policy for the Union of Orthodox Jewish 
        Congregations of America (the ``Orthodox Union'')

    Mr. Rose. Thank you, sir.
    We now recognize Mr. May to summarize his statement for 5 
minutes.

STATEMENT OF CLIFFORD D. MAY, FOUNDER AND PRESIDENT, FOUNDATION 
                 FOR THE DEFENSE OF DEMOCRACIES

    Mr. May. Thank you.
    Chairman Rose, Chairman Thompson, Ranking Member Walker, 
and distinguished Members of the committee, thank you. Thank 
you for the opportunity to testify.
    I commend you for holding this hearing. I am going to talk 
about international anti-Semitism and anti-Semitic terrorism 
and strongly suggest that these expressions of bigotry and 
violence are making a significant contribution to the rise in 
anti-Semitic domestic terrorism.
    Jew hatred is as old as the Judean Hills, predating even 
the ancient rebellions of the Jewish nation against the Roman 
imperialists and colonialists who had conquered their lands.
    Over the centuries, Jews have been persecuted, attacked, 
and murdered based on their religion and what used to be called 
their race. They have been despised for being rich and poor, as 
capitalists and communists, as ruthless cosmopolitans and in 
Israel as nationalists.
    Jew haters may be white supremacists, Islamic supremacists 
or self-proclaimed social justice warriors. You cannot reason 
people out of anti-Semitism because no one was ever reasoned 
into it, which should be apparent, an important point, I think.
    In the 20th Century, anti-Semitism culminated in the 
extermination of the European Jew. In the 21st Century, anti-
Semitism is meant to culminate in the extermination of the 
Jewish state.
    Hamas, Palestinian Islamic Jihad, Hezbollah, and the 
Islamic Republic of Iran, which supports those and other 
terrorist groups, are candid about their genocidal intentions. 
Supreme Leader Ali Khamenei has called Israel a ``malignant 
cancerous tumor that must be removed and eradicated.''
    Hassan Nasrallah, Hezbollah's leader, has said--I am 
quoting again--``If Jews all gather in Israel, it will save us 
the trouble of going after them world-wide.''
    It is often forgotten or ignored that more than half of the 
Jews in Israel descend from families that lived for centuries 
in Arab or Muslim lands in such formerly diverse cities as 
Cairo, Tripoli, Aleppo. Baghdad, circa 1945, was as much as 
one-third Jewish.
    In the aftermath of World War II, Jews were driven out, not 
because they supported Israel. No, they were driven out because 
they were Jews.
    You will hear people say, ``I am not anti-Semitic. I am 
just anti-Zionists.'' Prior to 1948, the Zionist mission was to 
reestablish a Jewish nation-state in part of the ancient Jewish 
homeland. One could oppose that for any number of reasons.
    Since 1948, Zionism has come to mean support for Israel's 
survival, for its right to exist. So if you are an anti-Zionist 
today, you are at best indifferent to the fate of the only 
viable Jewish community remaining in the Middle East. In other 
words, to an anti-Zionist, Jewish lives do not matter.
    If anti-Semitism is a disease, what we are experiencing 
today is a global epidemic. Jew hatred has become not just 
widely acceptable but edgy, even fashionable in some quarters, 
in lands even where there are virtually no Jews.
    One example, Malaysia's Prime Minister, Mahathir Mohamad, 
is outspokenly anti-Semitic. Last fall at Columbia University, 
there was a Global Leaders Forum where he was invited to speak, 
and he instructed his audience, ``When you say `you cannot be 
anti-Semitic', there is no free speech.''
    He added, ``Why can I not say something about the Jews when 
people say nasty things about me and about Malaysia?''
    Would Columbia University have honored, as a global leader, 
a Christian or a Jew who spoke that way about Muslims, 
Salvadorans, or members of the LGBT community?
    In France, Sarah Halimi, a retired physician and director 
of a nursery, was stabbed and thrown to her death from her 
balcony by a neighbor screaming, ``Allahu Akbar.'' A French 
court has now dismissed all charges against her killer on 
grounds that he was not responsible because he had been smoking 
marijuana.
    In Argentina 5 years ago, Alberto Nisman, a prosecutor 
investigating the bombing of a Jewish community center, was 
shot in the head hours before he was to present evidence of a 
plot involving then President Cristina Kirchner and officials 
of the Islamic Republic of Iran. The current president says he 
has no idea who is responsible. Another cover-up of an alleged 
cover-up?
    In Great Britain recently, there was a serious chance that 
an anti-Semite would be elected Prime Minister.
    I could go on, but I want to take one moment to remind you 
that the United Nations is a veritable volcano of anti-Israeli 
rhetoric and resolutions. The U.N. Human Rights Council is that 
organization's most prolific enemy of the Jewish state. 
American tax dollars support it.
    Mainstreaming and in some instances condoning Jew hatred 
both abroad and at home may not cause anti-Semitic domestic 
terrorism, but it is self-evidently a major contributing 
factor.
    My time is up. In my written testimony, I elaborate. I 
offer additional information based on the research of FDD 
scholars and provide 14 specific recommendations. My colleagues 
and I can come up with many more and we would be glad to help 
you a lot with those.
    Chairman Rose, Ranking Member Walker, Chairman Thompson, 
let me again commend you for shedding light on this issue, and, 
again, thank you for the opportunity to testify.
    I look forward to your questions.
    [The prepared statement of Mr. May follows:]
                 Prepared Statement of Clifford D. May
    Chairman Rose, Ranking Member Walker, distinguished Members of the 
subcommittee, on behalf of FDD, thank you for the opportunity to 
testify.
    I commend you for holding this hearing. I am going to talk about 
international anti-Semitism and anti-Semitic terrorism, and strongly 
suggest that these expressions of bigotry and violence are making a 
significant contribution to ``the rise in anti-Semitic domestic 
terrorism.''
    Jew-hatred is as old as the Judean Hills, pre-dating even the 
ancient rebellions of the Jewish nation against the Roman imperialists 
and colonialists who had conquered their lands.
    Over the centuries, Jews have been persecuted, attacked, and 
murdered based on their religion and what used to be called their race.
    They have been despised for being rich and poor, as capitalists and 
communists, as rootless cosmopolitans and--in Israel--as nationalists.
    Jew-haters may be white supremacists, Islamic supremacists, or 
self-proclaimed social justice warriors. You cannot reason people out 
of anti-Semitism, because no one was ever reasoned into it.
    What should be apparent: In the 20th Century, anti-Semitism 
culminated in the murder of the European Jew. In the 21st Century, 
anti-Semitism is meant to culminate in the murder of the Jewish state.
    Hamas, Palestinian Islamic Jihad, Hezbollah, and the Islamic 
Republic of Iran--which supports all the terrorist groups I have just 
named--are candid about their genocidal intentions.
    Supreme Leader Ali Khamenei has called Israel a ``malignant 
cancerous tumor'' that must be ``removed and eradicated.''\1\ Hassan 
Nasrallah, Hezbollah's leader, has said: ``If Jews all gather in 
Israel, it will save us the trouble of going after them world-
wide.''\2\
---------------------------------------------------------------------------
    \1\ Tamar Pileggi, ``Khamenei: Israel a `cancerous tumor' that 
`must be eradicated,' '' The Times of Israel (Israel), June 4, 2018. 
(https://www.timesofisrael.com/khamenei-israel-a-cancerous-tumor-that-
must-be-eradicated/).
    \2\ Elena Lappin, ``The Enemy Within,'' The New York Times, May 23, 
2004. (https://www.nytimes.com/2004/05/23/books/the-enemy-within.html).
---------------------------------------------------------------------------
    It is often forgotten--or ignored--that more than half the Jews in 
Israel descend from families that lived for centuries in Arab or Muslim 
lands, in such formerly diverse cities as Alexandria, Cairo, Tripoli, 
Beirut, and Aleppo. Bagdad, circa 1945, was as much as one-third 
Jewish.
    In the aftermath of World War II, Jews were driven out--not because 
they supported Israel, but because they were Jews.
    You will hear people say: ``I'm not anti-Semitic. I'm just anti-
Zionist.'' Prior to 1948, the Zionist mission was to reestablish a 
Jewish nation-state in part of the ancient Jewish homeland. One could 
oppose that for many reasons. Since 1948, however, Zionism has come to 
mean support for Israel's survival, its right to exist.
    So if you are an anti-Zionist today you are, at best, indifferent 
to the fate of the only viable Jewish community remaining in the Middle 
East. In other words, to an anti-Zionist, Jewish lives don't matter.
    If anti-Semitism is a disease, what we are experiencing today is a 
global epidemic. Jew-hatred has become not just widely acceptable but 
edgy, if not fashionable--even in lands where there are virtually no 
Jews.
    One example: Malaysia's prime minister, Mahathir Mohamad, is 
outspokenly anti-Semitic. Last October, Columbia University held a 
``Global Leaders Forum'' where he instructed the audience: ``When you 
say `you cannot be anti-Semitic,' there is no free speech.'' He added: 
``Why can't I say something about the Jews, when people say nasty 
things about me and about Malaysia?''\3\
---------------------------------------------------------------------------
    \3\ Clifford D. May, ``Columbia University celebrates anti-
Semitism,'' The Washington Times, October 1, 2019. (https://
www.washingtontimes.com/news/2019/oct/1/columbia-university-celebrates-
anti-semitism/).
---------------------------------------------------------------------------
    Would Columbia have honored as a ``Global Leader'' a Christian or a 
Jew who spoke similarly about Muslims, Salvadorans, or members of the 
LGBT community?
    In France, Sarah Halimi, a retired physician and director of a 
nursery, was stabbed and thrown to her death from her balcony by a 
neighbor screaming ``Allahu Akbar.'' A French court has now dismissed 
all charges against her killer, on grounds that he was ``not 
responsible'' because he had been smoking marijuana.\4\
---------------------------------------------------------------------------
    \4\ ``Paris Protest Rally and March for Sarah Halimi `Murder of 
Jews carries no judicial penalty when the perpetrator is high on 
narcotics.' '' Simon Weisenthal Center, January 6, 2020. (http://
www.wiesenthal.com/about/news/paris-protest2.html).
---------------------------------------------------------------------------
    In Argentina 5 years ago, Alberto Nisman, a prosecutor 
investigating the bombing of a Jewish community center in Buenos Aires, 
was shot in the head hours before he was to present evidence of a plot 
involving then-President Cristina Kirchner and officials of the Islamic 
Republic of Iran. The current president says he has no idea what 
happened or who was responsible. Will there be yet another cover-up of 
an alleged cover-up?
    In Great Britain recently, there was a serious chance that an anti-
Semite would be elected prime minister.
    I could go on. But I want to take a moment to remind you that the 
United Nations is a veritable volcano of anti-Israeli rhetoric and 
resolutions. The U.N. Human Rights Council is that organization's most 
egregious and prolific enemy of the Jewish state. American tax dollars 
support it.
    Mainstreaming and in some instances condoning Jew-hatred, both 
abroad and here at home, may not cause ``anti-Semitic domestic 
terrorism,'' but it is self-evidently a major contributing factor.
    The following testimony will offer additional information based on 
the research of FDD scholars and provide specific recommendations.
                               background
    ``Anti-Semitism'' is a term coined in 1879 by Wilhelm Marr, a 
German Jew-hater who wanted to make clear that even Jews who convert 
and/or assimilate should be regarded as enemies conspiring against the 
German nation and the Aryan race.
    In 1882, Leo Pinsker, a Jewish physician in Poland, came up with a 
different term: Judeophobia, which he called a ``psychic aberration.'' 
He added: ``It is hereditary, and as a disease transmitted for two 
thousand years it is incurable.''\5\
---------------------------------------------------------------------------
    \5\ ``Texts Concerning Zionism: `Auto-Emancipation' by Leon Pinsker 
(1882),'' Jewish Virtual Library, accessed January 13, 2020. (https://
www.jewishvirtuallibrary.org/quot-auto-emancipation-quot-leon-pinsker).
---------------------------------------------------------------------------
    In 1919, Hitler outlined ``rational anti-Semitism,'' a doctrine 
whose ``final objective must unswervingly be the removal of the Jews 
altogether.''\6\ After coming to power in 1933, he initiated an 
economic boycott under the slogan: ``Don't buy from Jews.''\7\ The 
cattle cars, concentration camps, gas chambers, and ovens would come 
later.
---------------------------------------------------------------------------
    \6\ ``Holocaust,'' Encyclopedia Britannica, accessed January 13, 
2020. (https://www.britannica.com/event/Holocaust#ref716460).
    \7\ Clifford D. May, ``The anti-Israel lobby,'' The Washington 
Times, August 20, 2019. (https://www.washingtontimes.com/news/2019/aug/
20/anti-israel-lobby/).
---------------------------------------------------------------------------
    Today, we have the Boycott, Divestment, and Sanctions (BDS) 
campaign. Its implicit slogan: ``Don't buy from the Jewish state.'' Its 
explicit goal: To de-legitimize and demonize Israel, to prepare the 
ground for Israel's eventual annihilation. If it also can damage 
Israel's economy, its proponents will be doubly pleased.
    Many BDS advocates insist they only want Israel to change its 
policies, in particular to withdraw from the ``occupied territories.'' 
But after Israelis withdrew from Gaza in 2005--a territory seized from 
Egypt, not Palestinians, in the defensive war of 1967--Hamas fought a 
civil war against its rival, Fatah. Once in power, Hamas began 
attacking Israelis with missiles, terrorist tunnels, and incendiary 
kites.
    Were Israel to withdraw from the West Bank--known as Judea and 
Samaria prior to the Jordanian conquest in 1948 and occupation till 
1967--without guarantees of peace and security, Hamas almost certainly 
would take over there as well and launch more attacks, from closer 
proximity than Gaza, against Tel Aviv, Jerusalem, and Israel's 
international airport.
    Israelis would have no choice but to respond militarily. In the 
battle that would ensue, both Jews and Palestinians would be killed. 
BDS advocates appear untroubled by that eventuality.
    Another demand of BDS advocates is that Israel grant a ``right of 
return'' to the 5 million or so Palestinians who claim to be descended 
from refugees of Israel's War of Independence and the Six-Day War of 
1967. Were that to happen, Jewish Israelis would become a minority. Is 
it possible that they would enjoy equal rights in what would become an 
Arab- and Muslim-majority state?
    There are 22 states in the Arab League. Fifty-seven states belong 
to the Organization of Islamic Cooperation. In none of these countries 
do any minorities enjoy equal rights.
    By contrast, about 20 percent of Israel's population are 
minorities. The largest: Israel's Arab and Muslim communities. They 
enjoy more freedom, more rights, than do Arabs and Muslims in any Arab- 
or Muslim-majority nation. Worth noting: The only growing Christian 
community in the Middle East is in Israel.
    I mentioned above the case of Sarah Halimi, whose killer was let 
off, apparently because in France crimes against Jews are treated less 
seriously than crimes against others. In this, France is not alone.
    In January 2017, a court in Wuppertal, Germany, upheld a lower 
court's ruling in the sentencing of 3 Germans of Palestinian descent to 
probation for setting fire to a synagogue in July 2014--the same 
synagogue the Nazis had burned during Kristallnacht, the 1938 pogrom 
that presaged Hitler's ``final solution'' for the Jews of Europe. The 
court decided that since the perpetrators were incensed about Israel's 
actions in the Middle East, their act of arson did not constitute anti-
Semitism.\8\
---------------------------------------------------------------------------
    \8\ Clifford D. May and Tenzin Dorjee, ``My view: Holocaust 
Remembrance Day: Europe must fight anti-Semitism,'' Deseret News, 
January 27, 2017. (https://www.deseret.com/2017/1/27/20604853/my-view-
holocaust-remembrance-day-europe-must-fight-anti-semitism).
---------------------------------------------------------------------------
    In Belgium last year, Mehdi Nemmouche, identified by the BBC as a 
``French-born jihadist,'' was found guilty of murdering an Israeli 
couple and 2 staffers at a Jewish museum in Brussels 5 years ago.\9\ 
His lawyer had claimed the attack was actually ``a targeted execution'' 
by agents of the Mossad, Israel's foreign intelligence agency. He did 
not bother to present any evidence.
---------------------------------------------------------------------------
    \9\ ``Brussels Jewish Museum murders: Mehdi Nemmouche guilty,'' BBC 
(UK), March 7, 2019. (https://www.bbc.com/news/world-europe-47490332); 
``The Latest: Guilty verdict in Belgian Jewish museum killings,'' 
Associated Press, March 7, 2019. (https://apnews.com/
473204c180004ad5a27c60096d45d2b6).
---------------------------------------------------------------------------
    The BBC reported: ``At one point the defense even argued that 
Nemmouche could not be considered anti-Semitic because he wore Calvin 
Klein shoes--an apparent reference to Mr. Klein's Jewish 
heritage.''\10\
---------------------------------------------------------------------------
    \10\ ``Brussels Jewish Museum murders: Mehdi Nemmouche guilty,'' 
BBC (UK), March 7, 2019. (https://www.bbc.com/news/world-europe-
47490332).
---------------------------------------------------------------------------
    Also in Belgium, less than a year ago, the annual Carnival parade 
included floats carrying oversize effigies of religious Jews, snarling 
men with big noses, sitting atop bags of money, one with a rat perched 
atop his shoulder.\11\
---------------------------------------------------------------------------
    \11\ Milan Schreuer, ``Jewish Caricatures at Belgian Carnival Set 
Off Charges of Anti-Semitism,'' The New York Times, March 8, 2019. 
(https://www.nytimes.com/2019/03/08/world/europe/belgium-carnival-anti-
semitism.html).
---------------------------------------------------------------------------
    The United Nations Educational, Scientific, and Cultural 
Organization, or UNESCO, an agency ostensibly devoted to ``the 
intellectual and moral solidarity of humanity,'' recognized the parade 
as a cultural heritage event and declined to offer criticism.\12\
---------------------------------------------------------------------------
    \12\ United Nations Educational, Scientific, and Cultural 
Organization, ``UNESCO in brief--Mission and Mandate,'' accessed 
January 13, 2020. (https://en.unesco.org/about-us/introducing-unesco).
---------------------------------------------------------------------------
    In Ireland, the parliament has passed legislation, not yet enacted 
into law, to criminalize a range of business transactions with Jews in 
the West Bank, the Golan Heights, and even the Jewish Quarter of the 
Old city of Jerusalem.\13\
---------------------------------------------------------------------------
    \13\ Clifford D. May, ``Ireland's surprise attack,'' The Washington 
Times, January 29, 2019. (https://www.washingtontimes.com/news/2019/
jan/29/new-irish-legislation-threatens-israelis-palestini/).
---------------------------------------------------------------------------
    In the following sections, I will provide additional examples of 
international anti-Semitism, anti-Zionism, and anti-Israelism based on 
the research of FDD's scholars. I hope you will agree that this clearly 
establishes that ill winds from around the world are fanning the flames 
of the current ``rise in anti-Semitic domestic terrorism.''
    Following that, I will offer recommendations based on the 
conviction that while anti-Semitism cannot be cured, it can be treated 
and its impact mitigated and managed.
                examples of international anti-semitism
Turkey
    Since February 2017, Turkey's state-funded broadcaster TRT has 
sponsored and aired ``The Last Emperor,'' an anti-Semitic revisionist 
historical series that reached its 100th episode last December. The 
drama peddles anti-Semitic conspiracies and has been documented to 
trigger anti-Semitic hate speech and hate crimes. This Turkish 
Government-sanctioned anti-Semitic content is not only available in the 
United States via satellite, but also available with English, French, 
Spanish, Urdu, and other subtitles on YouTube, providing Turkey's 
Islamist strongman Recep Tayyip Erdogan with the capacity to 
disseminate anti-Semitic content and incite diaspora communities in the 
United States.\14\ In commenting about the conspiracy theories 
propagated in the series, Erdogan said, ``The same schemes are carried 
out today in the exact same manner . . . What the West does to us is 
the same; just the era and actors are different.''\15\
---------------------------------------------------------------------------
    \14\ Aykan Erdemir and Oren Kessler, ``A Turkish TV blockbuster 
reveals Erdogan's conspiratorial, anti-Semitic worldview'', The 
Washington Post, May 15, 2017. (https://www.washingtonpost.com/news/
democracy-post/wp/2017/05/15/a-turkish-tv-blockbuster-reveals-erdogans-
conspiratorial-anti-semitic-worldview/).
    \15\ ``Erdogan degerlendirdi: Dirilis mi, Payitaht mi? (Erdogan 
Evaluates: Dirilis, or Payitaht?),'' Yeni Akit (Turkey), April 14, 
2017. (https://www.yeniakit.com.tr/video/erdogan-degerlendirdi-dirilis-
mi-payitaht-mi-17715.html).
---------------------------------------------------------------------------
Qatar and Al Jazeera
    Since its founding, Al Jazeera, the Doha-based satellite television 
network, has consistently given airtime to anti-Semitic perspectives. 
The network, which is funded by Qatar's royal family,\16\ has 
disseminated anti-Semitic material on its Arabic-language television 
channel as well as on AJ+, its on-line channel, which is available on 
Twitter, Instagram, YouTube, and Facebook.\17\
---------------------------------------------------------------------------
    \16\ Jonathan Schanzer and Varsha Koduvayur, ``Qatar's Soft Power 
Experiment'' in Digital Dictators: Media, Authoritarianism, and 
America's New Challenge, Ed. Ilan Berman (Lanham, MD: Rowman & 
Littlefield, November 2018), page 5.
    \17\ ``AJ+,'' AJ+, accessed January 10, 2020. (https://
www.ajplus.net/).
---------------------------------------------------------------------------
    One of the channel's best-known promulgators of anti-Semitism is 
Yusuf al-Qaradawi, an Egyptian Muslim Brotherhood ideologue widely 
considered the spiritual guide of Hamas, the Palestinian branch of the 
Brotherhood.\18\ In 1996, Al Jazeera gave Qaradawi, a long-time 
resident of Doha and a citizen of Qatar,\19\ a weekly show titled 
Religion and Life on its Arabic-language channel, which Qaradawi used 
to amplify his anti-Semitic messages. Indeed, Jeffrey Goldberg, editor-
in-chief of The Atlantic magazine, has suggested Qaradawi as ``a role 
model for the new generation of Jew-haters.''\20\
---------------------------------------------------------------------------
    \18\ Jonathan Schanzer and Varsha Koduvayur, ``Qatar's Soft Power 
Experiment'' in Digital Dictators: Media, Authoritarianism, and 
America's New Challenge, Ed. Ilan Berman (Lanham, MD: Rowman & 
Littlefield, November 2018), page 5.
    \19\ ``Professor Yousef A. Al-Qaradawi,'' King Faisal Prize, 
accessed January 10, 2020. (https://kingfaisalprize.org/professor-
yousef-a-al-qaradawi/).
    \20\ Jeffrey Goldberg, ``New Chapter, Old Story,'' The New York 
Times, October 11, 2013. (https://www.nytimes.com/2013/10/13/books/
review/daniel-jonah-goldhagens-devil-that-never-dies.html).
---------------------------------------------------------------------------
    In 2009, for example, Qaradawi delivered a sermon, broadcasted on 
Al Jazeera, in which he claimed, ``Allah has imposed upon the Jews 
people who would punish them for their corruption. The last punishment 
was carried out by Hitler. By means of all the things he did to them--
even though they exaggerated this issue--he managed to put them in 
their place.''\21\ Qaradawi concluded that ``this was divine 
punishment.''\22\
---------------------------------------------------------------------------
    \21\ Ibid.
    \22\ Ibid.
---------------------------------------------------------------------------
    Qaradawi also has used his TV platform to incite violence. In an 
April 2004 episode of the show, he praised God for giving Palestinians 
``human bombs.''\23\ In a January 2009 sermon broadcasted by Al 
Jazeera, he called upon Allah to ``take this oppressive, Jewish, 
Zionist band of people . . . do not spare a single one of them. Oh 
Allah, count their numbers, and kill them, down to the very last 
one.''\24\ Qaradawi's program ran until 2013 and reached an estimated 
60 million viewers world-wide.\25\
---------------------------------------------------------------------------
    \23\ ``Sheik Yusuf al-Qaradawi: Theologian of Terror,'' Anti-
Defamation League, May 3, 2013. (https://www.adl.org/sites/default/
files/documents/assets/pdf/anti-semitism/arab-world/Sheik-Yusuf-al-
Qaradawi-2013-5-3-v1.pdf).
    \24\ P. David Hornik, ``The Ten Worst Purveyors of Antisemitism 
Worldwide, #2: Sheikh Yusuf al-Qaradawi,'' PJ Media, November 24, 2013. 
(https://pjmedia.com/lifestyle/2013/11/24/the-ten-worst-purveyors-of-
antisemitism-worldwide-2-sheikh-yusuf-al-qaradawi/1/).
    \25\ ``Yusuf al-Qaradawi,'' Counter Extremism Project, accessed on 
January 10, 2020. (https://www.counterextremism.com/extremists/yusuf-
al-qaradawi).
---------------------------------------------------------------------------
    Qaradawi was not confined to Al Jazeera's airwaves. In 1999--the 
same year he was banned from entering the United States--Qaradawi 
launched his website, IslamOnline, with backing from the Qatari royal 
family.\26\ As the Anti-Defamation League notes, the website ``enabled 
Qaradawi to reach the American public despite being banned from the 
country.''\27\ IslamOnline ran several news stories that described 
Zionism as a ``cancer,'' and also featured fatwas from Qaradawi that 
endorsed violence.\28\
---------------------------------------------------------------------------
    \26\ ``Sheik Yusuf al-Qaradawi: Theologian of Terror,'' Anti-
Defamation League, May 3, 2013. (https://www.adl.org/sites/default/
files/documents/assets/pdf/anti-semitism/arab-world/Sheik-Yusuf-al-
Qaradawi-2013-5-3-v1.pdf).
    \27\ Ibid.
    \28\ Ibid.
---------------------------------------------------------------------------
    While Qaradawi serves as a particularly notable case of Al 
Jazeera's purveying of anti-Semitism, he is, unfortunately, not the 
only one. In May 2019, the network came under fire for airing a 
Holocaust-denying video on AJ+ Arabic, which Haaretz describes as Al 
Jazeera's ``youth-focused, on-line current-events channel.''\29\ The 
video, titled ``How Did Israel Benefit from the Holocaust?'' claimed 
that Israel was the ``biggest winner'' and that the estimation that 6 
million Jews who perished in the Holocaust was overblown and had been 
``adopted by the Zionist movement.''\30\ In the 7-minute-long video, 
the narrator, Muna Hawwa, agrees that the Holocaust happened but was 
``different from how the Jews tell it.''\31\ Hawwa goes on to question 
why ``does the world focus so much on Jews,'' when the Nazis also 
killed ``Gypsies [Roma], the disabled, homosexuals, and Arabs and 
Christians too.''\32\
---------------------------------------------------------------------------
    \29\ ``Al Jazeera Pulls Video Claiming Holocaust Was `Different 
From How the Jews Tell It,' '' Haaretz (Israel), May 19, 2019. (https:/
/www.haaretz.com/middle-east-news/al-jazeera-pulls-video-claiming-
holocaust-was-different-from-how-the-jews-tell-it-1.7255111).
    \30\ ``Al Jazeera suspends journalists for Holocaust denial 
video,'' BBC News (UK), May 20, 2019. (https://www.bbc.com/news/world-
middle-east-48335169).
    \31\ ``Al Jazeera Pulls Video Claiming Holocaust Was `Different 
From How the Jews Tell It,' '' Haaretz (Israel), May 19, 2019. (https:/
/www.haaretz.com/middle-east-news/al-jazeera-pulls-video-claiming-
holocaust-was-different-from-how-the-jews-tell-it-1.7255111).
    \32\ Ibid.
---------------------------------------------------------------------------
    The other claims made in the video are similarly horrific--as is 
the way AJ+ marketed the video on its Arabic social media platforms: 
Using the caption, ``gas ovens killed millions of Jews . . . so goes 
the narrative. What is the truth behind the #Holocaust and how did the 
Zionist movement benefit from it?''\33\
---------------------------------------------------------------------------
    \33\ Ibid.
---------------------------------------------------------------------------
    AJ+ pulled the video from its platforms,\34\ but it had already 
garnered 1.1 million views on Twitter and Facebook. Al Jazeera also 
suspended 2 journalists (an action it never took in relation to 
Qaradawi's anti-Semitism) and claimed that the video had been 
``produced without due oversight.''\35\
---------------------------------------------------------------------------
    \34\ Ibid.
    \35\ ``Al Jazeera suspends journalists for Holocaust denial 
video,'' BBC News (UK), May 20, 2019. (https://www.bbc.com/news/world-
middle-east-48335169).
---------------------------------------------------------------------------
    In Europe and other markets outside the Arab world, Al Jazeera 
reaches much of its audience via Al Jazeera English, which claimed in 
2013 to reach over 270 million households in over 140 countries.\36\ 
Since it seeks a broader audience, Al Jazeera English generally avoids 
the excesses of its Arabic progenitor. Mohammed Fahmy, a former Al 
Jazeera employee, describes Al Jazeera's Arabic and English channels as 
``entirely different animals,'' since the Arabic channel serves as a 
``mouthpiece for the Qatari government which owns Al Jazeera 100 
percent.''\37\
---------------------------------------------------------------------------
    \36\ ``Al Jazeera English,'' Al Jazeera, accessed on January 10, 
2020. (https://www.aljazeera.com/).
    \37\ Mohammed Fahmy, The Marriott Cell: An Epic Journey from 
Cairo's Scorpion Prison to Freedom (Toronto: Random House Canada, 2016) 
page 115.
---------------------------------------------------------------------------
    Yet the politics and ideology behind the Arabic channel sometimes 
become visible, as became clear in June 2017, when the Twitter account 
of Al Jazeera English was caught sharing an anti-Semitic meme. Known as 
the ``Happy Merchant,'' the meme shows ``a hook-nosed Jew in a yarmulke 
rubbing his hands together.''\38\ Al Jazeera's post featured the 
caption ``my global warming, uh, I mean, climate change scam is working 
out perfectly for our long-term Talmudic plan of world 
domination!''\39\ Al Jazeera English quickly deleted the meme and 
claimed that the image was not an Al Jazeera English original, ``but a 
reply to an old thread that was mistakenly linked.''\40\
---------------------------------------------------------------------------
    \38\ Sam Kestenbaum, ``Al Jazeera Sorry For `Mistakenly' Tweeting 
Anti-Semitic Meme,'' Forward, June 1, 2017. (https://forward.com/fast-
forward/373513/al-jazeera-sorry-for-mistakenly tweeting-anti-semitic-
meme/).
    \39\ Ibid.
    \40\ Ibid.
---------------------------------------------------------------------------
The Islamic Republic of Iran
    When I was foreign correspondent covering the Islamic Revolution in 
Iran in 1979, the 3,000-year-old Jewish community in that nation 
numbered about 100,000. I recall visiting Iran's chief rabbi. Above his 
desk, he had a portrait of Ayatollah Ruhollah Khomeini, whom he 
praised--effusively, though by no means convincingly.
    Over the years since, Iran's Jewish population has dwindled. Today 
it is estimated at under 10,000. Under the Islamist regime they are and 
will remain--at best--second-class citizens. Other minorities, 
including Christians, and especially Baha'i, suffer even more brutal 
persecution.
    Anti-Semitism constitutes a defining feature of Tehran's radical 
Islamist ideology. The clerical regime routinely calls for Israel's 
destruction, with the supreme leader, Ayatollah Ali Khamenei, regularly 
leading crowds in chants of ``Death to Israel!'' And while the regime 
often attempts to draw a distinction between anti-Semitism and anti-
Zionism, claiming that it opposes Israel but not Jews,\41\ its rhetoric 
and behavior tell a different story. The regime embraces classic anti-
Semitic conspiracy theories, demonizes Jews in official state media, 
and promotes Holocaust denial.\42\ On the eve of the 1979 Islamic 
Revolution, Iran's Jewish population numbered 80,000 to 100,000. Today, 
estimates of Iran's Jewish population range from 5,000 to 10,000.\43\
---------------------------------------------------------------------------
    \41\ `` `Not anti-Semitic': Khamenei defines Iran's goal of `wiping 
out Israel,' '' The Times of Israel (Israel), November 15, 2019. 
(https://www.timesofisrael.com/khamenei-when-iran-speaks-of-wiping-out-
israel-it-refers-to-regime-not-jews); ``Iran rejects anti-Semitism 
allegation by Pence,'' Reuters, February 16, 2019. (https://
www.reuters.com/article/us-usa-eu-iran/iran-rejects-anti-semitism-
allegation-by-pence-idUSKCN1Q50IA).
    \42\ ``Holocaust Denial and Distortion from Iranian Government and 
Official Media Sources, 1998-2016,'' United States Holocaust Memorial 
Museum, accessed January 9, 2020. (https://www.ushmm.org/antisemitism/
holocaust-denial-and-distortion/holocaust-denial-antisemitism-iran/
2016-holocaust-cartoon-contests-in-iran/timeline).
    \43\ Karmel Melamed, ``40 years after Iranian Revolution, LA's 
Persian Jews are still feeling the pain,'' The Times of Israel 
(Israel), March 1, 2019. (https://www.timesofisrael.com/40-years-after-
iranian-revolution-las-persian-jews-are-still-feeling-the-pain); Roya 
Hakakian, ``Why They Stay,'' Tablet, January 14, 2019. (https://
www.tabletmag.com/jewish-news-and-politics/278355/iranian-revolution-
jews).
---------------------------------------------------------------------------
    Iran's view of Israel and Jews resembles the thesis of The 
Protocols of the Elders of Zion, the infamous anti-Semitic forgery 
published in the early 20th Century. According to the Islamist regime, 
Israel and Jews not only seek to dominate their neighbors, but also lie 
at the root of all the problems facing the Muslim world. Jews, in this 
conspiratorial view, secretly control Western governments, spurring 
them to advance policies that weaken the Muslim world and corrupt it 
with anti-Islamic ideas.
    Last year, for instance, a state-run Iranian television station 
broadcasted a music video portraying the Statue of Liberty with a 
Jewish menorah in place of its torch; the singer described it as ``a 
flame straight from hell.''\44\ Iranian President Hassan Rouhani said 
the Trump administration's harsh rhetoric against Tehran was ``written 
by Zionists word for word.''\45\ A headline in the state-run Press TV 
declared, ``The Zionists Tighten Their Stranglehold on British 
Politics''; the story proceeded to argue that Britain ``is unable to 
assert an independent foreign policy in respect to major foreign policy 
issues, notably with regards to Iran.''\46\ Iran's state-run media 
broadcast and disseminate world-wide, reaching millions of viewers in 
Persian, Arabic, English, and Spanish.
---------------------------------------------------------------------------
    \44\ David Andrew Weinberg, ``Tehran Spreads More Anti-Semitism as 
Military Tensions Increase,'' Anti-Defamation League, August 21, 2019. 
(https://www.adl.org/blog/tehran-spreads-more-anti-semitism-as-
military-tensions-increase).
    \45\ `` `Zionists' Writing White House Speeches on Iran `Word for 
Word,' Rouhani Alleges,'' Algemeiner, May 23, 2019. (https://
www.algemeiner.com/2019/05/23/zionists-writing-white-house-speeches-on-
iran-word-for-word-rouhani-alleges).
    \46\ ``The Zionists Tighten Their Stranglehold on British 
Politics,'' Press TV (Iran), July 13, 2019. (https://www.presstv.com/
Detail/2019/07/13/600825/UK-Israel-Stranglehold-on-British-Politics).
---------------------------------------------------------------------------
    The anti-Semitism of Iran's rulers and State-run media has a long 
history. In his landmark book, Islamic Government, Ayatollah Ruhollah 
Khomeini, the regime's founding father and first supreme leader, wrote: 
``From the very beginning, the historical movement of Islam has had to 
contend with the Jews, for it was they who first established anti-
Islamic propaganda.''\47\
---------------------------------------------------------------------------
    \47\ Imam Khomeini, Islamic Government (Tehran: The Institute for 
Compilation and Publication of Imam Khomeini's Works, 1991), page 7. 
(https://kyleorton1991.files.wordpress.com/2017/11/ruhollah-khomeini-
1970-islamic-government-governance-of-the-jurist.pdf).
---------------------------------------------------------------------------
    Ayatollah Ali Khamenei, the current supreme leader, has repeatedly 
described Israel as a ``cancerous tumor'' as well as the Middle East's 
biggest problem.\48\ This view, he said, constitutes a theological 
imperative. ``Palestine is not a strategic but a belief issue,'' he 
contended. ``It is about a heart connection. It is a religious 
issue.''\49\ Israel, he said, constitutes ``a painful wound on the body 
of Islamic society'' that ``is annoying the heart of the prophet. The 
heart and soul of the prophet in paradise is full of sadness. What is 
the solution, then? Jihad is the solution.''\50\
---------------------------------------------------------------------------
    \48\ Tamas Pileggi, ``Khamenei: Israel a `cancerous tumor' that 
`must be eradicated,' '' The Times of Israel (Israel), June 4, 2018. 
(https://www.timesofisrael.com/khamenei-israel-a-cancerous-tumor-that-
must-be-eradicated); Greg Tepper, ``Israel a `cancerous tumor' and 
Middle East's biggest problem, Iranian supreme leader says,'' The Times 
of Israel (Israel), August 19, 2012. (https://www.timesofisrael.com/
khamenei-israeli-a-malignant-zionist-tumor).
    \49\ Ben Cohen, ``Global Anti-Semitism Now Has a Leader,'' The 
Tower, September 2015. (http://www.thetower.org/article/global-anti-
semitism-now-has-a-leader).
    \50\ Ibid.
---------------------------------------------------------------------------
    Holocaust denial also features prominently in the regime's 
rhetoric. Last month, Khamenei tweeted his support for the late French 
philosopher Roger Garaudy, whose book denying the Holocaust was banned 
in France.\51\ The regime has also held multiple Holocaust denial 
cartoon contests as well as Holocaust denial conferences.\52\ This 
conduct stems in part from its goal of delegitimizing the state of 
Israel.
---------------------------------------------------------------------------
    \51\ Rachel Wolf, ``Iran's Khamenei praises French Holocaust-
denier,'' The Jerusalem Post (Israel), December 17, 2019. (https://
www.jpost.com/Middle-East/Iranian-Ayatollah-Ali-Khamenei-praises-
French-Holocaust-denier-611189).
    \52\ ``Holocaust Denial and Distortion from Iranian Government and 
Official Media Sources, 1998-2016,'' United States Holocaust Memorial 
Museum, accessed January 10, 2020. (https://www.ushmm.org/antisemitism/
holocaust-denial-and-distortion/holocaust-denial-antisemitism-iran/
2016-holocaust-cartoon-contests-in-iran/timeline).
---------------------------------------------------------------------------
Europe
    The extraordinary spike in lethal Jew-hatred and in contemporary 
antisemitism targeting Israel has led to intensified security, new 
tracking methods, resolutions, executive orders, and legislation to 
combat ``the oldest hatred.''
            Hezbollah, Proxy of the Islamic Republic of Iran
    In December, Germany's Bundestag passed a resolution urging 
Chancellor Angela Merkel's administration to ban Hezbollah's activities 
in the Federal Republic. Merkel has declined to authorize her interior 
ministry to enact a ban, however. The 1,050 Hezbollah operatives in 
Germany spread a lethal anti-Semitic ideology and promote the BDS 
campaign against Israel.
    Over the years, U.S. Ambassador to Germany Richard Grenell, 
Secretary of State of Mike Pompeo, the Israeli government, and 
Germany's nearly 100,000-member Jewish community have appealed to 
Merkel to outlaw Hezbollah.
    The United Kingdom proscribed Hezbollah's entire organization as a 
terrorist entity in February 2019.\53\ In doing so, it joined the 
Netherlands as the second European country to ban Hezbollah in its 
entirely. After Hezbollah operatives blew up an Israeli tour bus in 
2012 in Burgas, Bulgaria, the European Union classified Hezbollah's 
``military wing'' as a terrorist organization in 2013. The bombing 
killed 5 Israeli tourists and their Bulgarian Muslim bus driver.
---------------------------------------------------------------------------
    \53\ ``Hezbollah to be added to UK list of terrorist 
organisations,'' BBC News (UK), February 25, 2019. (https://
www.bbc.com/news/uk-47359502).
---------------------------------------------------------------------------
    The notion of a split between Hezbollah's alleged military and 
political wings is risible. The organization itself denies any 
distinction, but the fiction serves a political purpose for the 
European Union.\54\
---------------------------------------------------------------------------
    \54\ Mark Dubowitz and Benjamin Weinthal, ``Europe's Delusions on 
Hezbollah,'' New York Post, March 11, 2019. (https://www.fdd.org/
analysis/op_eds/2019/03/11/europes-delusions-on-hezbollah/).
---------------------------------------------------------------------------
            Anti-Semitic Murders in Germany
    After a right-wing extremist sought to massacre Jews praying in a 
synagogue in the eastern German city of Halle on Yom Kippur in October 
2019, the state of Saxony-Anhalt, where Halle is located, posted armed 
officers outside synagogues during times of prayer.\55\ The 27-year-old 
neo-Nazi Stephan Balliet, after failing to breach the synagogue's door, 
murdered 2 non-Jews nearby before he was arrested.
---------------------------------------------------------------------------
    \55\ Cnaan Liphshiz, ``How Germany is rethinking security for its 
Jewish community following the Yom Kippur synagogue attack,'' Jewish 
Telegraphic Agency, October 18, 2019. (https://www.jta.org/2019/10/18/
global/how-germany-is-rethinking-security-for-its-jewish-community-
following-the-yom-kippur-synagogue-attack).
---------------------------------------------------------------------------
    In addition to Balliet's right-wing anti-Semitism, including 
Holocaust denial, he was wedded to a contemporary anti-Semitic 
worldview, including the idea of a ``Zionist-occupied government'' 
controlling Germany. In short, he desired to end Israel's existence and 
rid the world of Zionism.\56\ In the aftermath of the Halle attack, the 
German state of Hesse will provide police at every synagogue and Jewish 
institution during Jewish holidays. Germany's Interior Minister Horst 
Seehofer, who has declined to ban Hezbollah, said the authorities will 
``take a closer look at the gamers' scene,'' because Balliet was heavy 
user of on-line gaming platforms.\57\
---------------------------------------------------------------------------
    \56\ Benjamin Weinthal, ``Germany Yom Kippur shooting didn't come 
out of nowhere--analysis,'' The Jerusalem Post (Israel), October 10, 
2019. (https://www.jpost.com/Diaspora/Germany-shooting-didnt-come-out-
of-nowhere-604262).
    \57\ Cnaan Liphshiz, ``How Germany is rethinking security for its 
Jewish community following the Yom Kippur synagogue attack,'' Jewish 
Telegraphic Agency, October 18, 2019. (https://www.jta.org/2019/10/18/
global/how-germany-is-rethinking-security-for-its-jewish-community-
following-the-yom-kippur-synagogue-attack).
---------------------------------------------------------------------------
            Bundestag Resolutions and City Council Laws against BDS
    The German parliament passed a non-binding anti-BDS resolution in 
May declaring BDS to be anti-Semitic.\58\ The resolution noted that the 
BDS campaign recalls the Nazi-era economic boycott against German Jews 
that is considered a precursor to the Holocaust. Merkel's 
administration has declined to implement the Bundestag's anti-BDS 
resolution. In contrast, the German cities of Frankfurt, Berlin, and 
Munich have either city council laws or executive orders barring the 
use of public space and funds for BDS activities.\59\
---------------------------------------------------------------------------
    \58\ Katrin Bennhold, ``German Parliament Deems B.D.S. Movement 
Anti-Semitic,'' The New York Times, May 17, 2019. (https://
www.nytimes.com/2019/05/17/world/europe/germany-bds-anti-semitic.html).
    \59\ Orit Arfa, ``Confronting Germany's mixed record on tackling 
BDS,'' Jewish News Syndicate, July 31, 2018. (https://www.jns.org/
confronting-germanys-mixed-record-on-tackling-bds).
---------------------------------------------------------------------------
            Visa Restrictions for Visitors from the Disputed 
                    Territories
    In January, Andreas Geisel, Berlin's senator for the interior--the 
city's equivalent of an interior minister--travelled to Israel to 
receive briefings on counter-terrorism and exchange information with 
Israel's public security minister. Geisel went to the German consulate 
office in Ramallah to sensitize the staff about issuing visas to 
Palestinians who promote terrorism and lethal Jew-hatred. The Ramallah 
consulate had greenlighted visas for Palestinians to visit Berlin who 
glorify terrorism against Jews and Israel.\60\
---------------------------------------------------------------------------
    \60\ Andreas Geisal, ``Berlin's senator wants to make entry more 
difficult for anti-Semitic agitators,'' Berliner Zeitung (Germany), 
January 1, 2020. (https://www.berliner-zeitung.de/mensch-metropole/
berlins-innensenator-will-antisemitischen-hetzern-die-einreise-
erschweren-li.4702).
---------------------------------------------------------------------------
            France and Lethal Anti-Semitism and Anti-Zionism
    The French government finances the security of Jewish institutions 
at the cost of $1.2 million a day.\61\ The intensified French security 
measures followed the Islamic State's deadly attacks in Paris in 2015 
on Charlie Hebdo magazine cartoonists and 4 Jews at a kosher 
supermarket. The enhanced security, according to French observers, has 
turned Jewish organizations and institutions into fortresses.
---------------------------------------------------------------------------
    \61\ Cnaan Liphshiz, ``How Germany is rethinking security for its 
Jewish community following the Yom Kippur synagogue attack,'' Jewish 
Telegraphic Agency, October 18, 2019. (https://www.jta.org/2019/10/18/
global/how-germany-is-rethinking-security-for-its-jewish-community-
following-the-yom-kippur-synagogue-attack).
---------------------------------------------------------------------------
    In December 2019, France's National Assembly passed a resolution 
largely equating anti-Zionism with anti-Semitism. The resolution also 
endorsed the International Holocaust Remembrance Alliance's definition 
of anti-Semitism and urged other nations to accept it.\62\
---------------------------------------------------------------------------
    \62\ Ariel Kahana and Dam Lavie, `` `Anti-Zionism is akin to anti-
Semitism,' French Parliament rules,'' Israel Hayom (Israel), April 12, 
2019. (https://www.israelhayom.com/2019/12/04/french-parliament-rules-
anti-zionism-is-akin-to-anti-semitism).
---------------------------------------------------------------------------
Argentina
    Five years ago this week, Alberto Nisman, an Argentine prosecutor 
investigating an act of terrorism against Argentine Jews, was shot in 
the head. The murder came hours before he was slated to present 
evidence of a plot between major figures in the Argentine government 
and Iranian representatives to provide immunity to Iran for its role in 
the terrorist attack. Those involved in Nisman's murder have never been 
brought to justice though at least 1 has been indicted.
    Argentina's newly-elected president once said he believed Nisman 
could not have committed suicide. Indeed, the country's Gendarmerie 
found Nisman had been subdued and assassinated. But now the new 
president says--no doubt swayed by current Vice President Cristina 
Kirchner, who was president at the time of Nisman's murder and was the 
author of the alleged plot to cover up Iran's role in the original 
terrorist attack--that there is no evidence of an assassination. He is 
in a bind because if there were an assassination of an innocent man 
investigating a plot to cover up the anti-Semitic terrorist act, 
someone would have to be held accountable. It is increasingly looking 
like that may not happen in Argentina under the new government.
The BDS Campaign, Non-Governmental Organizations, and the United 
        Nations
    BDS is one expression of anti-Semitism. Activists at the Durban NGO 
Forum in 2001, a precursor to the BDS campaign, distributed pro-Nazi 
and overtly anti-Semitic literature, signaling BDS's future 
direction.\63\ BDS is both a form of economic warfare and a means to 
malign and de-legitimize the Jewish state. Among its methods: 
Fabricating, magnifying, and distorting Israeli policies, actions, and 
perceived abuses. According to a 2016 report by the Amcha Initiative, a 
non-profit dedicated to investigating and combating anti-Semitism in 
American higher education institutions, ``The consideration of anti-
Israel divestment resolutions in student government or by the student 
body was strongly linked to a surge in anti-Semitic activity.''\64\
---------------------------------------------------------------------------
    \63\ Harris Schoenberg, ``Demonization in Durban: The World 
Conference Against Racism,'' City University of London, October 8, 
2001. (http://www.staff.city.ac.uk/p.willetts/NGOS/WCAR/SCHOENBG.PDF); 
``Durban Watch, Photos from the 2001 U.N. World Conference Against 
Racism, Durban, South Africa,'' Human Rights Voices, accessed January 
10, 2020. (http://www.humanrightsvoices.org/EYEontheUN/antisemitism/
durban/?l=36&p=350).
    \64\ ``Report on Anti-Semitic Activity During the First Half of 
2016,'' AMCHA Initiative, 2016. (https://www.amchainitiative.org/wp-
content/uploads/2016/07/Report-on-Antisemitic-Activity-During-the-
First-Half-of-2016.pdf).
---------------------------------------------------------------------------
    Many of the BDS campaign's charges against Israel seem familiar 
because they are modern manifestations of centuries-old attacks against 
Jews. BDS activists have claimed that Israelis harvest Palestinian 
organs, kill babies, poison Palestinian wells and, as recently as this 
month, intentionally flood Gaza. BDS activists also have alleged that 
Israel and its supporters control foreign governments.\65\ Not 
surprisingly, BDS has found a receptive audience among neo-Nazis and 
others who are openly anti-Semitic.\66\
---------------------------------------------------------------------------
    \65\ State of Israel Ministry of Strategic Affairs, ``Behind the 
Mask: The Antisemitic Nature of BDS Exposed,'' September 2019. (https:/
/4il.org.il/wp-content/uploads/2019/09/MSA-report-Behind-the-Mask.pdf).
    \66\ ``The New Anti-Semites,'' Zachor Legal Institute and 
Stopantisemitism.org, December 2019. (https://static1.squarespace.com/
static/5cc20f51ca525b73bdd50e3a/t/5e035aaff6f8a1331660- 1016/
1577278302733/The+New+Anti-Semites.pdf).
---------------------------------------------------------------------------
    While portraying itself as a social justice movement aimed at 
changing Israeli policies, it should be obvious that BDS seeks the 
destruction of--a ``final solution'' for--the Jewish state. BDS leader 
Omar Barghouti has stated that the BDS campaign ``oppose[s] a Jewish 
state in any part of Palestine.'' He added, ``No Palestinian, no 
rational Palestinian, not a sell-out Palestinian, will ever accept a 
Jewish state in Palestine.''\67\ The claim that the Jewish state can be 
annihilated through peaceful means is unserious. The more than 6 
million Jews living in Israel would not pack up and move; they would 
fight. The war would be bloody. More than half of Israel's Jewish 
population descends from refugees from Arab countries. Does anyone 
really think they'd be welcomed to return to Baghdad, Cairo, or 
Aleppo?\68\ In other words, BDS is implicitly promoting a second Jewish 
genocide within the span of less than a hundred years.
---------------------------------------------------------------------------
    \67\ ``Omar Barghouti--Strategies for change,'' Vimeo, September 
23, 2013. (https://vimeo.com/75201955); Barghouti response: Omar 
Barghouti, ``Why Americans Should Support BDS,'' The Nation, July 29, 
2019. (https://www.thenation.com/article/bds-house-resolution-trump-
squad-omar-aoc).
    \68\ ``About,'' Jews Indigenous to the Middle East and North 
Africa, accessed January 10, 2020. (https://www.jimena.org/about-
jimena).
---------------------------------------------------------------------------
    A network of non-government organizations (NGO's) promotes BDS 
through research, funding, and organizing. Human Rights Watch (HRW) is 
one of several groups whose research reflects BDS priorities and 
informs BDS initiatives. In 2015, HRW pressured the U.N. secretary-
general to place Israel on a blacklist of violators of children's 
rights in armed conflict, a list that includes the Islamic State and 
Boko Haram.\69\ Bernardine Dohrn, the vice chairwoman of HRW's 
children's rights advisory committee,\70\ is a former leader of the 
domestic terrorist group Weather Underground.\71\ Once listed among the 
FBI's Ten Most Wanted, Dohrn is now a BDS activist.\72\
---------------------------------------------------------------------------
    \69\ Human Rights Watch, Letter, ``Ensure Consistency in Children 
and Armed Conflict Report,'' Human Rights Watch, April 27, 2015. 
(https://www.hrw.org/news/2015/06/04/ensure-consistency-children-and-
armed-conflict-report).
    \70\ ``Children's Rights Division,'' Human Rights Watch, accessed 
December 6, 2019. (https://www.hrw.org/about/people/advisory-committee/
childrens-rights-division).
    \71\ Nathaniel Sheppard Jr., ``Chicago Home of a Friend Was Refuge 
for Miss Dohrn; Charges Dropped in 1979 A Private Neighborhood 
Neighbors Were Unaware,'' The New York Times, December 5, 1980. 
(https://www.nytimes.com/1980/12/05/archives/chicago-home-of-a-friend-
was-refuge-for-miss-dohrn-charges-dropped.html).
    \72\ Federal Bureau of Investigation, ``314. Bernardine Rae 
Dohrn,'' accessed January 10, 2020. (https://www.fbi.gov/wanted/topten/
topten-history/hires_images/FBI-314-BernardineRae- Dohrn.jpg/view).
---------------------------------------------------------------------------
    In January 2016, HRW advanced its pro-BDS advocacy with a report 
titled ``Occupation, Inc.'' Arguing that businesses operating in 
Israeli settlements contribute to human rights abuses, the report urged 
these companies to boycott the settlements.\73\ HRW then released a 
pair of reports in 2017 and 2018 calling on banks to boycott Israeli 
settlements.\74\ HRW also began pressing Airbnb, the on-line property 
rental service, to delist properties located in Israeli settlements. At 
the same time, HRW was preparing a report on Airbnb's settlement-based 
listings that described them as contributing to human rights 
violations. Seeking to avoid bad press, Airbnb announced 1 day before 
HRW released its report that the company would remove all settlement 
listings, though the company later reversed its decision.\75\
---------------------------------------------------------------------------
    \73\ ``Occupation, Inc.,'' Human Rights Watch, accessed January 10, 
2020. (https://www.hrw.org/report/2016/01/19/occupation-inc/how-
settlement-businesses-contribute-israels-violations-palestinian).
    \74\ ``Bankrolling Abuse,'' Human Rights Watch, accessed January 
10, 2020. (https://www.hrw.org/report/2018/05/29/bankrolling-abuse/
israeli-banks-west-bank-settlements).
    \75\ Nazish Dholakia and Omar Shakir, ``Interview: Airbnb Checks 
Out of West Bank Settlements,'' Human Rights Watch, December 4, 2018. 
(https://www.hrw.org/news/2018/12/04/interview-airbnb-checks-out-west-
bank-settlements); ``Listings in Disputed Regions,'' Airbnb, November 
19, 2018. (https://press.airbnb.com/listings-in-disputed-regions); 
``Bed and Breakfast on Stolen Land,'' Human Rights Watch, accessed 
January 10, 2020. (https://www.hrw.org/report/2018/11/20/bed-and-
breakfast-stolen-land/tourist-rental-listings-west-bank-settlements).
---------------------------------------------------------------------------
    In conjunction with HRW, the United Nations has aided anti-Israel 
activism. The United Nations constantly isolates Israel and treats it 
as a whipping boy--the Jew among nations, one might say. The body holds 
the Jewish state to a standard not expected of other countries.
    The following are examples of the United Nations' political anti-
Semitism: In 2019, the U.N. General Assembly continued its trend of 
singling out the Jewish state by passing 18 resolutions targeting 
Israel, compared to only 7 country-specific condemnations for the rest 
of the world.\76\ The U.N. Human Rights Council, since its founding in 
2006, has passed about as many resolutions condemning Israel as those 
against the rest of the world combined. In 2016, the council passed a 
resolution calling for a blacklist of all companies operating in 
Israeli settlements. This resolution emerged through the council's 
structural anti-Semitic flaw--a permanent agenda item dedicated to 
Israel, guaranteeing an exaggerated focus on the Jewish state. There is 
no permanent agenda item for any other country.\77\
---------------------------------------------------------------------------
    \76\ ``2019 U.N. General Assembly Resolutions Singling Out Israel--
Texts, Votes, Analysis,'' U.N. Watch, accessed January 10, 2020. 
(https://unwatch.org/2019-un-general-assembly resolutions-singling-out-
israel-texts-votes-analysis/).
    \77\ David May, ``How to fix the UN's anti-Israel club of 
dictators,'' The Hill, March 31, 2018. (https://thehill.com/opinion/
international/381061-how-to-fix-the-uns-anti-israel-club-of-dictators).
---------------------------------------------------------------------------
    The U.N. infrastructure dedicated to the Palestinians and used to 
castigate Israel is extensive. The United Nations maintains a separate 
refugee agency dedicated to the Palestinians known as the United 
Nations Relief and Works Agency for Palestine Refugees in the Near 
East, or UNRWA. Due to deep and pervasive corruption, its director was 
recently forced to resign. But in its very design, UNRWA is corrupt: 
Its goal is not to solve but to perpetuate the Palestinian refugee 
problem and reinforce the Palestinian claim to any and all Israeli 
land, including by maintaining a definition of refugees that is more 
expansive than that for any other refugees.\78\
---------------------------------------------------------------------------
    \78\ Ibid.
---------------------------------------------------------------------------
    The United Nations also has a Division of Palestinian Rights (DPR) 
under the secretariat, the only division dedicated to a specific 
people. The division oversees the Committee for the Exercise of the 
Inalienable Rights of the Palestinian People, which frequently 
commissions anti-Israel reports and hosts anti-Israel conferences.\79\ 
DPR also oversees UNISPAL, a UN-funded anti-Israel propaganda 
machine.\80\ There is also the Special Committee to Investigate Israeli 
Practices, which makes no attempt to hide its singular focus on Israel. 
Extreme anti-Israel bias is pervasive throughout the U.N. system, 
including at UNESCO, the U.N. cultural agency, and at ESCWA, the Middle 
East regional group, which excludes Israel.\81\
---------------------------------------------------------------------------
    \79\ ``The United Nations Committee on the Exercise of the 
Inalienable Rights of the Palestinian People,'' Anti-Defamation League, 
July 2009. (https://www.adl.org/sites/default/files/documents/israel-
international/un-international-organizations/c/CEIRPP-FINAL-REPORT-
2009.- pdf).
    \80\ United Nations Department for Political and Peacebuilding 
Affairs, ``Palestinian Rights,'' accessed January 10, 2020. (https://
dppa.un.org/en/palestinian-rights); United Nations Information System 
on the Question of Palestine, ``Question of Palestine,'' accessed 
January 10, 2020. (https://www.un.org/unispal/data-collection).
    \81\ ``The United Nations and its Agencies: Unequal Financial 
Allocations, Mistreatment of Israel, and Straying from its Mandates,'' 
Kohelet Policy Forum, January 2019. (https://en.kohelet.org.il/wp-
content/uploads/2019/01/KPF089_UN_030119_web_R.pdf).
---------------------------------------------------------------------------
    The United Nations maintains its extreme policies on Israel, the 
only Middle Eastern country ranked ``free'' by Freedom House, while 
brutal dictatorships with deplorable human rights records are 
overlooked.\82\ But then, anti-Semites have always used Jew and Jewish 
communities as distractions and scapegoats.
---------------------------------------------------------------------------
    \82\ ``Israel,'' Freedom House, accessed January 10, 2020. (https:/
/freedomhouse.org/report/freedom-world/2019/israel).
---------------------------------------------------------------------------
    ***
                            recommendations
Law Enforcement
  <bullet> Federal grant funding should be increased for local police 
        departments and prosecutors for hate crime response training. 
        Some big cities do a good job, but smaller towns lack necessary 
        resources.
  <bullet> There should be a review of city and State laws that put 
        perpetrators of anti-Semitic and other hate crimes back on the 
        streets within hours. New York City is the prime example of 
        this right now.
  <bullet> A system should be set up for monitoring and reporting on 
        anti-Semitism and other hateful ideologies being spread in 
        America's prison systems.
  <bullet> Extremist and/or anti-Semitic foreign imams in the United 
        States illegally should be deported expeditiously. Extremist 
        and/or anti-Semitic foreign imams here legally should not 
        receive visa extensions.
Foreign Policy
  <bullet> U.S. taxpayer contributions to the United Nations that end 
        up funding the U.N. Human Rights Council should be cut.
  <bullet> The current U.S. Ambassador to the United Nations should be 
        encouraged to call out anti-Semitism and anti-Israelism in that 
        organization, as Ambassador Nikki Haley so effectively did.
  <bullet> The office of the State Department's Special Envoy to 
        Monitor and Combat Anti-Semitism should be given additional 
        responsibilities and fully funded.
  <bullet> The Islamic Republic of Iran should be recognized and 
        condemned as the world's leading state sponsor of anti-
        Semitism.
  <bullet> France's judiciary should be condemned for its travesty of 
        justice in the Sarah Halimi case mentioned above.
  <bullet> It would be useful to propose and support an Executive Order 
        extending current anti-boycott laws initiated by U.S. State 
        governments to boycotts of Israel put forward by international 
        governmental organizations such as the United Nations or 
        European Union.
  <bullet> Foreign laws requiring special labeling for Israeli-made 
        products and other initiatives pushed by the BDS movement are 
        designed solely to stigmatize the world's only Jewish state. 
        Countries that adopt such initiatives should find themselves on 
        the list of countries of concern for violations of religious 
        freedom.
  <bullet> The National Security Council and the Domestic Policy 
        Council should each have a dedicated staff member with 
        responsibility for coordinating interagency efforts to combat 
        anti-Semitism. Policy planning on anti-Semitism should be 
        institutional across all departments and agencies, and have a 
        dedicated position to convene the interagency for both domestic 
        and foreign anti-Semitism issues to have a lasting impact.
Education and Religious Freedom
  <bullet> Imams and mosques preaching anti-Semitism and other 
        expressions of hate and bigotry (e.g. toward Christians or the 
        LGBT community) should be denounced by local, State, and 
        Federal authorities (very much including Members of Congress).
  <bullet> Religious freedom means being free to exercise your religion 
        free of state control. Initiatives to ban circumcision are 
        anti-Semitic and should be condemned.
  <bullet> There should be a review of State Holocaust education 
        requirements and curriculum to ensure that the next generation 
        is being adequately educated. Many States have Holocaust 
        education laws but they are vague and not well-implemented. The 
        Simon Wiesenthal Center, U.S. Holocaust Memorial Museum, and 
        others have published excellent digital content for teachers--
        but too few school districts and State boards of education know 
        enough to offer these opportunities. There should be a review 
        of foreign textbooks in the United States: Many textbooks 
        originating in the Middle East indoctrinate children to hate of 
        Jews, Christians, and other non-Muslims.

    Mr. Rose. Thank you, sir.
    We now turn to Mr. Kontorovich to summarize his statement 
for 5 minutes.

  STATEMENT OF EUGENE KONTOROVICH, PROFESSOR OF LAW, ANTONIN 
           SCALIA LAW SCHOOL, GEORGE MASON UNIVERSITY

    Mr. Kontorovich. Chairman Rose, Ranking Member Walker, 
Chairman Thompson, and honorable Members of the subcommittee, 
thank you for inviting me here today to discuss the unhappy 
topic of anti-Semitism.
    My comments will focus on practices and campaigns that 
legitimize anti-Semitism, that whitewash anti-Semitism, in 
particular, on the anti-Semitic nature of boycotts against 
people and entities just because of their connection to the 
State of Israel.
    Such discriminatory boycotts, known as BDS, do not 
themselves promote violence, but it does promote inherently 
anti-Semitic ideas, such as the singular evil and pariah status 
of the Jews, and it is particularly dangerous in that it seeks 
to make anti-Semitism acceptable in polite society, not just 
amongst fringe haters.
    The campaign to boycott Israel seeks to legitimize 
discriminatory refusals to do business with people or companies 
because of their connection to the Jewish state. This is 
bigotry, just as not doing business, boycotting people because 
of their race, sexual orientation, or national origin is 
discriminatory.
    The recognition that the movement known as BDS is anti-
Semitic has been widely made around the world by the 
parliaments of Germany and Canada, by courts in Spain and 
France, and most significantly by more than 2 dozen States in 
America, which have passed laws that treat boycotting, refusing 
to do business with people because of their connection to 
Israel, just the way many States and the Federal Government 
treat boycotts of people because of their sexual orientation or 
other factors as a form of discrimination.
    It makes no difference that these calls to boycott are 
aimed at Israel rather than at Jews per se. Israel is the 
largest Jewish community in the world and the home to the 
plurality of the world's Jews.
    Refusals to deal that target Israel alone and no other 
countries are clear proxies for Jewishness. Anti-discrimination 
law makes clear that using a proxy for race, sexual 
orientation, and so forth can be discriminatory.
    Now, to be sure, supporters of such boycotts say, ``But 
there have been good boycotts in the past. What about the 
boycott of apartheid South Africa in the 1980's?''
    So boycotts are just a tool. How do we know if they are 
good or bad? Three factors help identify whether refusals to 
deal on a group basis are invidious discrimination.
    The first factor is history. Boycotts of Jewish businesses 
have a bad history. They have been a staple of anti-Semitic 
campaigns, most notoriously under Nazi Germany. The boycott of 
Israel began in 1948 with the creation of the State of Israel 
by the Arab League to suffocate the new country long before 
Israel retook Judea and Samaria on the West Bank in 1967.
    The second factor to help differentiate that boycott is 
focus. The invocation of ostensible international norms, 
international law norms, to demonize and isolate just one 
country with just .1 percent of the world's population is a 
sure sign of discrimination.
    That is why the working definition of anti-Semitism adopted 
by the International Holocaust Remembrance Association and many 
countries now lists as a contemporary example of anti-Semitism 
``applying double standards to Israel.''
    Calls for boycotting Israel almost inevitably apply double 
standards, a unique, special standard to the Jewish state.
    Indeed, as I show today in a Wall Street Journal op-ed 
published today, it goes far beyond double standards. Some of 
the most prominent supporters of such boycotts, that call for 
boycotting Israel based on purported international law grounds, 
enjoy substantial connections to groups active in occupied 
territories, settler groups not just ignoring but actively 
contradicting the principles they advance in justifying a Jew-
focused boycott.
    In my article today, I explain that one of the most 
energetic campaigners for boycotting companies in Israel is the 
director of the Middle East Division of Human Rights Watch, who 
herself actively fundraises for groups that support Armenian 
settlements in occupied Azerbaijanian territories.
    Calls for boycotting Israeli businesses are not about 
international law. They are about creating a unique area--aura 
of illegitimacy around the Jewish state.
    Finally, the third factor in identifying discriminatory 
boycotts is the people behind it. Pro-boycott groups have 
numerous documented links to terror organizations. I mentioned 
in my written testimony the founders and leaders of the boycott 
movement have openly called for an end to the Jewish state.
    History, singularity, people involved, when all of these 3 
factors lined up, the anti-Semitism nature of this movement 
becomes clear, and it is a way of wrapping in the mantle of 
human rights rhetoric, some of the most toxic ideas in history.
    Congress has a clear role to play in combatting this, the 
Combatting BDS Act, which would give Congress the support for 
the action of now close to 28 States to treat these boycotts as 
a form of discrimination, and the Anti-Israel Boycott Act, 
which would add to existing Federal regulation against boycotts 
promoted by foreign countries, the Arab League boycott. 
Boycotts promoted by international organizations are all 
important measures deserving of your attention.
    Mr. Chairman, Ranking Member Walker, Chairman Thompson, 
Members of the committee, thank you for your time, and I 
welcome your questions.
    [The prepared statement of Mr. Kontorovich follows:]
                Prepared Statement of Eugene Kontorovich
                            January 15, 2020
    Chairman Rose, Ranking Member Walker, and honorable Members of the 
subcommittee, thank you for inviting me here today to discuss the 
unhappy topic of anti-Semitism in America. My comments will focus on 
practices and campaigns that legitimize anti-Semitism. In particular, I 
will focus on the anti-Semitic nature of boycotts against individuals 
and entities because of their connection to Israel, an effort that 
styles itself as the ``Boycott, Divestment, and Sanctions'' Movement, 
or BDS.
    In the context of the jurisdiction of this subcommittee, it is 
important to note that such discriminatory boycotts do not in 
themselves call for violence (though some of the main organizations 
involved have ties to groups that do). Yet, BDS promotes inherently 
anti-Semitic ideas, such as the singularly evil and pariah status of 
Jews. Furthermore, BDS is particularly dangerous, given that, like some 
of the history's most virulent anti-Semitic ideologies, it seeks to 
normalize anti-Semitism as an acceptable ``attitude'' in polite 
society. Any policy approach to anti-Semitic violence must be informed 
by an understanding of the ideologies that give anti-Semitism a patina 
of legitimacy.
    ***
    The campaign to ``boycott Israel'' in reality seeks to legitimize 
discriminatory refusals to deal with people or companies simply because 
of their connection to the Jewish state. This is a legitimization of 
bigotry, just as boycotts of people because of their race, sexual 
orientation, or national origin would be discriminatory.
    Today, it is no secret that BDS is anti-Semitic. This has been the 
conclusion of the German \1\ and Canadian parliaments, \2\ as well as 
courts in Spain \3\ and France.\4\ Moreover, it is the conclusion of 
more than 2 dozen States that have passed laws the treat such boycotts 
the same way most States and the Federal Government treat LGBT 
boycotts:\5\ as a form of discrimination that entails consequences for 
the ability of companies engaged in such conduct to contract with the 
State or Federal Government.\6\
---------------------------------------------------------------------------
    \1\ Katrin Bennhold, German Parliament Deems B.D.S. Movement Anti-
Semitic, New York Times (May 17, 2019), https://www.nytimes.com/2019/
05/17/world/europe/germany-bds-anti-semitic.html.
    \2\ JTA, Canada's Parliament Rejects BDS Movement, Times of Israel 
(Feb. 23, 2016), https://www.timesofisrael.com/canadas-parliament-
rejects-bds-movement/.
    \3\ Lidar Grave-Lazi, Major Victory Against BDS as Spanish Court 
Bans Citywide Israel Boycott, Jerusalem Post (June 2, 2016), https://
www.jpost.com/Diaspora/Major-victory-against-BDS-as-Spanish-court-bans-
citywide-Israel-boycott-455752.
    \4\ JTA, France Court Upholds `BDS Is Discrimination' Ruling, The 
Forward (October 23, 2015).
    \5\ Eugene Kontorovich, For the ACLU, Antipathy to Israel Trumps 
Antidiscrimination, Wall Street Journal (Feb. 11, 2019), https://
www.wsj.com/articles/for-the-aclu-antipathy-to-israel-trumps-
antidiscrimination-11549928620.
    \6\ See, e.g., Remarks by President Obama at Signing of Executive 
Order on LGBT Workplace Discrimination, referring to Exec. Order No. 
13672, 41 C.F.R. 60 (July 21, 2014), https://
obamawhitehouse.archives.gov/the-press-office/2014/07/21/remarks-
president-signing-executive-order-lgbt-workplace-discrimination.
---------------------------------------------------------------------------
    It makes no difference that these calls to boycott are aimed at 
Israel, rather than at Jews per se. Israel is the largest Jewish 
community in the world and is home to the plurality--and soon the 
majority--of the world's Jews. Refusals to deal that target Israel 
alone and not any other country offer a clear proxy for engaging in 
anti-Semitism under the cloak of political legitimacy. Partial boycotts 
are boycotts. Furthermore, discrimination need not be 100 percent 
congruent with the targeted class to be discrimination. Anti-
discrimination laws make it clear that the use of proxies for race, 
sexual orientation, and so forth can be discriminatory.\7\
---------------------------------------------------------------------------
    \7\ ``Proxy discrimination is a form of facial discrimination.'' 
Pac. Shores Properties, LLC v. City of Newport Beach, 730 F.3d 1142, 
1160, n.23 (9th Cir. 2013) (citing McWright v. Alexander, 982 F.2d 222, 
228 (7th Cir. 1992) (gray hair as proxy for age)). Proxy discrimination 
occurs when a policy ``treats individuals differently on the basis of 
seemingly neutral criteria that are so closely associated with the 
disfavored group that discrimination on the basis of such criteria is, 
constructively, facial discrimination against the disfavored group.'' 
Id. Israel's association with Jewishness is undoubtedly close enough to 
make it a proxy.
---------------------------------------------------------------------------
    ***
    Those who support anti-Semitic economic discrimination sometimes 
claim that they are engaged in ``boycotting'' for political reasons, 
rather than ``discrimination'' for mean-spirited reasons. But there is 
no magic distinction between these words;\8\ boycotts can be a form of 
discrimination.\9\ Indeed, most discrimination is driven by some 
political or ideological hostility to the target group. Yet refusal to 
deal on the basis of sexual orientation or other grounds does not 
escape the label of discrimination if it is simply dubbed a boycott and 
accompanied by an explanation of how it is justified by the target 
group's conduct or favored policies.\10\
---------------------------------------------------------------------------
    \8\ Eugene Kontorovich, For the ACLU, Antipathy to Israel Trumps 
Antidiscrimination, Wall Street Journal A17 (Feb. 12, 2019).
    \9\ Economic Discrimination, Black's Law Dictionary (8th ed. 2004) 
(``Any form of discrimination within the field of commerce, such as 
boycotting a particular product or price-fixing.'').
    \10\ Brief for Appellants, Amawi v. Paxton, Pluecker v. Board of 
Regents of the University of Houston System (2019) (No. 19-50384), 2019 
WL 4390995, at *25-26.
---------------------------------------------------------------------------
    More generally, it is an illusion that anti-Semitism only manifests 
itself as pure, unreasoned Jew-hatred. The most effective anti-Semites 
have always sought to justify their bigotry by what the Jews do. The 
Jews were hated for inventing monotheism. Then they were hated for 
giving the world Jesus; and later, hated for not accepting Jesus. They 
were hated for promoting capitalism and also for promoting communism. 
In every age, the oldest hatred clothes itself in the justifications 
that appeal to contemporary values and public policy considerations. 
Today, it is no accident that anti-Semitism tries to don the mantle of 
human rights.
    ***
    Supporters of Israel boycotts point to Americans' ``proud history 
of participating in boycotts to advocate for human rights abroad,''\11\ 
referring in part to the 1980's boycott of Apartheid South Africa. So 
are boycotts good or bad? A combination of several contextual factors 
helps to identify when refusals to deal on a group basis constitute 
invidious discrimination.
---------------------------------------------------------------------------
    \11\ H.R. Res. 496, 116th Cong. (2019).
---------------------------------------------------------------------------
    The first factor is history. Boycotts of Jewish businesses have 
been a staple of anti-Semitic campaigns, most notoriously, under Nazi 
Germany. Such boycotts are no one's ``proud history.'' Boycotts of 
Israel, promoted by Arab states, date back to the country's founding in 
1948, when said boycotts were used to starve and isolate the fledgling 
Jewish state from its inception, long before it retook the West Bank 
from Jordan in 1967.\12\ The same practices are now being retrofitted 
with new and spurious reasons.
---------------------------------------------------------------------------
    \12\ Impact of the Boycott, Divestment, Sanctions Movement: Hearing 
Before the Subcomm. on National Sec. of the H. Comm. On Oversight and 
Govt. Reform, 114th Cong. 2-6 (2015) (written testimony of Prof. Eugene 
Kontorovich, Northwestern Univ. School of Law).
---------------------------------------------------------------------------
    The second factor is focus. The invocation of ostensible 
international law norms to demonize and isolate just one country--which 
happens to have the plurality of the world's Jews but just 0.1 percent 
of the world's population--is a sure sign of discrimination. Human 
rights are a powerful argument because they apply to all humans, and 
likewise, international law arguments are potent because they apply 
internationally. That is precisely why the working definition of anti-
Semitism adopted by the International Holocaust Remembrance Association 
(IHRA) lists as a ``contemporary example'' of anti-Semitism the 
``applying of double standards'' to Israel.\13\ This definition has 
been formally adopted by many democracies around the world. It is used 
by the United States \14\ and has most recently been incorporated into 
President Trump's Executive Order on Combatting Anti-Semitism.\15\
---------------------------------------------------------------------------
    \13\ International Holocaust Remembrance Alliance, Working 
Definition of Antisemitism (June 27, 2016) https://
www.holocaustremembrance.com/stories/working-definition-antisemitism.
    \14\ U.S. State Department, Office of International Religious 
Freedom, Defining Anti-Semitism, (May 26, 2016) https://www.state.gov/
defining-anti-semitism/.
    \15\ Exec. Order No. 13,899, 84 Fed. Reg. 68,779 (Dec. 11, 2019).
---------------------------------------------------------------------------
    Calls for boycotting Israel almost always apply a unique standard 
to the Jewish state. Those who say they favor a boycott of the Jewish 
state because of ``occupation'' or ``settlements'' are at best silent 
about similar issues across the world when they do not involve 
Jews.\16\ But the singling out of Israel is often even more blatant 
than IHRA's ``double standards.'' Some of the most prominent supporters 
of such boycotts are themselves involved with groups active in occupied 
territories, not just ignoring but actively contradicting the 
principles they advance in justifying a Jew-focused boycott.
---------------------------------------------------------------------------
    \16\ This shows the inaptness of analogies to the boycott of 
apartheid South Africa. Apartheid was a unique policy of Pretoria (as 
indicated by its Afrikaans name); the policy covered 100 percent of 
states with official apartheid policies. I discuss this precise concept 
in my piece in Issue 15 of The Tower titled The Apartheid Libel: A 
Legal Refutation, published in June 2014. (http://www.thetower.org/
article/the-apartheid-libel-a-legal-refutation/).
---------------------------------------------------------------------------
    For example, as I reveal in an article in today's Wall Street 
Journal, one of the most energetic campaigners for boycotting companies 
with any ties to Israel in the Golan Heights or West Bank is Human 
Rights Watch. Yet the director of its Middle East and African division 
herself publicly advocates for groups that support Armenian settlements 
in occupied Azerbaijani territory. To take another example, the 
European Council on Foreign Policy, one of the main forces behind the 
European Union's imposition of discriminatory labels and other 
restrictions on Israeli products, is itself funded by companies doing 
business in occupied Western Sahara and other occupied territories.\17\ 
These prominent actors' calls for boycotting Israeli businesses are not 
about international law--they are about creating a unique aura of 
illegitimacy, of ``untouchableness,'' around the Jewish state.
---------------------------------------------------------------------------
    \17\ Lahav Harkov, EU think tank advocating for West Bank boycotts 
funding by occupied territories worldwide, Jerusalem Post (Dec. 10, 
2019), https://www.jpost.com/Middle-East/EU-think-tank-advocating-for-
west-bank-boycotts-funded-by-occupied-territories-worldwide-610404.
---------------------------------------------------------------------------
    The third factor in identifying discriminatory boycotts is the 
people behind it. Leading pro-boycott groups have numerous documented 
links to terror organizations.\18\ This overlap is not coincidental. 
Founders and leaders of the boycott movement have openly called for the 
end to Israel as a Jewish state.\19\
---------------------------------------------------------------------------
    \18\ Examining Current Terrorist Financing Trends and the Threat to 
the Homeland: Hearing Before H. Homeland Sec. Comm. and 
Counterterrorism and Intelligence Subcomm. 114th Cong. (2016) (written 
testimony of Jonathan Schanzer, Vice President for Research at the 
Foundation for Defense of Democracies); Armin Rosen and Leil Lebovitz, 
BDS Umbrella Group Linked to Palestinian Terrorist Organizations, 
Tablet Magazine (June 1, 2018), https://www.tabletmag.com/scroll/
263409/bds-umbrella-group-linked-to-palestinian-terrorist-
organizations; Israeli Ministry of Strategic Affairs, 4IL, BDS Loses 
Its Crowdfunding Account Over Ties to Terror Organizations (Apr. 9, 
2019), https://4il.org.il/1256/.
    \19\ See sources cited in 2018 WL 6011426, at *4-6. Brief for 
Defendants-Appellants, Jordahl v. Arizona (2018) (No. 18-16896), 2018 
WL 6011426, at *4-6.
---------------------------------------------------------------------------
    When all these three factors coincide, the anti-Semitism becomes 
undeniable.
    Mr. Chairman, thank you for giving me an opportunity to address 
these issues, and I welcome your questions.

    Mr. Rose. I thank all the witnesses for their testimony.
    I will remind the subcommittee that we will each have 5 
minutes to question the panel.
    I will now recognize Chairman Thompson from the great State 
of Mississippi.
    Mr. Thompson. Thank you, Mr. Chairman.
    Let me at the outset thank the witnesses for their 
testimony.
    I do not think any Member of this panel understands the 
severity of anti-Semitism and its impact in this country and 
want to come to some solutions, but the notion somehow in the 
minds of some people we engage is there is a quick fix.
    So what we are tasked with is to be thoughtful, pragmatic 
and, to the extent possible, get it right. So part of your 
testimony here today moves us in that direction.
    So one of the comments that I am going to ask Mr. Diament 
to address is how can we, the Government, effectively protect 
communities against violence in a way that does not result in 
over-policing, profiling, targeting, other strategies that may 
harm civil rights, civil liberties, and privacy.
    Mr. Diament. Thank you for your question, sir.
    I would say that at least in my community and our 
communities around the country, right now the worry is not 
about over-policing. It is about under-policing because 
incidents are happening. There is violence on the streets, and 
you know, we need the police to be in the community protecting 
people from these assaults.
    The No. 1 thing that I have heard, even we were among the 
coalition groups, the leaders of the coalition more than a 
decade ago that helped create the Nonprofit Security Grant 
Program, and we thank you for your leadership in moving the 
authorizing bill to fund that program for the coming years.
    We did not anticipate back in 2005 when that program 
started the nightmarish situation that we are in today, and the 
No. 1 thing that I have heard certainly from my synagogues and 
also as part of working with representatives of other faith 
communities on this issue is the No. 1 request that synagogues 
are asking and, I believe, churches and mosques and others as 
well is we need security guards or we need the police to be 
more frequently patrolling outside our houses of worship, even 
stationed outside our house of worship on a Saturday morning or 
a Sunday morning or a Friday afternoon.
    Many police departments do not have the resources to deploy 
officers to that many locations. So one thing that I would put 
to you that Congress could do is the Department of Justice 
provides many millions of dollars of support on an annual basis 
to local police departments for various purposes, and I would 
suggest that Congress should take a look at having some of 
those DOJ grants that go to local police departments 
specifically allocated for the purpose of supporting local 
police efforts to do more policing around houses of worship and 
in faith communities.
    I would also say that increasing the resources under the 
Nonprofit Security Grant Program to help houses of worship 
either hire security guards or make other protective measures, 
it is great that we got it up to $90 million this year, but I 
can tell you that based on the information that the DHS has 
shared with our advisory committee, the last fiscal year when 
there was $60 million in that pot, there was $169 million worth 
of applications.
    In the 5 fiscal years prior to that, there was $131 million 
in grant money available. There was $357 million worth of 
applications.
    So the demand and the need are far out-exceeding the 
resources that Congress is putting into place.
    Mr. Thompson. Yes. If it were a perfect world and there 
were no competing interests for the money, it is not a problem. 
But we have State and local communities who will say, ``Well, 
there are other places we need to look at.''
    So, Mr. Greenblatt, can you shed some light on this for me?
    Mr. Greenblatt. Sure. There are a few things to think 
about. First of all, Mr. Chairman, I would just keep in mind 
that what you said is absolutely true. When we talk about more 
policing, that sort-of raises some concerns among communities 
of color because of the long history of systemic racism.
    Keep in mind, No. 1, that there are many Jews of color, 
African American, Caribbean American, Latino, Asian American, 
Mizrahi who have similar concerns. So it is not something that 
is unique to or separate from the Jewish experience. That is 
No. 1.
    No. 2, keep in mind that many of the synagogues, the house 
of worship we are talking about, Pittsburgh, Poway, many others 
that we see are not located in dense urban environments where 
there is, you know, bumping up against communities of color.
    Some of the communities that my colleague mentioned in 
Rockland County, New York or in other parts of the area, we 
just do not have those issues.
    But, No. 3, as we engage law enforcement to support these 
communities in this fashion, it clearly needs to be done in a 
way that that is very sensitive to the outlying communities.
    So what I would suggest is that there is an ability to 
engage in security measures that keep the synagogues and 
schools and community centers safe, that keep the mosques and 
gurdwaras and black churches safe, and doing it in a way which 
is respectful of the equities and civil rights of all the 
people in the area.
    Mr. Thompson. Thank you.
    I think the question is you have to have the training of 
the individuals to understand the broader communities that they 
are working in.
    Mr. Greenblatt. Yes.
    Mr. Thompson. So training goes hand-in-hand.
    The other issue, Mr. Chairman, if you bear with me, the on-
line platforms that are more or less pushing out a lot of this 
hate. We have grappled with it from the committee's perspective 
as to what do we do.
    Facebook, for instance, has taken the policy position that 
if you pay for it, whether it is right or wrong, we are going 
to let you put it on our platform. Some of us disagree with 
that.
    Other platforms have said no. If it is wrong and we know it 
is wrong, we are not going to put it.
    Mr. Greenblatt. Right.
    Mr. Thompson. So we have some public policy issues looking 
at on-line hate in those platforms.
    I would like to just get from the 4 of you how you think 
Congress should address those on-line platforms.
    Mr. Greenblatt. Well, if I might, I can give you some 
specifics and then open it up to my colleagues. I mean, the ADL 
opened up a center in Silicon Valley in 2017. Our Center for 
Technology in Society, which is headed up by a former software 
engineer, is focused specifically on this problem.
    Because we need to work with the companies. The pace of 
innovation is so dramatic that it is, indeed, hard to keep up 
with it, and yet we cannot wait for the companies to regulate 
themselves.
    So there are steps that can be taken, and I will just offer 
you a few considerations. So, No. 1, the on-line Safety 
Modernization Act is really quite relevant. So this is about 
protecting individuals from harassment and hate on-line.
    So that is something you should look at, and that is right 
now going through committee.
    I think No. 2, we should push the companies to take a 
couple of very concrete measures. Enforce their own terms of 
service. All the companies have them, but think about the 
principle of accountability. They need to enforce their own 
terms of service the same way other businesses do.
    If you stand at the Au Bon Pain downstairs and you yell at 
all of the people and say, ``Mexicans, go back to Mexico,'' 
they will throw you out.
    If you stand at the Starbucks down the street and you yell 
at the Jews, ``You guys are destroying our borders,'' the 
manager at Starbucks will throw you out.
    We should ask that Facebook and Twitter exercise the same 
discretion and throw out the anti-Semites and racists and Neo-
Nazis. They could do that tomorrow.
    The second thing I will just point out is decency. They can 
de-amplify the anti-Semitism. You can do things to the 
algorithms to make sure that when you promote Neo-Nazi and 
white supremacists and hateful rhetoric targeting any community 
from any side of the aisle, that it does not pop to the top 
when your child opens up YouTube.
    No. 3, they should use innovation, artificial intelligence, 
machine learning. They should invest the same energy to 
protecting their users that they do, again, to protecting 
corporate copyrights.
    Then last, transparency, and this would get to a concern I 
know many of us have because people ask, ``Are they shadow-
banning certain groups? Are they weighting one idea over the 
other?''
    Independent, third-party, regular audits, by the way, like 
all other businesses comply with.
    This is the thing, and then I will stop. New media for some 
reason does not have to obey the same laws of gravity as old 
media, print, broadcast, radio. I could go on. That is because 
of the Communications Decency Act in Section 230, and whether 
or not you can take that, I do not know, but there are steps 
you can do right now to hold them accountable, and you should.
    Mr. Thompson. Mr. Diament.
    Mr. Diament. I would just briefly. I certainly agree with 
everything that Jonathan mentioned. I would just add two other 
points.
    One is specifically in the artificial intelligence arena, 
it is my understanding that software and algorithms have been 
developed by those who want to thwart sex trafficking, and AI 
programs have been developed that can be overlaid on the 
internet and on Facebook and these other platforms and are able 
to flag and take down, you know, based on keywords, et cetera, 
et cetera, and really suppress the ability of sex traffickers 
to use platforms for those purposes.
    There is no reason why that AI technology cannot also be 
utilized in combatting anti-Semitism and racism and the other 
kinds of pernicious things that we are trying to oppose.
    I will just stop with that.
    Mr. Thompson. Thank you.
    Mr. May.
    Mr. May. I would certainly associate myself with the 
remarks of my two colleagues here. I think they know a lot 
about social media and have studied it certainly more than we 
have.
    I would just add that anti-Semitism is an ancient hatred. I 
do not think we are going to cure it. I think we can treat it 
in many ways.
    You mentioned training and education. I think that is 
important. I think having Members of Congress back in their 
districts talking about this issue, helping to educate local 
leaders, community leaders, and officials appearing with 
members of the Jewish community.
    All of that it seems to me is very important in order to 
send a message that anti-Semitism, Jew hatred, that anti-
Israelism, that anti-Zionism is something that decent people do 
not tolerate.
    When Columbia University, for example, invites somebody who 
is an outspoken anti-Semite and names them as a global leader, 
I would love to see the Member of Congress from that district 
speak up about that kind of situation.
    Mr. Kontorovich. Anti-Semitic materials proliferated long 
before the internet. It did not take Facebook for the Protocols 
of the Elders of Zion to be a world-wide best seller and 
available in every country in the world.
    Indeed, with the internet now I think it is easier for 
people to find things out, to educate themselves and find out 
that, for example, this document it not an actual Protocols of 
the Elders of Zion.
    I testified last year or earlier this year in the Senate on 
the question of regulating such speech online. We have to 
remember things on Facebook, just like the Protocols of the 
Elders of Zion, are protected by the First Amendment. They are 
speech.
    At the same time, as Mr. Greenblatt pointed out, the 
Communications Decency Act contains various protections and 
carveouts for tech companies which are not required by the 
First Amendment, which are discretionary grants by Congress and 
can be reevaluated if it does not seem they have been using 
those benefits wisely.
    Mr. Thompson. Thank you very much.
    Mr. Rose. Thank you.
    We will now go to my colleague, the Ranking Member, Mr. 
Walker.
    Mr. Walker. Thank you, Mr. Chairman and Mr. Chairman.
    There is no question that anti-Semitism is rising around 
the world. Mr. May, what are you all seeing in Europe and 
elsewhere in terms of anti-Semitic rhetoric and violence?
    Mr. May. Quite a bit of anti-Semitic violence, quite a bit 
of anti-Semitic rhetoric in much of Western Europe, and what 
else, the other thing that is going on that you should be aware 
of is that crimes against Jews are being treated differently 
than crimes against other groups or minorities.
    Mr. Walker. How do you come to that conclusion?
    Mr. May. Well, I mentioned one where a woman in France was 
murdered, and not the suspect, the person who committed that 
murder has been let off, and he has been let off because he was 
smoking marijuana and that made him not responsible.
    I do not think that would happen very often. In 2017, there 
was a lower court in Germany that upheld a lower court's 
sentencing. Three Palestinians had set fire to a synagogue. It 
was the same synagogue that had been burned during 
Kristallnacht in 1938, during that pogrom which preceded the 
Final Solution.
    The court decided that the perpetrators should be released 
without punishment because they were incensed about Israel's 
actions in the Middle East, and so their act of arson did not 
constitute anti-Semitism. It was just a protest.
    In Belgium last year, a French born jihadist was found 
guilty of murdering an Israeli couple and two staffers at a 
Jewish museum in Brussels. His lawyer claimed the attack was 
actually a targeted execution by agents of the Mossad. He did 
not bother to present any evidence.
    Mr. Walker. Thank you.
    Mr. May. There is a list of these.
    Mr. Walker. Yes.
    Mr. May. I could go on where you can really see what is 
happening in Europe is very dangerous, and as a result, the 
Jewish community feels very threatened.
    Mr. Walker. Thank you for the answer.
    I have got about 3 minutes. So I want to get as much as I 
can in.
    Mr. Kontorovich, first of all, thank you for cutting your 
trip to Israel short, coming back just for this panel. We 
appreciate you being here.
    In your opinion, has international anti-Semitism and anti-
Semitic terrorism contributed to the rise of anti-Semitism in 
the United States?
    Mr. Kontorovich. The phenomena go hand-in-hand. The 
motivation is different. Again, every anti-Semite is coming 
from a different place, from the left, from the right.
    But to the extent that the demonization of Jews and putting 
them beyond the pale, making them particularly legitimate 
objects of hate, to the extent that that idea becomes 
mainstream or becomes accepted for any reason, then anti-
Semites of all stripes, including every kind of violent anti-
Semite you might find in America, can attach themselves to 
that.
    Mr. Walker. OK. Speaking on that topic, how would you 
recommend or should you recommend the United States push back 
against anti-Semitism around the globe? Is that something that 
could restrict it even here?
    Mr. Kontorovich. So, for example, my comments about efforts 
to single out Israel for boycotts and companies doing business 
in Israel for boycotts, that is a global effort, and to the 
extent that it is found in America, it is part of broader 
efforts in Europe and internationally and measures like the 
Anti-Israel Boycott Act, which would push back on the 
extraordinary effort of the United Nations to make a list of 
companies doing business in Israel that are on a black list and 
similar boycott efforts, these are crucial and these are where 
Congress can really take the lead.
    Mr. Walker. A couple of yes-or-no questions for the panel, 
and I will go right to left, starting with Mr. Kontorovich.
    Do you believe that anti-Semitism comes from many different 
ideological drivers?
    Mr. Kontorovich. Yes.
    Mr. Walker. Mr. May.
    Mr. May. Oh, yes.
    Mr. Walker. Mr. Diament.
    Mr. Diament. Certainly.
    Mr. Walker. Mr. Greenblatt.
    Mr. Greenblatt. Yes.
    Mr. Walker. Mr. Kontorovich, based on your testimony it 
sounds like that you believe the BDS movement is fundamentally 
anti-Semitic. Do you believe that?
    Mr. Kontorovich. That is correct.
    Mr. Walker. Mr. May.
    Mr. May. I do.
    Mr. Walker. Mr. Diament.
    Mr. Diament. Yes.
    Mr. Walker. Mr. Greenblatt.
    Mr. Greenblatt. I think the people who are responsible for 
the movement are, indeed, anti-Semitic. I think the outcomes 
that BDS campaigns often generate are anti-Semitic as well.
    Sometimes there are college kids and other people get 
caught up in the issue who might not realize what it is all 
about.
    Mr. Walker. OK. But you said at the very core you would 
agree with the colleagues?
    Mr. Greenblatt. BDS is a tactic in the broader movement of 
delegitimization that is inherently anti-Semitic.
    Mr. Walker. Mr. May, why do you reject BDS advocates who 
say they only want Israel to change its policies toward 
Palestinians?
    Mr. May. Yes, I do reject that. We have some history here. 
Israel pulled out of Gaza entirely in 2005. That was 1 of the 2 
occupied territories so-called. I would call them disputed 
territories. Israel had taken Gaza from Egypt, not from the 
Palestinians.
    Israel said, ``OK. We will leave.''
    After the left, what happened? Gaza has become since a 
platform for terrorism against Israel completely. If Israel 
were to leave the West Bank without security guarantees, were 
simply to pull out, what would happen is Israel would have 
missiles and mortars fired on Tel Aviv at close proximity, 
Jerusalem and the international airport. Israel would have to 
go back in there.
    It would be bloody for Palestinians and Israelis. Smart BDS 
advocates know this. They simply do not care.
    Mr. Walker. My last comment here, it makes me pause for a 
minute and think of my African-American brothers and sisters 
who can relate to some of the things that you guys are going 
through.
    I would also like to say a special thank you to Mr. Peter 
King in his last term. There has been no stronger voice against 
such in Congress, and I am honored to follow in his shoes and 
also welcome Lee Zeldin, a strong voice to our committee as 
well.
    With that I yield back, Mr. Chairman.
    Mr. Rose. Thank you, sir.
    I ask unanimous consent for Mr. Zeldin and Mr. Raskin to 
sit and ask questions of the witnesses.
    Great. We will move on to Ms. Jackson Lee from Texas.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Let me thank all of the witnesses who are here today and 
acknowledge that this committee has certainly been at the 
forefront of dealing with some of the heinous acts that we have 
had to endure.
    But enduring is not the same thing as losing your life. 
Enduring is not the same thing as having your religious 
services violated, and enduring is not the same thing of being 
afraid to wear your religious attire to walk the streets of any 
city in this Nation.
    I am reminded, having known Mrs. Evers, Mrs. Medgar Evers, 
having known her for a good number of years, she has never 
forgotten to remind us of what it was like to see Medgar Evers 
gunned down in the front yard of their home in front of their 
children, searing and unforgetting and unforgettable.
    As well, to see and to be reminded of the 3 boys in 
Mississippi that symbolize the violence of that time. There 
were people during that era afraid to come out, afraid to walk, 
afraid to gather.
    Of course, America rallied. I remember the Department of 
Justice in an effective manner to utilize what presence Federal 
Marshals and other Federal entities that could be used to come 
to the deep South to be able to break the chains of absolute 
fear.
    What about the bombing of the 3 little girls in a 
Birmingham church?
    I hesitate to say, but I am going to say it. How tragic 
that we are turning to that fear today in 21st Century America 
where we have celebrated the richness of diversity of our 
Nation, where we have celebrated the variety of faiths, the 
Jewish faith and people from the Jewish faith or who happened 
to be Jewish who were taking their rightful place in athletics 
and education and politics.
    Unique, I believe, and if my facts are correct, it might be 
the first Jewish Speaker of the House in the State of Virginia, 
along with some of the uniqueness of where Latinos are in spite 
of the policies that have been undermining them and then, of 
course, dealing with our African American community, but our 
Muslim community and mosques that have been attacked.
    So I believe that it is time now that we look to the Civil 
Rights Movement as a model, certainly pass the legislation of 
my Chairman, Chairman Thompson, and the energy of Chairman Rose 
and our other Members. It is time for us to act.
    We need to enhance and write legislation dealing with the 
reporting. We need to take the language of See Something, Say 
Something to be dealing with religious issues in this era.
    Also, something that I intend to take up is to enhance the 
training of law enforcement to detect and to be effective in 
their review of anti-Semitism and other ``anti''s as relates to 
religion. They need to have their antennae. There needs to be 
segments in the local law enforcement that deal specifically 
with these issues.
    Why? Because there is an uptick, and the way I say this is 
because we are dealing with this offensive sign. Can you 
imagine this little circle that was innocent, we thought? Here 
it is in the center of this as Roger Stone.
    Then we see it in the Kavanaugh hearing where people are 
utilizing this. We are told that this is a symbol of white 
nationalism.
    So let me ask you gentlemen if you could, go straight 
across, starting with the first witness.
    What is the value of enhancing and up-ticking the 
sensitivity to this dangerous behavior and calling it what it 
is?
    Reporting, special training for law enforcement, certainly 
legislation for enhanced security?
    Mr. Greenblatt. Congressman, thank you for the question.
    So this is big area of focus for ADL. We do advocacy, 
education, and we work with law enforcement. Today we are the 
largest trainer of law enforcement in the United States on 
extremism and hate. We train 15,000 officers every year. We 
train the FBI recruits in Quantico. We train the whole NYPD.
    We train large and small, Federal, State, and local law 
enforcement agencies to recognize hate and to be sensitive to 
what is a hate crime. How is it different than a regular crime? 
What are the trends of the extremists?
    I would point out that the Jabara-Heyer NO HATE Act calls 
for, which is working through committee right now, calls for 
ensuring that law enforcement is trained up across the country 
on how to recognize and deal with hate, and that they report on 
it.
    Because keep in mind even though we have some very solid 
data, as does the FBI, hate crimes are still massively 
unreported.
    Ms. Jackson Lee. Thank you.
    Mr. Greenblatt. There is work to be done to make sure that 
all law enforcement is complying with the law and reporting on 
this to the FBI.
    Ms. Jackson Lee. Thank you.
    Mr. Diament, can you also add in there the importance of a 
domestic terrorism law dealing with white nationalism and other 
acts?
    Mr. Diament. Yes, indeed. Again, in the course of my 
service on the DHS Advisory Committee, which you will hear from 
our co-chairs in the next panel, one of the messages we 
consistently heard from leaders in the Federal and local law 
enforcement communities is that you could have somebody coming 
into this country from overseas, engaging in certain 
activities.
    Because there are anti-terrorism laws that are in place, 
the FBI could open an investigation. It could conduct 
surveillance, et cetera, and disrupt or thwart, you know, a 
possible plot.
    Whereas if American citizens engage in those very same 
activities, they have an impediment in the absence of a Federal 
domestic terrorism statute to be able to respond in the same 
way.
    I know there are a lot of complexities around a domestic 
terrorism statute.
    Ms. Jackson Lee. Yes.
    Mr. Diament. But that is what they pay you all the big 
money for and give you these nice daises for.
    Again, I can tell you from not just the Jewish community 
perspective, but from interacting with the Muslim communities 
and other faith communities that really feel under a lot of 
pressure right now, we need to work together and figure out a 
way that is respectful of civil liberties, but will also 
address the challenge at hand, which is not only coming from 
overseas, but it is coming sadly from within our borders as 
well.
    Mr. May. I would just say that your concerns are well-
placed, and in my written testimony, you will find 
recommendations regarding law enforcement and education that I 
think could strengthen and, with my colleagues, I think could 
strengthen both of those areas.
    Mr. Rose. OK.
    Ms. Jackson Lee. Thank you so very much.
    I yield back, Mr. Chairman. Thank you.
    Mr. Rose. Now we will move on to Mr. King from the great 
State of New York.
    Mr. King. OK. Thank you.
    I thought maybe Max was trying to cut me off.
    [Laughter.]
    Mr. King. Staten Island guys.
    First of all, let me thank all of you for your testimony.
    The concern I have is I still do not think with all of the 
testimony we have heard at various times an understanding of 
why there is this dramatic increase in anti-Semitism now.
    Obviously, we can blame white nationalism. Mr. Greenblatt, 
I think your point is well taken also, but we should look to 
see if there is a connection between white nationalists here in 
this country and also in Europe and the extent to which that is 
having an impact.
    But also, we just had a whole series of anti-Semitic 
attacks, including murder, in New York, and not one of them was 
carried out by a white person.
    You look at the BDS movement, which you talk about 
educating people. You have got the BDS movement to a large 
extent is on campus, and these are most educated people.
    So it seems it is coming from all different directions, and 
why at this time? I mean, none of the excuses that were used in 
the past for anti-Semitism, you know, like terrible economy or 
some incident that would somehow allow demagogues to talk about 
anti-Semitism.
    None of those elements is present today as they were in the 
past. Why now do we see it coming from so many different 
quarters?
    Mr. Greenblatt. So I will try to answer that, and again, I 
think my colleagues may have thoughts.
    So No. 1, I do think we are in an environment where anti-
Semitism has been normalized or destigmatized. Again, we see it 
when people say that Jews have dual loyalty or that it is all 
about the Benjamins, on one side, or when people say that the 
globalists are trying to take over Congress and that Jewish 
financiers are trying to destroy our borders.
    People do not call it out, and they say it is OK. So No. 1, 
I think it is infecting the public conversation, Congressman, 
in a way that just was not happening a few years ago, No. 1.
    No. 2, indeed, I think there are fringe groups as there 
always have been, you know, that will take this and act on 
violent impulses, and social media is allowing crazy ideas to 
spread in a way that just was not possible a few years ago.
    I mean, keep in mind we tracked on YouTube a series of 
anti-Semitism channels that over the course of this year--are 
you ready?--we found 5. They were viewed 81 million times, off-
the-wall content that honestly you could not find anywhere.
    It was not like there was not the Protocols of the Elders 
of Zion, but you could not buy it at Barnes & Noble. Now I can 
go to Amazon and with one click as Prime member, it is in my 
living room the next day.
    So, again, social has got something to do with this.
    No. 3, the guilt of the Holocaust and its memory is fading, 
and that is allowing, again, I think bad ideas to come into the 
center. So those are just some ideas of, I think, why we are in 
this very charged moment.
    The last thing I will just say is that in a polarized 
world, there is, indeed, a lot of anxiety, and systems are not 
providing the solutions, the political system, the marketplace, 
and in those moments, in those moments when there is anxiety 
and a lack of answers, people latch onto easy solutions, to 
stereotypes, to explain away their problems.
    That is when the anti-Semites move from the margins right 
into the mainstream.
    Mr. King. Yes.
    Mr. Diament. I would just try to add very briefly that, as 
I tried to say in my opening comments, that particularly in the 
Orthodox community I, unfortunately, have to say that I think 
we have been a subset of the broader Jewish community and that 
leaders of communities who have engaged in anti-Orthodox 
statements and actions have not been repudiated and called out 
the way anti-Semites, you know, more generally have been and as 
the examples I gave in my testimony.
    I think so the fact that we are now realizing that and 
responding to that is unfortunate but welcome.
    The second thing just to add to Jonathan's point about 
social media, again, one of the things that my co-chairs on the 
next panel can talk about in more detail, one of the things we 
heard from the head of the office at the Secret Service that 
engages in analysis and profiling of potential, you know, 
criminal actors is that the social media has really come down 
to what they call, you know, the moment of inspiration to 
action.
    Really the time line for radicalization of ideas to action 
has just been so condensed and accelerated by social media and 
the internet as well.
    Mr. Kontorovich. Let me just mention that for centuries, 
indeed, millennia, Jews have been convenient scapegoats, and 
they still are convenient scapegoats for very many groups, 
again, on the right, on the left, Islamic supremacists and 
others.
    We also have, just to reemphasize, the United Nations which 
continually day after day pours out anti-Israeli and really 
anti-Semitic resolutions and rhetoric.
    It was very useful, I think, when we had Nikki Haley as 
Ambassador because she stood up to this on a regular basis. By 
the way, Senator Moynihan, who I had the privilege of knowing 
when he was Ambassador to the United Nations; I knew him when 
he was a Senator. He also stood up against anti-Semitism and 
anti-Israelism and was a model.
    I think it would be good for this body to encourage in any 
way you think is appropriate the current Ambassador to the 
United Nations, Ambassador Kelly Craft, also to make this a 
priority and stand up to the constant flow of poisonous 
rhetoric coming out of that body right there in New York City.
    Mr. Kontorovich. Mr. King, I think your question is a 
fantastic question, and it is a deep question. Why now?
    I want to say professors like to explain everything, but 
one important thing in social science is deep and complicated 
human phenomena do not always have an explanation.
    Everyone wants to say, oh, this is happening because they 
read the right-wing website and the left-wing website. It could 
be they did that maybe, but they also probably had breakfast 
and the breakfast did not make it happen either.
    Why these things happen, why these strange movements of 
people uncoordinated happen at different times is very hard to 
know, but we know that there are countries where there are no 
Jews, and yet surveys suggest deep anti-Semitic views; have 
never seen a Jew. Why is that?
    That is why anti-Semitism needs to be treated with 
particular sensitivity, because it is something deep, because 
it is something atavistic. It is something that is always with 
us.
    That is why it may be a mistake to lump it in with all 
other isms, all other ``anti''s. Because anti-Semitism is 
something that is just always with us and comes in strange 
waves and motions, and we need to be able to deal with it even 
if we cannot fully understand it.
    Mr. King. Thank you very much.
    I yield back. Thank you, Chairman.
    Mr. Rose. Thank you, Mr. King.
    Next up is Ms. Slotkin from the great State of Michigan.
    We would also like to formally commend her for her entire 
professional life taking part in the fight against terror, both 
abroad and here at home.
    Ms. Slotkin. Thank you, Chairman. So thank you for doing 
this panel.
    I think you can see there is strong support. When you can 
get bipartisan Members of Congress to stay through an entire 
hearing and ask interested and engaged questions, you know that 
you are on a topic that has really strong bipartisan support 
and interest. So thank you.
    We have been reading the materials and, you know, we have 
all been talking about a four-fold increase in victims of 
violent anti-Semitism in the past 2 years, according to Mr. 
Greenblatt's testimony.
    On top of the vandalism, the harassment, in Michigan we 
have seen the same precipitous rise in anti-Semitism, including 
a synagogue that was defaced, and the Michigan State University 
Hillel, which I represent, was defaced.
    So this is an issue that is very much on my mind and in our 
hearts, but I am a CIA analyst by training, and so while I 
respect the view and certainly have lived the experience that 
anti-Semitism is as old as the world, we cannot dance around 
the idea that there has been a precipitous increase.
    So I am interested. In order to fix the problem, we have to 
understand what is at the root of the problem. So we have 
talked about this idea of mainstreaming. Mr. May, you spoke 
about it. Mr. Greenblatt, you spoke about it.
    Explain to me how it has become mainstreamed. We had social 
media 15 years ago, 10 years ago, 5 years ago. But we have had 
a precipitous rise in the past couple of years in these 
incidents.
    We know some of the most violent incidents, the shootings 
in California and in Pittsburgh, were centered around a 
conspiracy theory that probably should have never seen the 
light of day, but was the basis of their desire to enact 
violence on people.
    So explain to me particularly the role of leadership in 
mainstreaming anti-Semitism. Mr. Greenblatt and then Mr. May, 
and as crisp as you can, if you could.
    Mr. Greenblatt. Yes. Look. So anti-Semitism, as has been 
said, is something that is called the oldest hatred. It is not 
new. I mean, over the last decade, if we try to pull back a 
little bit, at the ADL we tracked some 220 extremist murders in 
the United States, 200 of which were committed by extreme 
right-wing elements like white supremacists, anti-Government 
activists. That is 200 in the last decade, 12 by Islamic 
radical jihadists and 8 by radical left-wing types.
    So I want to point out that the violence did not just 
start, but what we saw in 2016 was a dramatic increase. After 
anti-Semitic incidents had been on the decline over 15 years, 
in 2016 it went up 34 percent, 2017 57 percent, and then as you 
are pointing out, in 2018 anti-Semitism assaults have more than 
doubled year over year, and the victims tripled.
    So something is going on, and I think to your point, the 
idea that conspiracism has now become part of the political 
kind of parlance is deeply problematic, and we see terms like 
globalists or open borders or all of the crazy intonations 
against George Soros that he is paying migrants to come from 
Central America.
    Just so you understand, these ideas are not new. They are 
lifted from the pages of white supremacists. They are laundered 
through services like 4chan and 8chan, to Reddit and Facebook 
and to the talking points of political pundits on prime-time 
television.
    So I will just say, No. 1, that has a lot to do with it 
because this is the stuff that feeds the deranged.
    I will also point out that the crazy ideas that somehow, 
again, that the Jews control Congress or that Israel is behind 
all the machinations feeds an equally odious narrative that 
comes from a different ideological direction.
    When it goes unchallenged, when it goes unresponded to, it 
settles into the conversation.
    Ms. Slotkin. So, Mr. May, help us understand the role of 
leadership in this.
    Please I have 50 seconds left.
    Mr. May. So really quickly, I think you are absolutely 
right to put your finger on the role of leadership. Leadership 
has not done what it should do. Why did the President of the 
Columbia University not say we should not be having or 
recognizing it is a global leader, somebody who is an open 
anti-Semite. Why was that not done?
    The anti-Semitism in form ends up justifying violence in 
anti-Semitism, and this is going on all over the world.
    There is legislation passed in Ireland--it is not yet law--
that would say it is illegal for people in Ireland to do 
business with Jews in the Jewish quarter of the old city of 
Jerusalem.
    They think this is a way of protest to Israel, but they are 
saying Jews in the Jewish quarter, we will not do business with 
that.
    I think that needs to be addressed by our leadership. I can 
give you under examples of this as well, but leadership is very 
important. It sends signals.
    Ms. Slotkin. Is the leadership of the President of the 
United States important, sir?
    Mr. May. It is very important.
    Ms. Slotkin. I think my time has expired. I will not go on.
    Mr. Rose. I thank the----
    Mr. King. Mr. Chairman, can I have just 10 seconds to say 
something?
    Mr. Rose. Sure.
    Mr. King. On the issue of Ireland, as an Irish American, 
this is absolutely disgraceful and despicable, and I have 
actually, you know, officially complained to them about it.
    Mr. May. I know you have.
    Mr. King. It is inexcusable.
    Mr. May. I do know you have been involved in that.
    Mr. Rose. Mr. King, thank you very much.
    Next up is Mr. Zeldin from New York.
    Mr. Zeldin. Well, thank you, Chairman, for hosting this 
hearing. It is an honor to be here, and a very timely topic. So 
thank you to the Chair and also to all the witnesses who are 
here for both panels.
    First off, there are a few pieces of legislation that I am 
supportive of that I believe Congress can pass to assist. One 
is the Never Again Education Act, H.R. 943; the Anti-Semitism 
Awareness Act, H.R. 4009; Israel Anti-Boycott Act, H.R. 5595; 
and S. 1, which contains the Combatting BDS Act.
    For the millions of Americans who are watching us live on 
C-SPAN right now, the public service announcement of January 24 
is International Holocaust Remembrance Day. Just a few days 
later on January 27 is the 75th anniversary of the liberation 
of Auschwitz.
    Earlier this week in my office, I met with the U.N. Special 
Rapporteur on Freedom of Religion or Belief. The Special 
Rapporteur came out with a report that touched on this topic, 
and it encourages the Secretary General to appoint a senior-
level leader in the Executive Office of the Secretary General 
with the responsibility for engaging with Jewish communities 
world-wide, as well as for monitoring anti-Semitism in response 
to the United Nations.
    So as I heard Mr. May and others talking about the United 
Nations specifically, I think it would be great for the 
Secretary General to act on that recommendation made by the 
Special Rapporteur.
    Mr. Greenblatt, I think it would be helpful for the 
community, for Congress, for our country to get a little more 
of a historical perspective.
    There was an Executive Order that was signed a few weeks 
back, and some people were just becoming familiar with the 
issue as the Executive Order was first being signed, but what a 
lot of people do not realize is the bipartisan historical 
context over the course of the last several years and why I 
really do believe that more Americans, regardless of political 
affiliations, not just should be aware of the historical 
context, but should be supportive of the underlying substance.
    Mr. Greenblatt. Sure. So first of all, Congressman, thank 
you for the question.
    Thank you for your leadership on the Never Again Education 
Act. We also agree that it should be passed forthright. So I am 
glad you brought that up.
    So we think the Executive Order that was signed by the 
President just a few weeks ago is incredibly important in large 
part because it, indeed, has a bipartisan history.
    So to step back, I think as Mr. May pointed out, we do have 
a legitimate issue with Jewish students being marginalized on 
college campuses because of their ``support of Israel''. That 
is often the pretext.
    But I have heard stories about kids afraid to go to Hillel 
because of being excluded from certain parts of campus, because 
of being marginalized in certain groups. I mean, it is, if you 
will forgive me, off the wall.
    Now, the challenge is that the Department of Education, 
which has an Office of Civil Rights, has never in its history 
prior to just a few weeks ago taken up the case of a Jewish 
student's civil rights being violated, and so during the Bush 
administration, there was a directive, a decision rendered that 
OCR should look at these violations of Jewish students' civil 
rights.
    Let me just step back. Because Title 6 lays out that it 
protects people on the basis of race, religion, or national 
origin. So does it exclude Jews?
    Sometimes they are considered a race. Does it exclude Jews?
    So the Bush administration found, no, it should not because 
often Jews are targeted the same way people are of a particular 
race or national origin.
    So that decision was challenged and then reinforced by the 
Obama administration's Justice Department, and it said yes 
indeed, Jews, like Sikhs or Muslims are often considered a 
distinct ethnic group and should be protected by Title 6.
    So what the EO does is simply codify, coming from the White 
House, that it is time to actually enforce that. Honestly, it 
is more symbolic than anything because it simply reiterates 
what the Obama and Bush administrations had found.
    But it also does something very important inasmuch as it 
recognizes the IHRA definition of anti-Semitism.
    So IHRA stands for the International Holocaust Remembrance 
Association. This is a group of academics. This is a group of 
professors and scholars. There is no politics in this group, 
from many countries around the world, including the United 
States, who over several years developed this definition.
    So the EO codifies the definition and reinforces where the 
Bush and Obama administrations are.
    At the end of the day, it is about how universities enforce 
their own policies, and hopefully, this will help them 
understand if you do not protect the civil rights of Jewish 
students like you would Muslims or African Americans or 
Latinos, then you might be at risk of losing Federal funding. 
That is a good thing in this environment.
    Mr. Zeldin. I thank you, Mr. Greenblatt, and hopefully it 
is a topic that really we can make progress in breaking down 
barriers because it really started as a work product of 
Republicans and Democrats.
    Mr. Greenblatt. Right.
    Mr. Zeldin. In Congress Republicans and Democrats, 
nonpartisans outside of Congress, and I know, Mr. Greenblatt, 
you were involved in that.
    Mr. Greenblatt. It builds on the Anti-Semitism Awareness 
Act, which passed unanimously in the Senate and was moving with 
bipartisan support through the House until it was held up in 
the last session.
    So you are absolutely right. A long bipartisan basis for 
this.
    Mr. Zeldin. Thank you.
    Mr. Rose. Mr. Zeldin, thank you.
    We will now move on to Mr. Langevin from Rhode Island.
    Mr. Langevin. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    I think our witnesses for your testimony here today.
    I find that the rise and spread of anti-Semitism extremely 
troubling. I think it is important that all of us call it out 
and condemn it as often as possible and not be silent.
    In your testimony, Mr. Greenblatt, you mention that the FBI 
data on hate crimes is based on voluntary local law enforcement 
reporting, and I agree with you that we cannot fully understand 
what we cannot measure, and in this case, unfortunately, the 
trend in reporting seems to be falling rather than increasing.
    So in your view, how can we go about improving the fidelity 
of this data?
    Is it primarily a matter of better identifying hate crimes 
at the State and local level or do LEAs have the data but just 
are not reporting them to the FBI?
    Mr. Greenblatt. So there are a few things. So I think, No. 
1, indeed, the integrity of the data matters so much, 
Congressman. I mean, we cannot manage what we do not measure, 
and the fact is that some 80-plus percent of law enforcement 
agencies around the country actually do not report hate crimes 
at all.
    So why do they not do that? Maybe the law enforcement is 
not adequately trained up to recognize the difference between a 
hate crime and an ordinary offense.
    Maybe, No. 2, it is too much paperwork, and they do not 
want to deal with it at the police desk.
    Maybe, No. 3, they are afraid it will reflect badly on 
their community.
    But this is the purpose of the NO HATE Act that is moving 
right now through the House. It is, indeed, to ensure that law 
enforcement is adequately trained and adequately tracks hate 
crimes against any marginalized group.
    If we better understand the issue, if we are better 
counting it, we will be able to more effectively correct for 
it.
    Mr. Langevin. I want to just be clear. Did you say 80 
percent?
    Mr. Greenblatt. It is like 87 percent, I think. It is 
massive.
    Now, just to be clear, most of the major metropolitan areas 
do report, but there are many large ones like Honolulu reports 
zero hate crimes a year, and there are other large metros that 
simply do not report at all.
    I can assure you there was probably a hate crime in 
Honolulu at some point over the past 12 months.
    But, again, law enforcement does so much good. We work so 
closely with them. With better training and resources, they can 
get this done.
    Mr. Langevin. Thank you for that conversation and 
perspective.
    Mr. Diament or Mr. Greenblatt, we have seen many of these 
anti-Semitic attacks that have often been linked to extremist 
activity on-line in the message boards or in social media. We 
have talked about that, both in the testimony and this 
conversation here already.
    But can you expand on your view and your estimation?
    How would you judge the work of social media platforms?
    Again, we talked about this already, but expand on that.
    What should their role be in helping to stem extremist 
content?
    The challenge is some of these social media platforms say 
they are a platform. Others would argue that they are 
essentially publishers, and they should be held to a higher 
standard.
    So what should their role be in helping to stem the 
extremist content?
    Should their focus be on moderating content directly or 
removing consistent bad actors from their platforms?
    Mr. Diament. I defer to Mr. Greenblatt.
    Mr. Greenblatt. Well, I appreciate that, Nathan.
    Look. I think it is worth noting that the companies have 
taken some steps. YouTube has taken down extremist channels. 
Facebook has taken down extremist accounts. Twitter has 
introduced policies. Reddit has quarantined problematic users. 
Google has used sort-of data boxes when you do certain 
searches.
    So there are steps they have done, but they have not done 
nearly enough. The 81 million views I described that we found 
on those YouTube channels, 4 out of the 5 channels are still up 
today.
    The kind of op-ed you could never post, you could never 
publish in any newspaper in America you can post almost 
instantaneously on Facebook. The kind of videos that you could 
never show on any broadcast network you can post instantly to 
YouTube, right?
    So the reach and the instantaneousness of it is really 
unnatural. There is no natural law that says when I post a 
video, it should show up automatically. That is not ordained by 
God. Keep in mind that the shooter in Christchurch, the shooter 
in Halle, they livestreamed the shootings.
    So, again, I think the companies need to exercise a kind of 
moral authority and live by some of the same standards that 
they should impose themselves that, again, broadcast, print, 
radio, other media live by these standards.
    Frankly, although there is room for improvement, they work 
pretty well. If the companies can protect copyright, if the 
companies can go after sex trafficking, the companies can do a 
better job of addressing hate speech.
    If they will not do it, you need to step up. As Professor 
Kontorovich said, Section 230 of the Communications Decency Act 
holds them to a different standard than all traditional media. 
It is time to look at that and assess. If they will not answer 
the problem, you probably need to.
    Mr. Langevin. Very good. Thank you all. I appreciate your 
perspective on this and the work you are doing to call 
attention to this.
    Thank you.
    Mr. Rose. Thank you, sir.
    Next up is Ms. Clarke from the greatest city in the world, 
New York City.
    Ms. Clarke. Thank you very much, Mr. Chairman. I thank our 
Ranking Member, Mr. Walker.
    I thank all of our expert witnesses who have testified 
before us today.
    It is not enough to live in America where we are assured 
the right that we can practice our religions freely. We must 
live our lives free from fear.
    Just a few weeks ago the attack at the Hanukkah celebration 
in my State of New York was a vivid reminder that the ancient 
evil of anti-Semitism still exists, and sadly, it does not just 
exist. It is on the rise.
    In Jersey City, San Diego, and Pittsburgh, we have seen the 
death toll of these hateful ideologies grow larger and larger. 
In fact, Pittsburgh was the deadliest act of domestic terrorism 
on the Jewish community in America's history, killing 11 people 
simply observing Shabbat.
    In my district, the Brooklyn and Crown Heights communities, 
we have also seen violent hate crimes occur in rapid succession 
and with alarming frequencies. We must reject hate, and we must 
take action to confront it. Anti-Semitism has no place in our 
society.
    My first question, Mr. Diament, is tragically the Orthodox 
Jewish community has often been disproportionately targets of 
anti-Semitic violence. We have seen this in my own district, my 
own community where I live, and I am deeply concerned about the 
recent spate of violent attacks in communities like Midwood and 
in Crown Heights.
    As you stated in your opening testimony, the very fact that 
many Orthodox Jews wear visible markers of their religion may 
put them at risk, which is totally unacceptable.
    In your view, how can and should Government officials 
provide support specific to the need and issues facing Orthodox 
communities in order to protect them against violence?
    Mr. Diament. Thank you for your strong statement, 
Congresswoman Clarke.
    As I said earlier, I think the short term, to use your 
words, people need to be free from fear, and in the short term, 
while we are in this crisis, and it is a crisis, we need better 
policing.
    I mean, the NYPD does a wonderful job, but I suspect even 
they could use more resources to really provide the level of 
police protection that our communities need, and the 
communities themselves need more resources in terms of making 
our synagogues and our schools and other place that we gather 
more secure.
    Just to give you a ballpark figure, you know, to hire a 
contract security guard from a private company at $40 a week 
[sic], right, that is $360 a week for a single security guard, 
and you multiply that out. That is not something that your 
typical small synagogue has in its budget and was 
contemplating, let alone dramatic physical infrastructure 
improvements like, you know, shatterproof glass and 
surveillance cameras and controlled entry, and so on and so 
forth.
    The Nonprofit Security Grant Program has been a wonderful 
resource for that, but, sadly, more synagogues and more 
churches and more mosques need those resources to make their 
congregants more secure.
    Ms. Clarke. Mr. Diament, I think that we have been having 
those conversations with our municipal and State partners in 
New York City, and I think that the message has been received.
    Mr. Greenblatt and Mr. Diament, the distinction between the 
real world and the virtual world is blurring. Anti-Semitic 
rhetoric on the internet can and does inspire actual deadly 
attacks.
    In your estimation, how have the mainstream social media 
companies done so far? I know you mentioned it a bit.
    What can Congress do to help rein in hate speech on 
platforms like 8chan?
    Mr. Greenblatt. So I would give the mainstream companies 
pretty poor marks. Again, they have done some things, but not 
enough.
    So you have the public platforms like Facebook and Google 
and YouTube and Twitter. Then you have what I call private 
platforms, 4chan, 8chan, Discord, Minds, and particularly like 
8chan and 4chan, Congresswoman, they do not obey any rules. 
They have almost weaponized the First Amendment to target 
marginalized people. They allow the kind of sexual predators, 
horrific bigots, the worst elements of society up there.
    Yes, I think it is long overdue to take action. I think 
these companies do not exist in a vacuum. They exist in a value 
chain, and so we should say to the financial institutions which 
allow them up, you know, ``Do you, financial institutions, want 
to work with companies that peddle this kind of garbage?''
    You know, the cybersecurity companies, the hosting company, 
the domain names providers, again, there are ways that we can 
encourage companies to behave, a degree of moral leadership if 
those particular firms will not do any at all.
    So I think it is long overdue for this to happen.
    Ms. Clarke. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Rose. Ms. Clarke, thank you.
    Next up is Ms. Rice, also from the greatest State, New 
York.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Greenblatt, we have a time constraint here, but 
recently I met with a group of high school students and 
survivors who take part in UJA's Witness Project, and it was so 
incredibly moving. These high school kids meet with the 
survivors and hear the stories directly.
    Because there is going to come a time in the not-so-distant 
future when there will be no more survivors.
    Mr. Greenblatt. Right.
    Miss Rice. Who will tell their story?
    If you look at the statistics of the percentage of people 
who either do not know about the holocaust, literally do not 
know about it----
    Mr. Greenblatt. Yes.
    Miss Rice [continuing]. Or do not believe it.
    The aspect of this from an educational standpoint to me is, 
other than politicians like us and people in the public 
discourse watching what we say and not feeding this rise in 
anti-Semitism, it is ensuring that this is taught as a fact of 
history.
    Mr. Greenblatt. Yes.
    Miss Rice. Not just some tall tale.
    So if you could just talk more about that.
    Mr. Greenblatt. Congresswoman Rice, I mean, I think what 
you are pointing out is really important. So we know that our 
own high school students do incredibly poorly in terms of their 
basic civics. So it should not surprise us that the majority do 
not even know what Auschwitz was, right?
    Again, as was mentioned by my colleagues, the Shoah stands 
out as probably the most horrific act not just of the 20th 
Century but in the history of humanity, and the idea that as we 
lose these survivors, we lose the memory of the Shoah is 
unconscionable.
    So I think as mentioned a few times, the Never Again 
Holocaust Education Act is really important. Every American 
student should be educated about Holocaust and genocide. What 
can happen when hate goes unchecked?
    What it means when law enforcement and Government, the 
instruments of the state are used as tools to target, to 
persecute, and to murder people because of how they pray or who 
they love or, you know, where they are from.
    So we deeply believe in this. You know, I think if we are 
ever going to get our arms around anti-Semitism, we cannot 
arrest our way out of the problem, and we really cannot like 
lobby or legislate it. We need to change hearts and minds.
    That is why, you know, every year we reach over a million 
school children with our Anti-bias Education Programs. There 
are other excellent organizations, like Facing History and the 
SPLC, that do really good programs around this.
    But I would challenge you today. You should get that act 
passed so that every American student, to operate in an 
increasingly diverse country, in an increasingly global world, 
gets educated about bias and hate. I think it is the minimum 
that we can give to our kids if we ever really want to 
inoculate them from intolerance.
    Miss Rice. Challenge accepted. Thank you very much.
    Mr. Rose. Ms. Rice, thank you, and I apologize that we are 
speeding things up a bit.
    Mr. Raskin from Maryland, thank you for being here.
    Mr. Raskin. Thank you, Mr. Chairman.
    The great State of Maryland is what you meant to say.
    [Laughter.]
    Mr. Raskin. Let's see. But I want to start with you, Mr. 
Greenblatt. We are now in an election year, and I know that ADL 
makes a point, as you just observed a few moments ago, of 
calling out anti-Semitism when you see it----
    Mr. Greenblatt. Yes.
    Mr. Raskin [continuing]. And not allowing it to become part 
of the fabric of everyday existence.
    Mr. Greenblatt. Yes.
    Mr. Raskin. I remember clearly in 2016 when ADL blew the 
whistle on Donald Trump's closing TV ad in the 2016 campaign 
which had focused on George Soros, Lloyd Blankfeid, and Janet 
Yellen and said essentially these people are globalists who are 
exploiting the American people.
    I am wondering do you take special precautions in election 
years to try to contact campaigns or political parties to talk 
about the use of anti-Semitic tropes and themes, or what do you 
do to make sure that we are not going to see that further kind 
of degradation of our political discourse?
    Mr. Greenblatt. So, Congressman, I think it is a very good 
question. So we are a 501(c)(3) organization, and as a tax-
exempt organization, we do not get involved in politics. I do 
not really care how any of you vote. I care what you value.
    I do not care kind of what lever you pull. I care whether 
or not you push prejudice. So, indeed, in 2016 we called out 
candidates when they said things that were beyond the pale, and 
when you make claims that there is, again, a global conspiracy 
and you point the finger at only Jews as driving that, forgive 
me but that gets our attention no matter who is saying it and 
no matter what the consequences are of speaking out.
    That being said, indeed, I worry as we move into this 
political cycle. We have candidates on both sides of the aisle. 
We have both political parties who have engaged or certain 
members have with the kind of rhetoric that I think does not 
belong in our political conversation.
    So we do take great pains to be even-handed. We will call 
it when we see it, and I think for me that is a good way to 
conclude. Because what gives me great hope today is after 
Charlottesville, you had Members of Congress, you had members 
of the Senate, you had Governors on both sides who called this 
out clearly and consistently.
    Over the last year-and-a-half from, you know, the mayor of 
Pittsburgh to the Governor of New York, many of you, Members of 
the New York delegation and relative to the attacks we have 
seen in the last few months, you have called this out clearly 
and consistently.
    As the grandson of a Holocaust survivor who lost his entire 
family in Nazi Germany, when the government, you know, 
attempted to murder all of European Jewry; as the husband of a 
political refugee from the Middle East, from Iran, a government 
that is the worst state-sponsored anti-Semitism in the world 
that has instrumentalized it as the chief plank of its foreign 
policy, I can tell you it makes a difference when people in 
positions of authority speak out, and I applaud all of you for 
doing just that.
    Mr. Raskin. Thank you.
    Mr. Diament, if I am not mistaken, you are still my 
constituent.
    Mr. Diament. Yes.
    Mr. Raskin. This is wonderful to hear. A lot of my 
constituents are terrified by the rise in anti-Semitic violence 
and especially parents of small kids, especially if they go to 
Jewish schools and so on.
    I know that this is something that is of great concern in 
the Orthodox community. What special precautions are being 
taken now and what more do you think the Government can be 
doing to enhance people's sense of security against, you know 
the resurgence of anti-Semitic terror and violence?
    Mr. Diament. Thank you for your question.
    My Congressman, just to be fair, I should say my sister 
lives in Ms. Rice's district, and my parents live in Mr. King's 
district.
    In terms of precautions, there are a range of precautions 
that my organization as the umbrella for synagogues around the 
country are undertaking. They range from assisting our 
congregations with becoming educated on and applying for the 
grants for security improvements that are available both from 
the Federal Government and from State and local governments.
    We also have been working with local congregations in terms 
of developing best practices for training the congregants of 
what to do should there be an unfortunate emergency situation.
    Many, many, many of our congregations have volunteers who 
are standing outside synagogues and have been trained on how to 
be watchful in sort-of a ``see something, say something'' kind 
of context.
    So that is what we are doing in terms of a congregational 
life. There is, as I said earlier, a lot of anxiety around 
this, but I do not think we are going to cower in fear. We are 
a resilient community, and perhaps because sadly there have 
been centuries of anti-Semitism, we have the resiliency and the 
courage to work with people of goodwill and government leaders 
who care to try to push this back and say, ``No. We are not 
going to be fearful. We are going to exercise our freedom of 
religion in this country.''
    Mr. Raskin. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Rose. Mr. Raskin, thank you very much.
    With that, we thank the witnesses of our first panel for 
their extraordinary testimony, especially because Mr. Miller 
scheduled his plane, like a true New Yorker. We ask that we 
move expeditiously to the second panel. Thank you so much 
again.
    [Brief recess.]
    OK. We welcome the second panel of witnesses. Our first 
witness is Mr. John Miller, deputy commissioner for 
intelligence and counterterrorism at the New York City Police 
Department, the greatest police department in the history of 
the world. We thank the men in blue.
    Mr. Miller. Thank you.
    Mr. Rose. We will jump right to you because I know you are 
a bit pressed for time.

      STATEMENT OF JOHN J. MILLER, DEPUTY COMMISSIONER OF 
    INTELLIGENCE AND COUNTERTERRORISM, NEW YORK CITY POLICE 
                           DEPARTMENT

    Mr. Miller. Thank you for the understated introduction, and 
it is good to be back.
    Good afternoon, Chairman Rose, Ranking Member Walker, and 
Members of the subcommittee.
    I am John Miller, deputy commissioner for intelligence and 
counterterrorism of the New York City Police Department. On 
behalf of Commissioner Shea and Mayor de Blasio, I am pleased 
to testify before your subcommittee to discuss the disturbing 
rise in bias crimes, especially anti-Semitic violence, as well 
as the NYPD's efforts to address that.
    An attack on a member of a particular community targeted 
because of their race, religion, nationality, gender, or sexual 
orientation is an attack on all New Yorkers. New York City is 
the world's epicenter of diversity and stands as an example of 
how distinct cultures, religions, nationalities can exist side-
by-side, learning from one another and enriching each other.
    Unfortunately, last year in New York City, we saw 428 hate 
crimes. That is a 20 percent increase in hate crimes over 2018, 
which in and of itself is concerning, and a 26 percent increase 
in anti-Semitic hate crimes which comprised a majority of the 
total hate crimes in our city. That would be 234 anti-Semitic 
hate crimes.
    Now, we see that the lion's share of that number are things 
like graffiti, a broken window, a property crime as a hate 
crime. These are very challenging to solve because oftentimes 
nobody knows when it occurred or who did it or how long it has 
been there. It is a challenge when these things are in 
bathrooms or in the school classroom or on the wall, to find 
video evidence or witnesses.
    However, I would underline in the much smaller percentage 
that involve an assault, a physical attack on another person, 
our clearance rate, our solve rate, if you will, is over 80 
percent. So that is significant. We put a lot of work into 
those. We pull out all the stops.
    By now you have all heard of the brutal machete attack in 
Monsey, New York, just miles north of the city, which injured 
5, 1 very seriously. These were people peacefully and happily 
celebrating Hanukkah, and the brutal attack and the shootout in 
Jersey City you also heard of, which killed 6, including a 
police officer, Joe Seals. It turned a quiet neighborhood into 
a battlefield in an afternoon.
    But these days it also seems like every news cycle carries 
yet another story of violence targeted at Jewish New Yorkers 
including children. So that are we doing about it in New York 
City? What are we doing about it specifically as the NYPD?
    First of all, we are ramping up our uniform presence in the 
city, particularly in neighborhoods that have been targeted by 
anti-Semitic violence. The first line of defense is our most 
valuable asset in the NYPD and the fight against violent 
extremism. That is our highly-trained, dedicated, and 
extraordinarily diverse personnel of the NYPD.
    They collectively make up our department, and they make it 
stronger because the NYPD has worked very hard for a long time 
to stand up a force of officers who reflect the city that they 
are charged with policing, and we are succeeding. In a 
majority-minority city, the department is now a majority-
minority police force with each subsequent graduating Police 
Academy class, reinforcing that trend.
    We now have members of the service hailing from 161 
different countries and 22,382 members who speak more than one 
language, with 168 languages represented among them.
    That is encouraged by the support of a myriad of fraternal 
organizations across all of those ethnicities, religions, and 
language.
    We embrace our diversity in New York City. We embrace our 
diversity as the NYPD. We expend significant resources to 
ensure those who commit crimes motivated by hate are 
apprehended and brought to justice. The numbers bear that out.
    Last year, hate crime apprehensions increased by 38 percent 
for the most serious offenses, criminal possession of a weapon, 
criminal mischief, swastika graffiti, robbery, assault, grand 
larceny, murder, and attempted murder.
    This is the job of every member of the New York City Police 
Department, but the focal point of our efforts in this area is 
the Detective Bureau's Hate Crimes Task Force. Its personnel 
are detectives and State troopers who are specially trained to 
identify and investigate hate crimes. It is the largest such 
municipal unit in any police department in the country.
    Now, the NYPD, of course, saw the disturbing upward trend 
of violent bias crimes sweeping across the country and moved 
very early on. Between the time of September and December, we 
moved to form the Racially and Ethnically Motivated Extremism 
Unit, or REME, within our Intelligence Bureau. This new unit 
also has about 25 NYPD personnel, detectives, analysts, police 
officers working side-by-side with members of the New Jersey, 
New York, and Pennsylvania State Police, as well as agents from 
the Bureau of Alcohol, Tobacco, Firearms, and Explosives.
    REME is specifically dedicated to investigating not just 
hate crimes, but more specifically the actions and the growth 
among violent hate groups as they spawn across the country and 
across the internet.
    The idea is to identify groups with a propensity to 
violence and those individuals who may carry it out and to stop 
those incidents before they happen.
    To do this we go by the same rulebook and the same tactics 
and the same techniques we use to thwart attacks by ISIS and 
al-Qaeda and the lone wolves they inspire. We have already 
opened dozens of investigations within REME in the short time 
since it was formed.
    REME consolidates and streamlines the efforts against this 
threat landscape and facilitates engagement within the 
department with our Federal, State, local, and private-sector 
partners, some of whom you spoke to today.
    The anti-Semitic and hateful violence we see in surrounding 
communities inevitably touches on New York City even if they do 
not start in New York City. Because of this, wherever there is 
a high-profile incident anywhere in the country or in the 
world, such as, as we discussed a moment ago, the Pittsburgh 
synagogue attack or the Christchurch shootings on the other 
side of the world in New Zealand, the NYPD goes on high alert 
and further increases our visibility around houses of worship 
and customizes a deployment plan to discourage any potential 
copycat attacks that may be inspired.
    The value of our collaborative efforts to guard against 
violence imported into New York cannot be undersold. Remember 
Jersey City is literally on our doorstep. The upstate attacker 
arrested by our officers in Harlem has no connections to New 
York City that are current. So it begs the question: Why did he 
flee that scene and come to New York City? What was he doing 
there?
    We still do not know. That investigation continues. What 
his intentions were, we are still working tirelessly with our 
partners to find out.
    Most of the Proud Boys are not from New York City, but it 
presented too attractive a target for them when they decided to 
engage in violence. The white supremacist, Neo-Nazi group 
Patriot Front have taken their recruiting efforts to New York 
City.
    Just last week, they brazenly hung a banner with anti-
immigrant language over an overpass in Brooklyn. The same 
freedom and diversity that are New York's strengths are the 
same reason it is the No. 1 target for violent foreign and 
domestic extremists all at the same time.
    Finally, part of New York City's holistic approach to 
combatting hate crimes, Commissioner Shea has announced last 
week that hate crimes will now be included in our COMPSTAT 
statistical analysis. So as we generally follow the FBI's UCR, 
hate crimes will be in that lineup that we watch very closely 
within the numbers and the mapping and the crime strategies for 
any uptick or change.
    Anti-Semitism manifests itself in many forms, well-
organized groups, lone-wolf actors, the deluded individuals, 
and everything in between. Anti-Semitism in all its forms, 
however, is steeped in ignorance and bred of muddled and 
incoherent conspiracy theories, some of which were discussed at 
this table this afternoon.
    It is more easily spread and consumed these days, however, 
because of social media. For these reasons, a lasting solution 
to bigotry and hatred will never be grounded solely on law 
enforcement and heightened security. That will only be achieved 
when every citizen works collectively to educate each other and 
reinforce our shared values of tolerance and unity.
    New York City and the NYPD will continue to be at the 
forefront of this movement.
    Thank you, again, for the opportunity to testify to this 
committee. I would be happy to answer any questions.
    [The prepared statement of Mr. Miller follows:]
                  Prepared Statement of John J. Miller
                      Wednesday, January 15, 2020
    Good afternoon Chair Rose, Ranking Member Walker, and Members of 
the subcommittee. I am John Miller, deputy commissioner of intelligence 
and counterterrorism for the New York City Police Department (NYPD). On 
behalf of Police Commissioner Dermot Shea and Mayor Bill de Blasio, I 
am pleased to testify before your subcommittee today to discuss the 
disturbing rise in bias crimes, especially anti-Semitic violence, as 
well as the NYPD's efforts to reverse this trend.
    An attack on a member of a particular community, targeted because 
of their race, religion, nationality, gender, or sexual orientation, is 
an attack on all New Yorkers. New York City is the world's epicenter of 
diversity and stands as an example of how distinct cultures, religions, 
and nationalities can exist side-by-side, learning from one another and 
enriching each other. One of the core pillars of our city's strength is 
the kaleidoscope of people who call this city home. Hate and 
intolerance have no place in our society and attacks premised on hate 
and intolerance weigh on the collective consciousness of not only the 
targeted community, but the entirety of the New York City community.
    New York honors those historically persecuted for their race, 
origin, beliefs, and identities, and at its core, the NYPD exists to 
protect and serve every individual and community, especially the most 
vulnerable. It is always heartening to watch New Yorkers of every race 
and creed come together in the spirit of unity after every hateful 
tragedy to demonstrate to those who wish to divide us that their hate 
only makes us stronger and makes us fight harder. Time and time again, 
the people of our city have not permitted New York to fall into the 
darkness of hate and division.
    Unfortunately, last year in New York City we saw a 20 percent 
increase in hate crime incidents over 2018, and a 26 percent increase 
in anti-Semitic hate crimes which comprised a majority of the total 
hate crimes in our city. We've all heard by now of the brutal machete 
attack in Monsey, New York, just miles north of the city, which injured 
5 people peacefully celebrating Hanukkah, and the savage attack and 
shootout in Jersey City which killed 6, including a police officer, 
turning a quiet neighborhood into a battle scene for an afternoon. But 
these days it seems like every news cycle carries yet another story of 
violence targeted at Jewish New Yorkers, including children.
    What are we doing about it? First off, we are ramping up our 
uniformed presence at sensitive locations throughout the city, 
particularly in neighborhoods that have been targeted by anti-Semitic 
hate. The first line of defense and our most valuable asset in the 
fight against violent extremism is our highly-trained, dedicated, and 
diverse personnel who collectively make our department stronger. The 
NYPD has worked tirelessly over the years to stand up a force of 
officers which reflect the city they are charged with protecting and we 
are succeeding. In a majority-minority city, the department is now a 
majority-minority force, with each subsequent graduating academy class 
reinforcing this trend. We have members of the service hailing from 161 
countries and 22,382 members speak more than one language, with 168 
languages represented among them. The department also encourages and 
supports its myriad fraternal organizations which build solidarity 
among our officers, and most of which have been in existence for many 
decades.
    We also expend significant resources to ensure those who commit 
crimes motivated by hate are apprehended and brought to justice. The 
numbers bear this out. Last year, hate crime apprehensions increased by 
38 percent for the most serious offenses: Criminal possession of a 
weapon, criminal mischief and swastika graffiti, robbery, assault, 
grand larceny, murder, and attempted murder. This is the job of every 
member of the service but the focal point of our effort lies in our 
Detective Bureau's Hate Crimes Task Force. Its personnel are officers 
and analysts who are specially trained to identify and investigate 
hate-based crime and it is the largest such municipal unit in the 
Nation.
    The NYPD of course saw the disturbing upward trend of violent bias 
crimes early on and last month we formed the Racially and Ethnically 
Motivated Extremism (REME) unit within our Intelligence Bureau. This 
new unit has about 25 NYPD personnel working side-by-side with members 
of the New Jersey, New York, and Pennsylvania State police and agents 
from Federal Bureau of Alcohol, Tobacco, Firearms, and Explosives. REME 
is specifically dedicated to investigating and stamping out violent 
bias crimes in and around the city before they occur by applying the 
same intelligence-gathering techniques we use to thwart attacks by ISIS 
and al-Qaeda and the lone wolves they inspire, and has already opened 
dozens of these investigations in the short time since it was formed.
    REME consolidates and streamlines efforts against this threat 
landscape and facilitates engagement within the department and with our 
Federal, State, local, and private-sector partners. The anti-Semitic 
and hateful violence we see in surrounding communities inevitably 
touches on New York City itself. Because of this, whenever there is a 
high-profile incident anywhere in the country or the world, such as the 
Pittsburgh and Christchurch shootings, the NYPD goes on high alert and 
further increases our visibility around houses of worship and 
customizes a deployment plan to discourage potential copy-cats.
    The value of our collaborative efforts to guard against violence 
imported into New York cannot be undersold. Jersey City is right on our 
doorstep. The upstate attacker was arrested by our officers in Harlem 
but has no known connections to the city. Why he was there, we do not 
yet know. What his intentions were, we do not yet know, but we are 
working tirelessly with our partners in these jurisdictions and with 
our Federal partners to find out. The Proud Boys are not from New York 
City but it apparently presented too attractive a target for them to 
ignore when they decided to intimidate and inflict mob violence. The 
white supremacist neo-Nazi group Patriot Front have taken their 
recruiting efforts to New York City and just last week they brazenly 
hung an anti-immigrant banner off an overpass in Brooklyn. The same 
freedom and diversity that are New York's strengths are the same 
reasons that it is the No. 1 target for violent foreign and domestic 
extremists.
    Finally, as part of the NYPD's holistic approach to combatting hate 
crimes, Commissioner Shea announced last week that hate crimes will be 
included in our CompStat statistical analysis. For those of you who are 
not familiar with CompStat, it is the data-driven crime analysis system 
pioneered by the NYPD in the 90's which enables us to strategically 
target our resources to battle crime trends. It will be an on-going 
process to make sure we get it right, but including hate crimes in 
CompStat is long overdue.
    Anti-Semitism manifests itself in many forms, from the well-
organized group to the lone deluded individual, and everything in 
between. Anti-Semitism in all its forms, however, is steeped in 
ignorance and bred of muddled and incoherent conspiracy theories, and 
while this has been the case for quite some time, it is more easily 
spread and consumed these days because of social media. For these 
reasons, a lasting solution to bigotry and hatred will never be 
grounded solely on law enforcement and heightened security. That will 
only be achieved when every citizen works collectively to educate each 
other and to reinforce our shared values of tolerance and unity. New 
York City and the NYPD will continue to be at the forefront of this 
movement.
    Thank you again for this opportunity to testify today. I am happy 
to answer any questions you may have.

    Mr. Rose. Mr. Miller, thank you.
    Just a quick, how much longer do we have you for? You are 
out of here in what, 10 minutes?
    All right. So I am just going to take a quick point of 
privilege.
    REME, how many of these cases roughly--I know you cannot go 
into any individuals--but how many are connected to Neo-Nazi 
organizations, Atomwaffen, the Base, that also have global 
linkages?
    You mentioned that you are following the same rulebook that 
you have used over the course of the last decade, 2 decades to 
attack Jihadist terrorism, but you do not have the same 
toolkit, particularly designations of Foreign Terrorist 
Organizations, which as you know is a very almost singular 
focus of mine at this point.
    So can you give us a brief analysis, high level, of what 
you are seeing and how much this is hurting you, the absence of 
an FTO designation as you continue to tackle Neo-Nazi threats, 
anti-Semitic threats, and the threat of domestic terrorism?
    Mr. Miller. So the REME cases are, by and large, involving 
white supremacists and Neo-Nazi groups to date. What we see is 
a trend that that activity is rising.
    What we also see, it is dynamic in that you have organized 
groups. Some of them, to answer the core of your questions, 
have overseas connections with foreign groups of the same 
ideology. Others are purely domestic.
    Then beyond that, you have people who are not part of the 
groups per se but follow them on-line and then act out 
violently as lone actors.
    We encompass all of that, but it is disturbing when you see 
people who are part of supposedly domestic groups who are 
training overseas and domestic groups that are planning actions 
that, if they were doing the same action on behalf of ISIS or 
al-Qaeda would be squarely within the terrorism statutes, even 
though those actions are politically-driven and using violence 
and the fear of violence, are not considered terrorism under 
the statutes as they stand.
    Mr. Rose. Do you think that we can seriously take on this 
fight against anti-Semitism without considering FTO 
designations for global Neo-Nazi organizations?
    Mr. Miller. I do not understand why we are torturing the 
subject. A terrorist should be regarded as a terrorist, as a 
terrorist. I do not understand why we have to decide, well, it 
is terrorism, but it is domestic. It is terrorism, but it is 
foreign.
    Terrorism is terrorism.
    Mr. Rose. OK.
    Mr. Miller. I think the statutes should reflect that, to 
answer your question.
    Mr. Rose. Not to make this overly informal, but considering 
that Mr. Miller is a bit constrained, does anyone have any 
questions that they would like to ask of Mr. Miller?
    Mr. King.
    Yes, Ms. Clarke.
    Ms. Clarke. Thank you, Mr. Chairman.
    I thank you, Commissioner Miller, for all of your hard work 
and dedication to the people of the United States of America 
and, of course, our beloved city, New York City.
    As you know, there have been a number of anti-Semitic 
incidents in my district, particularly in Midwood and the 
Flatbush in Crown Heights areas. I have urged the NYPD and 
other law enforcement agencies to monitor this situation 
closely.
    I am very happy to hear what you are doing with COMPSTAT 
because I think that that may help us to get to the core of the 
matter.
    But can you discuss NYPD's strategy to combat violent hate 
crimes and, in particular incidents targeted toward Jewish, 
particularly the Orthodox Jewish, community?
    Mr. Miller. So the first thing we did as these incidents 
began to rise, Congresswoman Clarke, was to increase the police 
presence in those neighborhoods and around houses of worship 
and in the areas where we were seeing the hate crimes. That was 
a combination of precinct personnel, house of worship 
personnel, specially-trained precinct personnel who can then 
literally change their uniforms and become counterterrorism 
officers and be placed out there because they do have that 
training, and that is a select group, as well as the CRC, which 
is the Critical Response Command. That is our forward-leaning, 
uniform counterterrorism force.
    We pushed all of that into those neighborhoods when this 
started, just as we pushed those forces toward mosques during 
the Christchurch attack, just as we pushed them toward 
Christian churches after the attacks in Sri Lanka.
    This is something that we are trying to get a handle on as 
to: Is it a trend, is it a fad, does it have an end? What we 
have seen is a disturbing uptick, and we are there.
    Ms. Clarke. In light--oh, sorry.
    Mr. Rose. Mr. Miller must leave to get his flight.
    Ms. Clarke. OK, sir.
    Mr. Rose. Thank you, Mr. Miller, and be safe on the flight.
    Mr. Miller. Thank you very much.
    Mr. Rose. Next, we are joined by General John R. Allen, co-
chair of the Homeland Security Advisory Council Subcommittee 
for the Prevention of Targeted Violence against Faith-Based 
Organizations.
    Finally, we have Mr. Paul Goldenberg, co-chair of that same 
advisory committee.
    We thank you, and we look forward to hearing your 
statement.

 STATEMENT OF GENERAL JOHN R. ALLEN, USMC, RETIRED, CO-CHAIR, 
    HOMELAND SECURITY ADVISORY COUNCIL SUBCOMMITTEE FOR THE 
      PREVENTION OF TARGETED VIOLENCE AGAINST FAITH-BASED 
       ORGANIZATIONS, AND PRESIDENT, BROOKINGS INSTITUTE

    General Allen. Thank you, Chairman Rose and Ranking Member 
Walker, Members of the subcommittee, and thank you for your 
leadership.
    As noted, my name is John Allen. I am a retired Marine and 
am more than slightly self-conscious that I am not from New 
York this afternoon.
    [Laughter.]
    General Allen. It is really a great pleasure to be before 
this subcommittee this afternoon and to be joined by Paul 
Goldenberg, who is my fellow co-chair in the Homeland Security 
Advisory Council Subcommittee on the Prevention of Targeted 
Violence Against Faith-based Organizations.
    We are exceptionally grateful for your continued leadership 
on this issue before us today, that of anti-Semitic violence, 
to include the threat of domestic terrorism, and are doubly 
appreciative of your support of our recently-released Homeland 
Security Advisory Council report, which I concluded, added to 
our submission for inclusion in the record.*
---------------------------------------------------------------------------
    * The document has been retained in committee files and is 
available at https://www.dhs.gov/publication/prevention-targeted-
violence-against-faith-based-communities-subcommittee-membership.
---------------------------------------------------------------------------
    This is a critical moment for your leadership, and it is 
shining through, but more needs to be done as a collective 
approach to this problem. It is a broader problem than just 
anti-Semitism, as we found in our research. But we focus on 
that today, and it is absolutely crucial that we have this 
conversation and future conversations of this kind.
    Let me turn the floor at this moment, since you have given 
us the latitude of doing a joint statement, to Paul Goldenberg, 
who will speak for the next several minutes on the nature of 
the threat that we face.
    Paul.

   STATEMENT OF PAUL GOLDENBERG, CO-CHAIR, HOMELAND SECURITY 
 ADVISORY COUNCIL SUBCOMMITTEE FOR THE PREVENTION OF TARGETED 
 VIOLENCE AGAINST FAITH-BASED ORGANIZATIONS, AND CHAIRMAN AND 
              PRESIDENT, CARDINAL POINT STRATEGIES

    Mr. Goldenberg. Thank you, General.
    Good afternoon, ladies and gentlemen, and let me mirror 
General Allen's thanks to you all. We are here today because of 
your leadership. I also do want to add to the record that I am 
from the State of New Jersey.
    Our recent mission with the HSAC tasked us with examining 
considering the rise in attacks against places of worship, the 
security of faith-based organizations across the country.
    In particular, the subcommittee we chaired was tasked to 
provide findings and recommendations on how DHS can best 
support State and local governments and faith-based 
organizations to keep houses of worship safe, secure, and 
resilient.
    Our final report, which was released just a month ago today 
details our findings and recommendations in full.
    Our work was significantly aided by the advice and counsel 
of representing offices and entities from across all of DHS, 
which has a vast array of highly dedicated men and women, and 
the broader U.S. Government, including the DOJ, the FBI, and 
the United States Secret Service.
    As alluded to earlier, I believe notable is that our 
members took to the field. We went to the field. We went to the 
ground visiting synagogues, mosques, temples, and churches, 
meeting with communities impacted by targeted violent attacks 
committed by some very heinous, violent extremists. These 
engagements were literally eye-opening, even for a very jaded 
senior former police officer from the State of New Jersey.
    Our Nation's faith-based communities are one of the few 
institutions that has the resources and the will to bring 
together people of contrasting political opinions, races, 
religions, and ages, uniting communities from a variety of 
backgrounds and interests, and offering a range of competencies 
not often found in a single community or organization or, for 
that matter, police force or government agency.
    They have the fundamentals to empower people, developing a 
sense of ownership among all members of the community. For 
some, they see it as an Achilles heel.
    Unfortunately, the question of whether faith-based 
communities and certainly the Jewish community is targeted by 
hatred and terror is not up for debate. Synagogues here and 
abroad remain targets.
    To the threat itself, the primary inspiration behind many 
of these targeted violent attacks is to force us to not merely 
question our fundamental safety and security, as well, our 
ability to protect our Nation, neighborhoods, families, and to 
look to change our behaviors.
    Success in the eyes of these domestic terrorists comes when 
we retract from our daily routines, ways of living, and even 
spiritual and political beliefs. We need to further explore the 
impact of these hate-filled messages with public trust.
    As well, as the attacks perpetrated from white violent 
supremist actors and other similar separatists and violent 
extremist groups grow in number, we should all be concerned 
that an adverse public reaction may generate something that 
these violent extremists could never have achieved on their 
own.
    This complex psychological progression becomes an enabling 
tool for those who seek to derail our way of life. Indeed, 
citizens immunized against the psychological influence of 
targeted violence and terrorism have a much greater ability to 
resist such manipulation. That is our perspective and that was 
our mission within the HSAC.
    I would like to now turn it over to General Allen to 
discuss the recommendations for how we respond to these 
threats.
    General.
    General Allen. So, ladies and gentlemen of the 
subcommittee, and thank you, Paul, what he has described is no 
ordinary threat. It is a National security issue for the United 
States, and it is a threat to our way of life.
    That is the truth, plain and simple, and I think the 
testimony of the first panel, that of Mr. Miller, that of what 
we discovered in the course of our research for this report, it 
substantiates the nature of this threat.
    Nevertheless, we are not here today to admire the problem. 
We are here to discuss what we can do about it. To that end, 
much of this is reflected almost verbatim from our recent 
report.
    We need to be thinking about these issues at a strategic 
level and have a tactical framing as well or rather there are 
efforts that can be undertaken at the National level, with the 
Congress and the administration leading the charge, but there 
are also many efforts that can be undertaken at the local level 
also.
    Our report contains 46 recommendations overall, and we lay 
out 7 key recommendations in the executive summary in response 
to the unique nature of the issue, and we are happy to go into 
greater detail during the Q&A.
    I would add a bit of personal framing from my own 
experience in counterterrorism. We looked at how communities 
can prepare themselves prior to the terrorist incident or the 
attack, what we call to the left of the incident.
    We looked at how communities can prepare and react to the 
incident itself during its course, what we sometimes call ``at 
the bang.''
    We also talked about and researched what can be done on the 
other side of the incident, the right of the incident where 
resilience and reconciliation and recovery is essential.
    We looked to those measure across all of those, and at the 
point to the left of the incident, before it occurs, many 
preventive measures are available to these communities, and 
here consistent training and community outreach, which we have 
discussed already in the first panel, especially between State 
and local law enforcement officials and first responders is 
essential with our faith-based communities.
    At the incident itself, at the attack, there are protective 
measures which can range from deployment of protective security 
advisors to increased coordination with responders and, of 
course, increased defensive capabilities hardening the 
infrastructure within the communities themselves.
    In this category, funding, especially through the FEMA and 
Nonprofit Security Grant Program is crucial, and I have to 
commend this committee and the Congress for not just enlarging 
that funding, but being open to a discussion to increase it 
even more.
    Finally, to the right of the incident, after it has 
occurred, this can include anything from resiliency efforts 
with the community to efforts focused on healing and 
reconciliation as well as justice and accountability.
    It is the response with social workers and community 
advocates and law enforcement and healers playing such an 
important role alongside our police and first responders, as 
well as civil leadership and legislators.
    It is that response that can carry the community through 
the trauma of that attack and to some form of normalcy in the 
aftermath.
    Very importantly, I said legislators because I believe that 
for the Congress it means 3 things, and this is a personal plea 
as much as it is a recommendation from the co-chairs of the 
subcommittee.
    First, I believe that no other body today in the United 
States can maintain focus on this threat and protection of our 
faith communities as can the U.S. Congress. You are of the 
people. You represent the people, and your attention on this 
matter, as evidenced by today, is extraordinary and your 
attention continuing into the future will be absolutely 
essential.
    Second, you have the power of the purse, and there is a 
need for increased funding, not just in the form of grants, but 
increased assistance to law enforcement at all levels.
    Third, our laws. We have talked a lot this afternoon about 
proposed legislation and legislation that is in the process of 
being enacted. I could not more strongly associate myself with 
all of that conversation because we have to have the laws to 
hold those accountable when they perpetrate these kinds of 
crimes.
    But there needs to be a formal discussion, a full 
discussion on the nature of a domestic terror law. I believe we 
have reached that point in this emergency where we not only 
talk about a domestic terror law, but we also talk about 
designating domestic terror organizations and domestic 
terrorists themselves.
    It is an unsettled conversation. We have not found our way 
to a final conclusion, and there are complexities about this 
associated with the First Amendment and Constitutional rights 
and civil rights, which are fraught, but we have to have this 
conversation now given the uptick in the violence against the 
Jewish community, but the other communities, communities of 
color, the Muslim communities, the Sikh and the Hindu 
communities, our black communities in the context of the 
Christian Church.
    We have to have these conversations, and I believe it is 
the time now to have that conversation about whether we have a 
domestic terror law and domestic terror designations.
    With that I will turn it back to Paul for his closing 
remarks.
    Mr. Goldenberg. Thank you, General.
    As the list of recent attacks against American faith-based 
communities grows almost daily, we have seen a rekindled call 
for domestic terrorism laws, as the general just referred to, 
to provide Federal law enforcement agencies similar tools that 
are available to combat targeted violent attacks by 
international terrorist, and I think we heard that several 
times today from the law enforcement experts. It has been 
resonating.
    Many believe that these bills specifically would provide 
required resources to Federal law enforcement officials, some 
of which have indicated they do not possess the suitable 
tools----
    Mr. Rose. Mr. Goldenberg, my apologies. We have stretched 
this. We have to vote right now. So what we are going to do is 
the committee is going to stand in recess to allow Members to 
vote on the floor, and the committee will reconvene 10 minutes 
thereafter, and we will continue this very, very important 
conversation.
    Thank you.
    [Recess.]
    Mr. Rose. My sincerest apologies, again. We will get 
started.
    General Allen, when I was speaking with him a few hours ago 
and he introduced himself to me and I to him, he said, ``I 
believe that we served together at one point,'' which is 
officially going down as the greatest understatement in the 
history of my life.
    So but thank you again, and we will let your testimony 
continue.
    Mr. Goldenberg. Thank you. Thank you, Congressman.
    So in closing, as the list of recent attacks against 
American faith-based communities grows, we have seen a 
rekindled call for domestic terrorism laws to provide Federal 
law enforcement agencies similar tools that are available to 
combat targeted violence, attacks committed by international 
terrorists.
    Many believe that these bills specifically would provide 
required resources to Federal law enforcement officials, some 
of which have indicated they currently do not possess suitable 
tools for addressing domestic terrorism, and we are happy to 
talk about that a little bit more in the Q&A.
    But to close, faith-based, non-government organizations, as 
we all know, extend far beyond faith, spiritual care, health 
and human services. They are an important component of a 
collective and cooperative homeland security effort.
    Faith-based and non-governmental organizations own and 
operate infrastructure that remains vulnerable to attack, 
provides direct support in response to our Nation's worst 
natural and man-made disasters, and provides vital resources 
and services to tens of millions of Americans every day.
    By educating lay leaders, community members, sharing 
critical real-time information, and by more effectively working 
with our law enforcement partners, they will have the 
fundamentals to empower themselves, developing a sense of 
ownership among the whole community.
    Every recommendation that General Allen discussed today, to 
include what is encompassed in our HSAC report, is sourced in 
that reality and that framing.
    Finally, let me say that having had the honor and privilege 
of working with our current Acting Secretary Chad Wolf over the 
years, I could not possibly recount the number of times that he 
has pushed on these issues and with me personally as well.
    General Allen noted in his statement that the importance of 
being seized at this moment and this topic is more significant 
and critical than ever. That is certainly the case for Acting 
Secretary Wolf, and I can personally attest to his passion and 
care in fighting for progress and support of our faith-based 
communities.
    With that we will close. General Allen and I welcome your 
comments and questions, and thank you for the opportunity to 
speak on this most important and critical issue.
    [The joint prepared statement of General Allen and Mr. 
Goldenberg follows:]
 Joint Prepared Statement of General John R. Allen and Paul Goldenberg
                            15 January 2020
[John R. Allen]
    Chairman Rose, Ranking Member Walker, and Members of the 
subcommittee--good afternoon. As noted, my name is General John Allen, 
and it is a great pleasure to be here before you this afternoon, and to 
be joined by Paul Goldenberg, my fellow co-chair of the Homeland 
Security Advisory Council Subcommittee on the Prevention of Targeted 
Violence Against Faith-based Communities. We are exceptionally grateful 
for your continued leadership on the issue before us today--that of 
anti-Semitic violence, to include the threat of domestic terrorism--and 
are doubly appreciative of your support of our recently released 
Homeland Security Advisory Council report. In this critical moment, 
your leadership shines through--thank you.
    Paul and I will be giving a joint statement this morning and thus 
will speak to different portions of our testimony over the next 10 
minutes. We request this statement be entered into the record and 
afterward look forward to answering your questions. With that, let me 
turn it over to Paul for a recap of our mission with the Council, as 
well as our assessment of the current threat facing faith-based 
communities today.
[Paul Goldenberg]
    Good afternoon, ladies and gentlemen. Let me mirror General Allen's 
thanks--we're here today because of your leadership. You would be hard-
pressed to find a more pressing topic, and it our privilege to speak to 
you all today, and to bring to life the very real threat facing our 
faith-based communities, including those of an anti-Semitic nature.
    To recap, our mission with the Homeland Security Advisory Council 
began on May 20 of last year, when then-Acting Secretary Kevin 
McAleenan tasked us with examining, considering recent attacks against 
synagogues, churches, temples, and mosques, the security of faith-based 
organizations across the country.
    The subcommittee we had the honor of co-chairing was tasked to 
``provide findings and recommendations on how DHS can best support 
State and local governments' and faith-based organizations' efforts to 
keep houses of worship safe, secure, and resilient.''
    Our final report--which was released almost exactly a month ago on 
December 17--followed the tasking letter of then-Acting Secretary 
McAleenan, who requested we examine 3 areas or taskings:
    Tasking One.--Ensuring two-way information flows between DHS and 
faith-based organizations.
    Tasking Two.--Evaluating preparedness and protective efforts for 
the faith community.
    Tasking Three.--Evaluating the role the faith-community could/
should have in locally-based prevention efforts.
    A fourth tasking was also added by the then-Acting Secretary 
following a public hearing in Jackson, MS, chaired by Congressman 
Bennie Thompson, Chair of the House Committee on Homeland Security.
    Congressman, it's great to see you again today.
    Thus, Tasking Four came to be, which reads--Evaluate the adverse 
impacts that violent extremists and domestic terrorists, including 
those inspired by violent white supremacy ideologies, have on faith-
based and other vulnerable communities.
    Our work was significantly aided by the advice and counsel of at 
least 20 SMEs and witnesses, representing offices and entities from 
across DHS and the broader USG, including DOJ, FBI, USSS. As alluded to 
earlier, and I believe notable, is that our members also took to the 
field visiting synagogues, mosques, temples, and churches, meeting with 
communities impacted by targeted violent attacks committed by violent 
extremists.
    These engagements were eye-opening, and as someone who has proudly 
served as a member of the law enforcement community--I have personally 
come to recognize that our Nation's faith-based communities are one of 
the few institutions that has the resources, the will--to bring 
together all age groups, people of contrasting political opinions, 
races, religions, who can unite communities from a variety of 
backgrounds and interests, offering a range of competencies not often 
found in a single community organization, police force, or Government 
agency. They have the fundamentals to empower people, developing a 
sense of ownership among our whole community.
    Nonetheless, and most unfortunately, we're here today because a 
growing number of bad actors have opted to set their sights on the very 
soul of America--our communities of faith.
    Today--throughout Europe, countless houses of worship are 
surrounded by crack military troops standing guard with automatic 
weapons, reinforced by heavy armored personal carriers, guard towers 
augment the once stately and welcoming entryways, flower beds swapped 
for barbed wire; at a cost of hundreds of millions of Euros producing a 
dreadful impact on the psyche of Europe's people.
    For Europe has become--America's canary in a mine . . . 
    The question of whether the faith-based community--and certainly 
the Jewish community--is targeted by hatred and terror is not up for 
debate. Houses of worship, here and abroad, remain targets. In this 
country, both law enforcement and communities of faith recognize this 
unique reality and are pursuing proactive steps to link the mission of 
the Department of Homeland Security and the Nation's million-plus first 
responders, with the concerns of faith-based institutions.
    To the threat itself, the primary inspiration behind many of these 
targeted violent attacks is to force us to not merely question our 
fundamental safety and security, as well as our ability to protect our 
Nation, neighborhoods and families, but to change our behaviors.
    It is with this in mind that we are talking about this in a 
domestic terrorism context.
    Indeed, success in the eyes of domestic violent extremists and 
international terrorists comes when we retract from our daily routines, 
ways of living and even spiritual and political beliefs. One 
underestimates the power of fear at his or her own risk. The effects of 
extremist manifestos, threats, and plans for violent actions are now 
routinely shared on social media sites such as 4chan, 8chan, and these 
efforts are strategically calculated on the part of these bad actors 
and can have a long-lasting and deeply destructive effect on our 
communities.
    We have come to learn that the goal of violent extremists is often 
not just to cause loss of life--nevertheless, more perilously, it's to 
wear us down, psychologically, emotionally and spiritually, causing our 
endurance, determination, and morale to decay and ultimately disappear. 
That dynamic was readily apparent across the communities we engaged 
with, regardless of whether they had personally experienced targeted 
violence or threats.
    As attacks perpetrated from white violent supremacist actors and 
other similar separatist and violent extremist groups grow in number--
and they have been growing at an alarming rate--we should be concerned 
that an adverse public reaction may generate something that these 
violent extremists could never have achieved on their own.
    This complex psychological progression becomes an enabling tool for 
those who seek to derail our way of life. Citizens immunized against 
the psychological influence of targeted violence and terrorism have a 
greater ability to resist such manipulation--we cannot allow this to 
happen.
    If violent extremists believe that their assault on our communities 
of faith is not likely to create mass chaos and fear and a subsequent 
unraveling of the values of our people to an extent that it damages the 
bond between a government and its citizens, they may have less reason 
to waste their resources on such an attack. If our faith communities 
and workforce are provided resiliency and preparedness training and are 
convinced the measures we will take in preparation will increase the 
odds of survival and successfully coping with a catastrophic event, we 
are then more likely to internalize personal preparedness as necessity 
rather than commodity.
    That was our perspective, and our mission, within HSAC. Let me now 
turn it back to General Allen to discuss our recommendations--the tone 
of which I just previewed--for responding to this threat.
[John R. Allen]
    Thank you, Paul. Ladies and gentlemen of the subcommittee--what 
Paul just described is no ordinary threat. It's a National security 
issue for the United States, and a threat to our way of life. That's 
the truth, plain and simple, and it cannot be overstated.
    Nevertheless, we're not here today to simply admire the problem--
we're here to discuss what we can do about it. To that end, and much of 
this is reflected almost verbatim in our recent report, we need to be 
thinking about these issues within a strategic--as well as a tactical--
framing. Or, rather, there are efforts that can be undertaken at the 
National level--with Congress and the administration leading the 
charge--and there are efforts best handled by our local communities.
    Our report contains 46 recommendations overall, but we lay out 7 
key recommendations in response to the unique nature of this issue, and 
we're happy to go into greater detail on those specifics during Q&A.
    To add a bit of personal framing however, the way I've described 
much of this--and some of this comes from my prior service in the U.S. 
Marine Corps--is the left, right, and center of ``bang,'' with the 
``bang'' being a violent event, which here we'll call ``the incident''.
    Measures to the left of the incident are what we'd describe as 
preventative measures. Here, consistent training and community outreach 
are key, especially between State and local law enforcement and our 
faith-based communities.
    At and during the incident itself--these are protective measures, 
which can range from the deployment of Protective Security Advisors to 
increased coordination with first responders and, of course, increased 
defensive capabilities for the communities themselves. In this 
category, funding--especially through the FEMA Nonprofit Security Grant 
Program--is crucial, particularly in the context of buying those 
precious moments before law enforcement is able to arrive on-site and 
intervene. Let me pause to thank you, the Congress, for putting more 
funding behind this truly essential program.
    Finally, right of the incident. This can include anything from 
resiliency efforts within the community, to efforts focused on healing 
and reconciliation, as well as justice and accountability. It's the 
response--with social workers and community advocates playing as much a 
role as law enforcement and legislators.
    It's that last point--the role of legislators--that I'll focus on, 
however. For you, the Congress, this means 3 things, in my mind. This 
is as much a personal recommendation as it is framing from our time as 
co-chairs with HSAC.
    First, in many respects, during this very difficult time in our 
history, the Congress may be our last best hope to address these urgent 
matters, and your being seized with this matter, ladies and gentlemen, 
is essential to the preservation of the social fabric of the American 
society. Thus, your leadership, as exhibited today, is crucial. 
Increasing violence against our faith communities is an emergency and 
deserves to be treated as one. This issue needs greater attention, and 
Congress is best-situated to keep it in the public eye. I'll leave it 
at that--it could not be more important.
    Second, Congress of course has the power of the purse. In addition 
to what was described in the report recommendations, our faith-based 
communities need more resources to invest in a wide variety of 
preventative and protective measures and capabilities. This can come in 
the form of the grants I mentioned. Quite simply, our faith-based 
communities need to be better-resourced and these grants are the best 
way of realizing a solution. Separately, but related, our Nation's law 
enforcement and first responders are stretched thin. They're doing what 
they can, in supporting both preventive and protectives measures for 
our faith communities but are also badly in need of additional 
resources.
    Finally--our laws. The deterrent and protective nature of increased 
legal clarification and accountability surrounding the domestic terror 
threat, and those who pursue such acts, cannot be overstated. We did 
not in our report delve into a specific law--namely, a domestic terror 
law, or a domestic terror designation for individuals or groups--but I 
believe the time has come for a very serious debate on this measure, 
and it's something worth discussing. We do discuss the need for 
defining domestic terrorism in our report, at the very least within the 
DHS and DOJ. That's essential. DHS's new Strategic Framework undertakes 
a good start on this, but we must see this through.
[Paul Goldenberg]
    Thank you, General.
    As the list of recent attacks against American faith-based 
communities grows, we have seen a rekindled call for domestic terrorism 
laws to provide Federal law enforcement agencies similar tools that are 
available to combat targeted violent attacks committed by international 
terrorists. In the late 1980's I was appointed the Nation's first chief 
of a State Attorneys General Office dedicated to the investigation and 
prosecution of hate crime and ethnic terrorism.
    Back when we had scarce laws on the books addressing these issues, 
it was quite challenging for my detectives when deployed to synagogues, 
churches, and Asian Indian temples across the State experiencing 
attacks against their institutions, intimidation, desecration of 
cemeteries, assaults, these horrific criminal acts terrorized whole 
communities--however, they were hard to prosecute as serious offences 
as we had no laws codifying a hate crime as a felony act, thus making 
resources, training, and requests for additional personnel quite 
challenging. It was extremely difficult to travel to these communities 
and explain to them why these offenders were not in jail.
    Many believe that these bills--domestic terror laws, specifically--
would provide required resources to Federal law enforcement officials, 
some of whom have indicated that they do not possess suitable tools for 
addressing domestic terrorism. In some hate crime cases prosecutors 
have had to seek out several Federal statutes to use against those who 
have engaged in apparent domestic terrorist activities. Others have 
indicated that laws already on the books are adequate to address 
targeted violence against religious institutions that come to mind when 
discussing domestic terrorism--the real challenge for law enforcement 
is that these charges can be filed only after these violent extremists 
complete or attempt acts of violence.
    Coming from State law enforcement I recognize that these State laws 
often include attempt and conspiracy provisions, however, local and 
State law enforcement agencies commonly lack the resources to conduct 
these complex and long-term investigations. I'm happy to speak more to 
this issue in Q&A.
    But to close, faith-based and nongovernmental organizations extend 
far beyond faith, spiritual care, and health and human services; they 
are an important component of a collective and cooperative homeland 
security effort. Faith-based and nongovernmental organizations own and 
operate infrastructure that remains vulnerable to attack, provides 
direct support and response to our Nation's worst natural and man-made 
disasters, and provides vital services to tens of millions of Americans 
every day. These include vast networks of organizations and operations 
with facilities, capabilities, and processes on a massive scale that 
need to be more integrated into our collective homeland security 
efforts.
    During times of crisis and other homeland security events, it is 
neighborhood congregations, community outreach centers, social service 
agencies, and other community organizations--the very fabric of 
America--that are best positioned to become critical partners in local 
and National homeland security initiatives. Every recommendation 
General Allen discussed, to include what is encompassed in our HSAC 
report, is sourced in that reality and framing.
    These communities--America's bedrock, if you will--can only do so 
much on their own. They simply need the resources and training to make 
it a reality. DHS--and really the entire USG--can offer them this, and 
we'll be significantly safer as a result.
    Finally, let me highlight that roughly halfway through our 
research, then-Acting Secretary McAleenan unveiled the Department's 
Strategic Framework for Countering Terrorism and Targeted Violence. 
Drawing on this document, our recommendations were intended to advance 
the goals set forth in the Strategic Framework, namely, to ``understand 
the evolving terrorism and targeted violence threat environment, and 
support partners in the homeland security enterprise through this 
specialized knowledge''; ``prevent terrorism and targeted violence''; 
and ``enhance U.S. infrastructure protections and community 
preparedness.''
    This document also made it very clear that while there were still 
significant sources of foreign terrorism against which we must guard, 
the principal source of domestic terror has been and increasingly comes 
from violent white supremacist movements, and these movements are a 
direct threat to our American faith communities. This is incredibly 
important, and I'd be remiss in not highlighting how foundational this 
document can be, assuming it is internalized and acted upon. As well, 
Kevin McAleenan's leadership on this issue was significant, and he 
should be commended for putting this document out in the public realm 
for debate and iteration.
    Let me also say that in having had the honor and privilege of 
working with our current Acting Secretary Chad Wolf over the years, I 
could not possibly recount the number of times he has pushed on this 
issue. General Allen noted in his statement the importance of being 
seized with this moment, and this topic. That is certainly the case for 
Acting Secretary Wolf, and I can personally attest to his passion and 
care in fighting for progress in support of our faith-based 
communities.
    With that, we'll close. General Allen and I welcome your comments 
and questions. Thank you for the opportunity to speak on this important 
issue.

    Mr. Rose. Thank you again for your testimony.
    I will now yield to one of the fiercest fighters against 
anti-Semitism in the country, Congressman Josh Gottheimer of 
New Jersey.
    Mr. Gottheimer. Thank you, Mr. Chairman.
    General, thank you for being here. Mr. Miller, thank you 
for being here. I am honored to have you both in our presence.
    General, do you think it would be helpful if we had a 
domestic terror law?
    I have a piece of legislation that I am working on that I 
introduced in a bipartisan way last Congress which freezes the 
assets of domestic terrorists called the FASTER Act.
    Do you think that would be helpful in our fight against 
ISIS-inspired home-grown terrorists and other home-grown 
terrorists in the United States?
    General Allen. Yes. I do not think there is any question. 
That is my opinion.
    It was not an opinion that we expressed in the report. In 
the report we made the point that this is an issue that needs 
to be thoroughly debated because, on the one side, it gives us 
the tools that you have discussed, Congressman. On the other 
side, there are concerns about civil rights.
    That conversation needs to be had because it is not 
settled. I happen to believe that we should have both the 
domestic terror law, and we should have the capacity to do 
designations of domestic terrorists as well.
    Mr. Gottheimer. Thank you, General.
    In what cases do you think it would be best utilized?
    In your important work that you are doing right now in 
Homeland to fight anti-Semitism, how do you believe it could 
actually be utilized to help protect our country?
    General Allen. Well, obviously, those individuals who are 
organized in a manner that will employ violence as an extension 
of their extreme ideology, there should be a price to be paid 
for that.
    There should also be a price to be paid for those in the 
same context as Foreign Terrorist Organization designations for 
those that provide material support to those kinds of 
organizations as well.
    As a commander overseas, fighting both the Taliban and al-
Qaeda in Afghanistan, one of the great assets that I had was 
the Foreign Terrorist Organization designation. This terrorist 
threat is no less a threat now in the United States, as 
American descend upon Americans and inflict terror in enormous 
quantities upon various communities.
    Having that legal mechanism both in terms of freezing 
assets, limiting travel, penalizing those who provide material 
support to this kind of a group, as well as designating 
individuals, I think that gives us another tool in the toolbox 
to deal with these people.
    Mr. Gottheimer. Excellent. Thank you, General.
    Either one of you might take this one. This builds on the 
FTO designation, General.
    One thing that Chairman Rose and I have worked on together 
with others in a bipartisan way is fighting the massive spread 
of terror on-line, which, you know, through social media has 
been now used as a tool to recruit, as you know, not just 
around the world, but at home.
    One thing we have been concerned about it the spread, and 
Facebook has taken a lot of steps, and we worked pretty closely 
to try to encourage Twitter to do the same, but these handles 
go up every single day. It is hard to stay ahead of them.
    We know it is being used as a tool in their arsenal, the 
terrorists, against us, and those who have Foreign Terrorist 
Organization designations should not be allowed, in our 
opinion, in my opinion, to post on-line, to have handles, to be 
on Facebook, to be on YouTube.
    So either one of you, and, General, maybe you start, and 
your thoughts on that.
    General Allen. Well, you know, the entire cyber domain in 
which so much of the world operates now, you have the cyber 
domain and the physical domain. We are in the physical domain 
at the moment.
    But the cyber domain, just as I mentioned that there is the 
capacity under the Foreign Terrorist Organization designation 
to limit the movement of terrorists in the physical domain by 
limiting their capacity to travel, having the capacity to limit 
the movement of domestic terrorists in the cyber domain by 
limiting their access by law to certain social platforms is a 
different way of thinking about this.
    Mr. Gottheimer. Right.
    General Allen. I think we need to think in those terms.
    In the cyber domain there are no boundaries. There are no 
borders. Sovereignty has an entirely different meaning than it 
has had traditionally, and when domestic terrorists victimize 
elements of our population and move with impunity from one 
platform to another, we should be thinking in those terms.
    This is a different kind of sovereignty. This is a digital 
sovereignty, and we should be confining and limiting their 
capacity to move across the cyber domain and use that domain as 
the mechanism and the platform to victimize our population.
    Mr. Gottheimer. Excellent. I really appreciate it.
    Mr. Miller, I am sorry I am more limited on the clock here.
    Mr. Rose. Take your time.
    Mr. Gottheimer. Thank you.
    Mr. Miller.
    Mr. Goldenberg. Goldenberg.
    Mr. Gottheimer. Oh, I am sorry, Paul. Sorry about that.
    Mr. Goldenberg. From New Jersey, by the way.
    Mr. Gottheimer. Where in Jersey are you from?
    Mr. Goldenberg. Well, I grew up Essex County, but now down 
in Monmouth County.
    Mr. Gottheimer. Really? By the shore, huh? Excellent, 
terrific.
    General Allen. I am not feeling self-confident, yes.
    [Laughter.]
    Mr. Gottheimer. I love that. I love Jersey, yes.
    Mr. Goldenberg. Let me share, if I can----
    Mr. Gottheimer. Thank you.
    Mr. Goldenberg. I will do it very quickly, a very quick 
story.
    Mr. Gottheimer. Sorry, Mr. Goldenberg. I apologize.
    Mr. Goldenberg. How many of you have heard of Whitefish, 
Montana?
    All right. Hopefully, you will Google it when we are done.
    Whitefish, Montana is a pristine, beautiful place. It is 
actually pretty magical. It sits on the side of a mountain 
amongst some very good people. Whitefish, Montana is a 
population of 8,000, 126 Jews.
    Two Hanukkahs ago, I received a phone call from a Rabbi 
Ralston. Rabbi Ralston said to me, ``What do we do here? My 
son's photo, the photo of Tonya Gersh, who is a local realtor 
in town who got into some--there was a situation between 
herself and Richard Spencer's mother,'' and Richard Spencer who 
I am referring to at that time was an individual that was very 
proactive in certain ideologies.
    There are folks that placed the families, the sons, the 12- 
and 13-year-old children on the internet, and they put not a 
swastika, a Star of David with ``Jude'' across the chest of the 
children and trolled these children and calling for an armed 
insurrection against the Jews of Whitefish.
    It was literally one of the most heinous acts that I have 
seen. As a former law enforcement executive myself, I know 
that--and I use the word ``jaded''--that if someone took one of 
my children's photos or the photos of one of my grandchildren, 
that would have a huge impact and would put terror and fear 
into my heart.
    Here is the problem. No one was arrested. No one was 
prosecuted. Quite frankly, this is not a criticism, but the 
local attorney general's office, prosecutor's office, the State 
attorney general's offices, the State investigative bureaus, 
they were not quite sure how to handle such a thing.
    But here we had a Jewish community literally rethinking 
whether they stay put in a beautiful, pristine place such as 
Whitefish.
    Now 2\1/2\, almost 3 years later, they stayed. They are 
there. They are stronger than ever. They received tremendous 
support from the local citizenry of all colors and religions.
    But the fact of the matter is that it was not a clear 
margin, and that is something that I think we have to have a 
real tough talk, not only with those that are propagating these 
types of threats, terrorist threats, but that is a conversation 
probably for DOJ and Bureau and other Federal agencies to sit 
down and explore and determine what do we do and where is the 
line drawn on events or incidents such as that.
    Mr. Gottheimer. Thank you, Mr. Goldenberg. I really 
appreciate it. Thank you both for your time today.
    I yield back. Thank you.
    Mr. Rose. Thank you.
    Next is Congressman Ted Deutch from the fantastic, great 
State of Florida.
    Mr. Deutch. Thanks very much, Mr. Chairman. Thanks for 
allowing me to join your panel.
    General Allen and Mr. Goldenberg, I am most grateful for 
your efforts here, for choosing to focus on these issues.
    I just wanted to follow up on just a couple of things that 
you were both speaking about.
    General Allen, when you talk about cyber, we have 
conversations regularly about social media companies and the 
responsibility for social media, that social media companies 
should have. You touched on that a bit.
    I wanted to actually talk about what we do not often talk 
about, which is those who use those companies to draw people 
into the dark web and the kinds of things that happen there and 
the violence that is promoted there.
    I just wonder if either of you have thoughts on how to 
actually combat those kinds of efforts, and I will ask that 
question, and then, Mr. Goldenberg, I will follow with you.
    Mr. Goldenberg. The good news/the bad news is we have come 
so far out of the dark web we are not even in the dark web. 
When I say that, it is out of the dark web. The domains that 
are being used now, it is across the spectrum. It is 4chan, 
8chan, Reddit.
    I mean, I could rattle off. I know that the head of the ADL 
today did a very eloquent job describing some of the concerns 
and the threats that are coming from these very dark places.
    The problem is, and the general knows this better than 
anyone when he saw how a very I do not want to say 
unsophisticated group, but a group that came together and 
became very sophisticated very quickly, and people literally 
woke up one day and said, ``How did ISIS get here?''
    I say to them humbly because the person that was 
responsible for the fight is sitting to my right, but it did 
not just get here, and the level of threat, the level of 
concern that we should have as a Nation, the concern is what we 
are not seeing. It is what we are not seeing.
    I have a young 26-year-old research person that 
continuously reminds me of what I am missing out there, and 
when you ask for a show of hands within various law enforcement 
communities and say, ``How many of us know what 4chan is or 
8chan?'' it is unfortunate that we do need to know about these 
things because people are putting their manifestos out there.
    They are laying out their plans out there, and at minimum, 
and I am not talking about First Amendment; I am talking about 
when people are planning and plotting to kill or maim or 
destroy because of color of skin or religion, et cetera.
    So we do need to be deeply concerned.
    Mr. Deutch. Finally, Mr. Chairman, if I might, when you 
recount the story from Montana, from Whitefish, the community 
never could have imagined what happened to them.
    The community in Squirrel Hill never could have imagined 
what would befall them and the deadliest attack on the Jewish 
community in America's history.
    The Chabad in Poway never could have imagined, and 
certainly no one in New York could have imagined, certainly 
could never have imagined a machete-wielding attacker walking 
in during a Hanukkah celebration.
    But people also could not have imagined that Jews would be 
attacked as Jews, because they are Jews, on the streets in some 
cases every day.
    If you could, I guess as we round this out, if you could 
just speak to the terror--and I ask both of you, General Allen, 
given your experience--the terror that that creates in that 
community, in this case the Jewish community, but ultimately 
why it is that the broader community, that America as a whole 
ought to be genuinely worried about that.
    General Allen. I think we have to do better obviously at 
the level of our education of our children, about how 
intolerant we should be of hatred and how we should create an 
environment of education that prizes and celebrates the 
diversity of our community and how civility has to shoot 
through all that we do.
    It has to be at the strategic level something about the 
shaping of the education of our children. It has to be about 
what kinds of behaviors we will tolerate.
    Absent the kinds of strategic measures that can be taken or 
the policies that can be enacted or the legislation that can be 
passed, we leave large gaps in the field to be filled by those 
dark forces that will find themselves able to operate with 
impunity.
    In the battlefield of Iraq, those areas that we did not 
control, we called them the coldest space in the room, and that 
was where the enemy would accumulate.
    Those areas that are not regulated, those areas that do not 
have policy that attach themselves to it, those areas that do 
not benefit from education, it creates cold spots within which 
those kinds of communities can accumulate.
    Let me go back to the cyber piece a minute because this has 
really given the capacity for isolated individuals and isolated 
groups to be joined together in a common cause of hatred in 
ways that we have never seen before.
    It has both increased the surface area of these groups; it 
has increased the magnitude of the hate within the groups; and 
it has accelerated the capacity of these groups to take action.
    Often in the world that I live in now, we talk about 
artificial intelligence and emerging technologies constantly, 
and one of the challenges that we have, and this is the unique 
role of the Congress, sir. You have been deeply involved in 
this, and we are all grateful for your leadership.
    But the reality is that technology is moving so fast that 
policy and legislation is always in trail, and sometimes it is 
years behind.
    I just tried to describe a few minutes ago that the cyber 
environment in which this hate occurs and within which the 
connectivity can be affected and by which the actions can then 
come back out in the physical community in school shootings or 
in attacks on Jewish communities, that is the physical 
manifestation of the things that are occurring in the cyber 
domain.
    Yet this is so new to us as a people that we have yet to 
understand that the technology is moving so quickly that the 
kinds of legislation and policy necessary to regulate that is 
far behind.
    So we scratch our heads when we wonder why the social media 
platforms are not taking the steps necessary. They are all 
technicians. So it requires that the American people through 
their elected representatives understand that unless we can 
generate the kinds of controls and legislation of policy 
necessary to gain control of the cyber domain just as we have 
them for the physical domain, we will still be scratching our 
heads because we are watching actions and behaviors and levels 
of hatred unfolding in the cyber domain that we could never 
have imagined in the physical domain because they were isolated 
from each other. Now they are joined together.
    They are not just joined together in the United States. 
They are joined together with the groups overseas, and added to 
that, not just the white supremacist organizations in the 
United States joining with those overseas. The strategic 
influence campaign of the Russians is aiding this as well.
    So it is not just group to group. It is the explicit state 
policy of the Russian government to interfere in the democracy 
and in the civil society of the United States. These actions 
together constitute a direct threat to the National security of 
the United States.
    But much of it is occurring in the cyber domain right up to 
the point where it becomes a physical threat, and then we are 
behind the power curve.
    A final point. Sorry. Just as technology has given the 
capacity for these groups to amass and attack, there are 
technologies out there today, some young groups, small start-
ups with exquisite algorithms, with the capacity to find these 
organizations in cyber space because of the memes that they 
use, because of the code words that they employ. They leave a 
cyber trail.
    The capacity, and this is what is very, very important, and 
we had this conversation with the Acting Secretary on Monday, 
an extended conversation. He has taken our report and handed it 
to his Department and given them 2 weeks to come back for an 
implementation plan for the recommendations.
    That is extraordinary leadership from my perspective. They 
are going to get after this. Part of it has got to be that we 
must aggressively leverage the advances in technology right now 
that the enemy is using, and the enemy is walking amongst us; 
that the enemy is using to victimize and attack and kill our 
faith-based organizations and faith-based communities, but more 
broadly the American public.
    Mr. Goldenberg. May I just--and I know----
    Mr. Rose. Please, take as much time as you need.
    Mr. Goldenberg. I have just spent almost the last almost 
decade but the last 3 years through Rutgers University. We are 
working transnationally and out of Jewish communities across 
all of Europe, and I do not know how many of you have traveled 
to Europe as of late, but in many cases in Germany and in 
Netherlands and in France and in Sweden and in other parts, you 
cannot go into a synagogue without crack military troops with 
long rifles and sandbags in some cases greeting you and barbed 
wire greeting you at the entranceway.
    These are democratic, wonderful institutions, many of which 
have survived World War II. So that is a canary in a mine and 
probably very much a place that we never want to get to here in 
the United States.
    So these types of works, these collaborative works between 
DHS and other Federal agencies and the communities is probably 
more critically important today than ever.
    Thank you for the opportunity to speak.
    Mr. Deutch. Thank you, Mr. Chairman. My time has long past 
expired, but I want to thank the witnesses.
    At a moment when the large Jewish community I represent, 
Jewish community all throughout America feels under threat, it 
is real leadership that you have shown in calling this hearing 
with these witnesses to help elevate this issue to the level 
that is deserves, and I am most grateful to you.
    Mr. Rose. Thank you, sir, and thank you for everything that 
you have done for so many years on this issue.
    Two pieces of legislation I would like to bring to your 
attention that we are working on or two projects. One is 
designating global Neo-Nazi organizations as FTOs, particularly 
Azov Battalion, Nordic Resistance, National Action, and Simon 
Creek.
    The second is the Raise the Bar Act. There should be an 
integrated partnership between the Department of Homeland 
Security as well as university-entrusted flaggers to on a 
quarterly basis measure how well social media companies fulfill 
their own codes of conduct as it relates to getting terrorist 
content off of their platforms.
    These are two pieces of legislation that we would like to 
actively work with you on, and I believe based off your 
testimony, it seems as if they are much needed. Would you 
agree?
    General Allen. Absolutely agree.
    Mr. Rose. Mr. Goldenberg.
    Mr. Goldenberg. One hundred percent. As, again, as someone 
who is working abroad right now and watching these movements 
grow, watching these populous movements go from the margins to 
now as acceptable movements within some of these countries, 
they are communicating here. They are working with some of our 
players here, our actors. So I think there is more of a need 
now than ever.
    Mr. Rose. I want to speak more to the global nature of this 
and start to disabuse ourselves of the notion that there is 
something happening in Europe or throughout the rest of the 
world, and it is entirely separate from what is happening here.
    General, you led the fight against ISIL. Do you see any 
commonalities between the global Jihadist movement and the 
global Neo-Nazi movement?
    General Allen. I do. I am not an expert on this subject. I 
know the Islamic State and al-Qaeda pretty well, but the 
behaviors that I have seen lead me to believe that there is a 
connectivity that we should be certain of.
    This would be an area where I would want to focus serious 
intelligence resources to establish unambiguously--
``unambiguously'' is the term I will use--the connectivity 
between the two.
    You know, I said here now several times during my testimony 
that the environment in which we live today where so much of 
our moment-to-moment existence is defined by a cyber 
environment, where I have the capacity to, on an encrypted 
application, have near-real-time, actually real-time video, 
telephone, and SMS communications with someone anywhere in the 
world.
    The problem we had with the Islamic State was because of 
these applications and the internet and encrypted applications, 
they could plan strategically in a distributed manner separated 
by continents. They could move regionally by using criminal 
networks, and they could attack locally, and it could be all, 
as Director Comey used to call it, all in the dark, very 
difficult to perceive.
    That kind of connectivity knows no boundaries. It does not 
know mountains. It does not know oceans. That kind of 
connectivity is real time. It is instant at the speed of light 
and organizations that wish us ill harm, organizations that 
would attack the Jewish community of the United States, that 
are already attacking the Jewish community in Europe find 
allies in the United States over the cyber environment.
    We have left that line of communication open for them. So 
when we think about first designating them as a Neo-Nazi 
organization, as a Foreign Terrorist Organization, I do not 
know what the argument is.
    I need to have someone tell me why we would not because in 
the end if that organization wishes American interests and 
American citizens and our allies ill, which is a big part of 
why we designate someone as a Foreign Terrorist Organization, 
this seems to me it does not require a lot of debate.
    Mr. Rose. You mentioned earlier that you could not have 
conducted the fight against ISIL without the FTO designation, 
authority, or power or without these organizations labeled as 
such.
    Can you expand on that?
    General Allen. Let me say that it was quite helpful. I 
mean, I was doing lots of fighting against ISIS that did not 
require FTOs, but what FTOs would do was if they are non-
American citizens, and most of them are aliens, they cannot 
travel freely.
    When we work through the Department of Justice, when we 
have designated an organization and worked with the Department 
of Justice, when elements--and I will particularly talk about 
the Haqqani network, which was in the Federally-administered 
tribal areas. From your own experience, you remember what the 
Haqqanis did coming out of the highland.
    FTO designations for us gave us the capacity to limit their 
capacity to travel. It froze their resources, and it also gave 
us the ability to sanction those who provided material support 
to them.
    That is a very valuable asset, and just being on the list, 
an American list maintained through the State Department of 
being a Foreign Terrorist Organization creates for us a 
connectivity with our allies that is very valuable to us as 
well in dealing with this at a global level.
    Mr. Rose. Something that I urge you to consider in future 
reports is that over 17,000, nearly 20,000 foreign fighters 
have gone to fight with the Assad Battalion from 50 different 
countries.
    That is more than the number of foreign fighters that went 
to go fight with the Mujahidin at the height of the Soviet 
Union's war in Afghanistan.
    I cannot say with certainty, and please correct me if I am 
wrong, that we have a system in place right now to track every 
American who is going to fight with the Assad Battalion; is 
that correct?
    General Allen. That is not something I can comment on with 
any knowledge.
    Mr. Rose. Can I have your commitment that in your current 
capacity advising the Homeland Security Department that this is 
something that you will consider going further?
    General Allen. Absolutely.
    Mr. Rose. OK?
    Mr. Goldenberg. Yes.
    Mr. Rose. OK. Fantastic. Well, thank you so much, first of 
all, for your extraordinary service. It goes without saying 
that considering both of your extraordinary experience, you do 
not have to be doing this right now, and it exemplifies both 
your patriotism, your commitment to this country, and for that 
we are in deep, deep gratitude, and thank you for taking the 
time today.
    General Allen. Chairman, thank you for your leadership. 
Thank you for convening this hearing and for the additional 
work you plan to do on this.
    This is a direct threat to the American people, and thank 
you for your leadership in dealing with it.
    Mr. Rose. Thank you very much.
    The subcommittee stands adjourned.
    [Whereupon, at 5:39 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
